<html>
<title> - OUR NATIONAL FORESTS AT RISK: THE 1872 MINING LAW AND ITS IMPACT ON THE SANTA RITA MOUNTAINS OF ARIZONA</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]




 
 OUR NATIONAL FORESTS AT RISK: THE 1872 MINING LAW AND ITS IMPACT ON 
                  THE SANTA RITA MOUNTAINS OF ARIZONA

=======================================================================

                        OVERSIGHT FIELD HEARING

                               before the

                       SUBCOMMITTEE ON ENERGY AND
                           MINERAL RESOURCES

                             joint with the

                SUBCOMMITTEE ON NATIONAL PARKS, FORESTS
                            AND PUBLIC LANDS

                                 of the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

            Saturday, February 24, 2007, in Tucson, Arizona

                               __________

                            Serial No. 110-2

                               __________

       Printed for the use of the Committee on Natural Resources



  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                                   or
         Committee address: http://resourcescommittee.house.gov


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
33-608                      WASHINGTON : 2007
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON NATURAL RESOURCES

               NICK J. RAHALL II, West Virginia, Chairman
              DON YOUNG, Alaska, Ranking Republican Member

Dale E. Kildee, Michigan             Jim Saxton, New Jersey
Eni F.H. Faleomavaega, American      Elton Gallegly, California
    Samoa                            John J. Duncan, Jr., Tennessee
Neil Abercrombie, Hawaii             Wayne T. Gilchrest, Maryland
Solomon P. Ortiz, Texas              Ken Calvert, California
Frank Pallone, Jr., New Jersey       Chris Cannon, Utah
Donna M. Christensen, Virgin         Thomas G. Tancredo, Colorado
    Islands                          Jeff Flake, Arizona
Grace F. Napolitano, California      Rick Renzi, Arizona
Rush D. Holt, New Jersey             Stevan Pearce, New Mexico
Raul M. Grijalva, Arizona            Henry E. Brown, Jr., South 
Madeleine Z. Bordallo, Guam              Carolina
Jim Costa, California                Luis G. Fortuno, Puerto Rico
Dan Boren, Oklahoma                  Cathy McMorris Rodgers, Washington
John P. Sarbanes, Maryland           Bobby Jindal, Louisiana
George Miller, California            Louie Gohmert, Texas
Edward J. Markey, Massachusetts      Tom Cole, Oklahoma
Peter A. DeFazio, Oregon             Rob Bishop, Utah
Maurice D. Hinchey, New York         Bill Shuster, Pennsylvania
Patrick J. Kennedy, Rhode Island     Dean Heller, Nevada
Ron Kind, Wisconsin                  Bill Sali, Idaho
Lois Capps, California               Doug Lamborn, Colorado
Jay Inslee, Washington
Mark Udall, Colorado
Joe Baca, California
Hilda L. Solis, California
Stephanie Herseth, South Dakota
Heath Shuler, North Carolina

                     James H. Zoia, Chief of Staff
                   Jeffrey P. Petrich, Chief Counsel
                 Lloyd Jones, Republican Staff Director
                 Lisa Pittman, Republican Chief Counsel
                                 ------                                

              SUBCOMMITTEE ON ENERGY AND MINERAL RESOURCES

                    JIM COSTA, California, Chairman
          STEVAN PEARCE, New Mexico, Ranking Republican Member

Eni F.H. Faleomavaega, American      Bobby Jindal, Louisiana
    Samoa                            Louie Gohmert, Texas
Solomon P. Ortiz, Texas              Bill Shuster, Pennsylvania
Rush D. Holt, New Jersey             Dean Heller, Nevada
Dan Boren, Oklahoma                  Bill Sali, Idaho
Maurice D. Hinchey, New York         Don Young, Alaska ex officio
Patrick J. Kennedy, Rhode Island
Hilda L. Solis, California
Nick J. Rahall II, West Virginia, 
    ex officio
                                 ------                                

        SUBCOMMITTEE ON NATIONAL PARKS, FORESTS AND PUBLIC LANDS

                  RAUL M. GRIJALVA, Arizona, Chairman
              ROB BISHOP, Utah, Ranking Republican Member

Dale E. Kildee, Michigan             John J. Duncan, Jr., Tennessee
Neil Abercrombie, Hawaii             Chris Cannon, Utah
Donna M. Christensen, Virgin         Thomas G. Tancredo, Colorado
    Islands                          Jeff Flake, Arizona
Rush D. Holt, New Jersey             Rick Renzi, Arizona
Dan Boren, Oklahoma                  Stevan Pearce, New Mexico
John P. Sarbanes, Maryland           Henry E. Brown, Jr., South 
Peter A. DeFazio, Oregon                 Carolina
Maurice D. Hinchey, New York         Louie Gohmert, Texas
Ron Kind, Wisconsin                  Tom Cole, Oklahoma
Lois Capps, California               Dean Heller, Nevada
Jay Inslee, Washington               Bill Sali, Idaho
Mark Udall, Colorado                 Doug Lamborn, Colorado
Stephanie Herseth, South Dakota      Don Young, Alaska, ex officio
Heath Shuler, North Carolina
Nick J. Rahall II, West Virginia, 
    ex officio


                                 ------                                
                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on February 24, 2007................................     1

Statement of Members:
    Costa, Hon. Jim, a Representative in Congress from the State 
      of California, Statement submitted for the record..........     1
    Giffords, Hon. Gabrielle, a Representative in Congress from 
      the State of Arizona.......................................     3
    Grijalva, Hon. Raul M., a Representative in Congress from the 
      State of Arizona...........................................     2
        Prepared statement of....................................     3

Statement of Witnesses:
    Featherstone, Roger, Southwest Circuit Rider, EARTHWORKS.....    29
        Prepared statement of....................................    30
    Forsgren, Harv, Southwestern Regional Forester, U.S. Forest 
      Service, U.S. Department of Agriculture....................     5
        Prepared statement of....................................     6
        Response to question submitted for the record by Jeanine 
          Derby, Forest Supervisor, Coronado National Forest.....    81
    Huckelberry, Chuck, County Administrator, Pima County, 
      Arizona....................................................     8
        Prepared statement of....................................    10
    Levick, Lainie, President, Save the Scenic Santa Ritas.......    43
        Prepared statement of....................................    44
    Lunine, Cynthia, Private Landowner...........................    50
        Prepared statement of....................................    52
    Sturgess, James A., Vice President of Projects and 
      Environment, Augusta Resource Corporation..................    24
        Prepared statement of....................................    27

Additional materials supplied:
    Oral statements from audience members........................    60
    NOTE: Additional information submitted for the record has 
      been retained in the Committee's official files............


  OVERSIGHT FIELD HEARING ON ``OUR NATIONAL FORESTS AT RISK: THE 1872 
  MINING LAW AND ITS IMPACT ON THE SANTA RITA MOUNTAINS OF ARIZONA.''

                              ----------                              


                      Saturday, February 24, 2007

                     U.S. House of Representatives

      Subcommittee on Energy and Mineral Resources, joint with the

        Subcommittee on National Parks, Forests and Public Lands

                     Committee on Natural Resources

                            Tucson, Arizona

                              ----------                              

    The Subcommittees met, pursuant to call, at 10:00 a.m., in 
County Board of Supervisors Hearing Room, Pima County 
Administration Building, 130 West Congress Street, Tucson, 
Arizona, Hon. Raul M. Grijalva [Chairman of the Subcommittee on 
National Parks, Forests and Public Lands] presiding.
    Present: Representative Grijalva.
    Also Present: Representative Giffords.
    Mr. Grijalva. Thank you. The Subcommittee on National 
Parks, Forests and Public Lands will now come to order.
    Good morning, and it's good to be home. In a previous life, 
I never got to play in this room and it's good to be here. 
Welcome to the joint hearing. It's a joint hearing of the 
Subcommittee on National Parks, Forests and Public Lands, and 
the Subcommittee on Energy and Mineral Resources.
    Today, we will hear testimony on a proposed mine affecting 
both private land and the Santa Rita Mountains within the 
Coronado National Forest.
    My good friend, and colleague, Jim Costa, Chairman of the 
Energy and Mineral Resources Subcommittee, had planned to be 
here today to join me in taking this very important testimony. 
However, he is unable to be here, and without objection, I will 
submit his opening remarks for the record.
    [The prepared statement of Mr. Costa follows:]

            Statement of The Honorable Jim Costa, Chairman, 
              Subcommittee on Energy and Mineral Resources

    I wish to express the importance of today's hearing on ``Our 
National Forests at Risk: The 1872 Mining Law and Its Impact on the 
Santa Rita Mountains of Arizona.'' This hearing marks the first step in 
this 110th Congress to overhaul the 1872 General Mining Law under the 
leadership of Natural Resources Committee Chairman, Nick Rahall. This 
archaic statute, still on the books 135 years after President Ulysses 
Grant signed it, governs the disposition of ``hardrock'' minerals, such 
as gold, silver, and copper, on federally-owned public lands.
    There are many reasons this law should be replaced with a modern, 
comprehensive hardrock mining law. The proposed ``Rosemont'' mine, the 
subject of today's hearing, presents a good example of some of the 
problems caused by the 1872 Mining Law. Concerns related to water 
quality, air quality, and waste disposal, are just some of the issues 
that will be addressed by the witnesses today.
    I regret that due to the untimely death of a close friend and 
constituent, I am unable to attend this hearing. However, I have full 
faith and confidence that my colleague, The Honorable Chairman of the 
Subcommittee Parks, Public Lands and National Forests, Raul Grijalva, 
will take this important testimony, weigh carefully the significant 
issues and potential effects of the proposed mine on the citizens and 
environment of Tucson and Pima County, Arizona.
                                 ______
                                 
    Mr. Grijalva. Without objection, we will have 
Representative Gabrielle Giffords, who represents the area at 
issue, participate in today's hearing.
    Ms. Giffords. Thank you very much, Congressman.

 STATEMENT OF THE HONORABLE RAUL M. GRIJALVA, A REPRESENTATIVE 
             IN CONGRESS FROM THE STATE OF ARIZONA

    Mr. Grijalva. The 1872 Mining Act is a relic of the 19th 
Century, that still has profound impacts on the public lands in 
the West. Passed at a time when Congress was encouraging 
citizens to populate and develop the West, the law allows 
anyone to file a claim of mining on public lands, unless the 
lands have been specifically withdrawn by an act of Congress or 
Executive Order. The Mining Act is long overdue for reform.
    The values of manifest destiny implicit within this bill 
are no longer the values of this society or the West. While we 
do need minerals for modern life, our current value system 
favors protecting our public lands and forests, and ensuring 
the protection of endangered species, water quality and open 
space.
    The Mining Act allows claimants to mine on public lands 
without paying any royalties to the American taxpayer. Anyone 
can stake a claim on public lands, pay a nominal fee each year, 
and conduct mining operations. These operations bring in 
millions of dollars in private revenue without paying one dime 
in royalties to the American taxpayers. Some estimate that the 
mining industry has extracted $245 billion worth of the 
public's hard rock minerals without paying a royalty or a fee 
to the public.
    The impacts of mining in the West have been profound. More 
than 500,000 abandoned hard rock mining sites litter the United 
States, yet the 1872 Mining Act does not require them to be 
cleaned up. Hard rock mining is a source of toxic pollution in 
more than 1000 miles of Arizona's rivers and streams. All over 
the West, mining has left behind Superfund sites and other 
undesignated toxic waste sites.
    Yet the courts have interpreted the Mining Act to prevent 
federal land managers from disapproving a mine. In short, the 
Mining Act is a free-for-all on public lands. It's outdated and 
this process is the beginning process to reform it.
    As for the specific case before us today, Augusta Resource 
Corporation proposes to mine on private lands on the Rosemont 
Ranch, while disposing of the mining waste on the Coronado 
National Forest adjacent to the ranch.
    I am deeply concerned about this proposal that will use the 
irreplaceable forest lands as a dumping ground.
    I look forward to hearing the perspectives of the witnesses 
today on the implications of the proposed mine.
    [The prepared statement of Mr. Grijalva follows:]

        Statement of The Honorable Raul M. Grijalva, Chairman, 
        Subcommittee on National Parks, Forests and Public Lands

    Good morning and welcome to the joint hearing of the Subcommittees 
on National Parks, Forests and Public Lands, and Energy and Mineral 
Resources. Today we will hear testimony on a proposed mine affecting 
both private lands and the Santa Rita Mountains within the Coronado 
National Forest.
    Without objection, we will have Representative Gabrielle Giffords, 
who represents the area at issue, participate in today's hearing.
    The 1872 Mining Act is a relic of the nineteenth century that still 
has profound impacts on the public lands in the West. Passed at a time 
when Congress was encouraging citizens to populate and develop the 
West, the law allows anyone to file a claim for mining on public lands 
unless the lands have been specifically withdrawn by an act of Congress 
or Executive Order.
    The Mining Act is long overdue for reform. The values of Manifest 
Destiny implicit within the bill are no longer the values of this 
society. While we do need minerals for modern life, our current value 
system favors protecting our public lands and forests and ensuring the 
protection of endangered species, water quality, and open space.
    The Mining Act allows claimants to mine on public lands without 
paying any royalties to the American taxpayer. Anyone can stake a claim 
on public lands, pay a nominal fee each year, and conduct mining 
operations. These operations bring in millions of dollars in private 
revenue without paying one dime in royalties to the American taxpayer. 
Some estimate that the mining industry has extracted $245 billion worth 
of the public's hardrock minerals without paying a royalty or other fee 
to the public.
    The impacts of mining in the West have been profound. More than 
500,000 abandoned hard rock mining sites litter the United States, yet 
the 1872 Mining Act does not require them to be cleaned up. Hard rock 
mining is the source of toxic pollution in more than 1000 miles of 
Arizona's rivers and streams. All over the West, mining has left behind 
Superfund sites and other undesignated toxic waste sites.
    Yet, the courts have interpreted the Mining Act to prevent federal 
land managers from disapproving a mine. In short, the Mining Act is a 
free-for-all on public lands--it's outdated and we must reform it.
    As for the specific case before us today, Augusta Resource 
Corporation proposes to mine on private lands on the Rosemont Ranch 
while disposing of the mining waste on the Coronado National Forest 
adjacent to the Ranch.
    I'm deeply concerned about this proposal that will use 
irreplaceable forest lands as a dumping ground.
    I look forward to hearing the perspectives of the witnesses today 
on the implications of the proposed mine.
                                 ______
                                 
    Mr. Grijalva. And as we go on, I see a number of members of 
the audience are carrying signs today, and that's fine. But as 
long as no one uses a sign to block somebody else's view or 
attention to this meeting, that would be very much appreciated.
    At this point, I'd like to turn it over to Congresswoman 
Giffords, the opportunity for opening remarks.
    Ms. Giffords.

STATEMENT OF THE HONORABLE GABRIELLE GIFFORDS, A REPRESENTATIVE 
             IN CONGRESS FROM THE STATE OF ARIZONA

    Ms. Giffords. Well, I would first of all like to thank all 
of you for coming out today to this hearing, on an issue that 
has direct impacts to our county and our community.
    I also would like to thank Congressman Grijalva for having 
this hearing, and also to publicly congratulate him for his new 
subcommittee chairmanship of National Parks, Forests and Public 
Lands.
    It is important that we are gathering here to have a 
discussion and to learn about the impacts of this proposal.
    Let me be straight up front. I have some grave concerns 
about an 800-acre open pit mine in one of the most scenic areas 
of southern Arizona. The potential environmental impacts of 
this mine in the Santa Ritas are profound.
    Water pollution, air pollution, noise pollution, traffic 
hazards. The list goes on. In my view, the residents who are 
worried about these impacts have some very legitimate reasons 
to be concerned.
    I believe that the Santa Ritas are a national treasure. 
Anything that might threaten them must be taken seriously.
    I would also like to commend the Pima County Board of 
Supervisors for taking a very public position and a stance on 
this issue as well.
    But this specific mining proposal is only part of the 
reason why we are having this hearing today, and again, that's 
why I would like to commend Congressman Grijalva.
    Another aspect is the 1872 Mining Law. I think it's 
astounding, that this law was already 40 years old when Arizona 
just achieved statehood. It is telling, in my view, that the 
1872 law has no environmental, public health or safety 
provisions.
    As we all know, those of us from Arizona a long time, or 
recently arrived, that mining has a long history here in 
Arizona, particularly in Pima County. Its contributions to our 
economy, our political development and culture are well-known. 
But it's precisely because of the inability of the 135-year-old 
mining law to respond to the needs of our communities today, 
that congressional oversight and review of the law is necessary 
and important.
    So I look forward to hearing testimony from all sides, and 
again, I appreciate the opportunity to be here today. Thank 
you.
    Mr. Grijalva. Thank you very much. And today, the process 
will be like this. We are going to have three panels. Our first 
panel will include Harv Forsgren, Regional Forester for Region 
Three of the U.S. Forest Service, and Mr. Chuck Huckelberry, 
Pima County Administrator.
    On our second panel, we will hear testimony from Augusta 
Resource representative James Sturgess, and Roger Featherstone 
from EARTHWORKS.
    On the third, we will hear from Lainie Levick from Save the 
Scenic Santa Ritas, and Cynthia Lunine, a local landowner.
    Each of our witnesses will have five minutes of oral 
testimony and will also submit written testimony for the 
record.
    I encourage our witnesses to make their best efforts to 
keep their remarks to the five minutes allotted. There will be 
additional time for discussion during the question-and-answer 
period, in which Ms. Giffords and I will participate.
    After the invited guests speak, there will be an hour for 
public comment. Members of the public may have three minutes to 
speak. Speaker cards are available at the clerk's table. We 
will accommodate as many people as we can. I will recognize the 
elected officials in the audience first.
    If you do not have the opportunity to speak today, you may 
submit written testimony to the Natural Resources Committee 
within ten days of this hearing.
    Our first witness today is Mr. Harv Forsgren, and welcome 
to the Subcommittee, sir, and we look forward to your 
testimony. Please proceed.

        STATEMENT OF HARV FORSGREN, REGIONAL FORESTER, 
                      U.S. FOREST SERVICE

    Mr. Forsgren. Mr. Chairman, Representative Giffords, thank 
you for this opportunity to present the Department and Agency 
views on the impacts of the 1872 Mining Law on this Rosemont 
Mine proposal on the Coronado National Forest.
    The 1872 Mining Law, and its amendments, confer a statutory 
right to enter public lands, to search for, develop minerals, 
and engage in reasonably necessary associated activities. 
Whether those activities take place on or off mining claims, 
Department of Agriculture and Forest Service policy fully 
protects these statutory rights.
    The Federal Government's policy for mineral resource 
management is expressed in the Mining and Minerals Policies Act 
passed by Congress in 1970, which, in essence, directs agencies 
such as mine to foster and encourage private enterprise in the 
development of economically sound and stable industries, and 
the orderly and economic development of domestic resources to 
help meet industrial, security and environmental needs.
    The Department of Agriculture's long-standing policy 
regarding regulating mining operations on National Forest 
System lands, open to mineral entry. was reiterated in a 2003 
memorandum. The memorandum includes four key points.
    First. The Forest Service's locatable mineral regulations 
apply to operations on or off mining claims.
    Two. The Forest Service is not required to conduct mining 
claim validity exams before processing and approving proposed 
plans of operation.
    Three. The Forest Service will conduct a timely review of 
proposed operations and ensure proposed activities are required 
for and reasonably incidental to prospecting, mining or 
processing operations.
    And finally, four, the Forest Service will ensure 
operations comply with the regulations and minimize adverse 
environmental effects to the extent feasible.
    The Forest Service's mineral policy recognizes our role in 
contributing to an adequate and stable supply of mineral and 
energy resources while sustaining the land's capability to 
provide for other uses and its capability to support 
biodiversity goals.
    We have adopted regulations to guide implementation of 
these statutes and policies. Our regulations provide rules and 
procedures that all prospectors and miners must follow when 
operating on Forest Service System lands. The regulations are 
intended to identify and apply reasonable conditions which do 
not materially interfere with mining activities authorized by 
the 1872 Mining Law, and which prevent or minimize and 
mitigate, or reclaim adverse environmental impacts to surface 
resources.
    With that background, let me address the proposed Rosemont 
mine. The Rosemont property is part of a historic mining 
district which began producing copper in the late 1880's. Small 
underground workings and diggings in the district yielded 
copper and other metals, continuously, from 1915 to 1951. Over 
the last several decades, various large mining companies 
conducted mineral exploration in the mining district and two 
companies proposed land exchanges to facilitate mining in 
Rosemont Valley. Those proposals were subsequently dropped.
    However, in December of 1995, ASARCO, Incorporated was 
granted patents on 347 acres of National Forest Service System 
lands. The area Augusta Resource Corporation has proposed 
developing at the Rosemont mine includes these patented claims, 
adjacent private land patented in the late 1800's and early 
1900's, and unpatented mining claims on the Coronado National 
Forest. The Coronado National Forest received a preliminary 
mine proposal from Augusta on the 1st of August 2006.
    The proposal lacks sufficient detail to initiate the 
National Environmental Policy Act, or NEPA analysis, and was 
withdrawn by the company on October 20th of the same year.
    A proposal for exploratory drilling was subsequently 
submitted in December of 2006. It was necessary for the Forest 
to respond with a request for additional information. Augusta 
has revised the proposed drilling plan and resubmitted to the 
Coronado National Forest the day before yesterday.
    The Forest Service will evaluate their drilling proposal 
under our mineral regulations and NEPA. If the Forest 
subsequently receives a proposed plan of operations for 
development of the Rosemont mine from Augusta, we will also 
evaluate it under our mineral regulations and NEPA.
    There would likely be significant impacts from the proposed 
mine, so we anticipate the project evaluation would require an 
environmental impact statement.
    That represents the current status of the proposed mine. 
Thank you.
    [The prepared statement of Mr. Forsgren follows:]

Statement of Harv Forsgren, Southwestern Regional Forester, U.S. Forest 
            Service, United States Department of Agriculture

    Mr. Chairman and Members of the Committee, thank you for the 
opportunity to present the Department's views on the impacts of the 
1872 Mining Law on National Forest System lands, in particular in 
relation to the Rosemont Mine proposal on the Coronado National Forest.
Forest Service policy for administering the 1872 Mining Law
    Forest Service regulations provide rules and procedures for using 
the surface of National Forest system lands in connection with 
locatable mineral operations authorized by the 1872 Mining Law. This 
law and its amendments confers to a citizen a statutory right to enter 
upon public lands to search for and develop minerals and engage in 
activities reasonably necessary for such uses. Operations covered by 
these regulations include all reasonable activities, regardless of 
whether such operations take place on or off mining claims on National 
Forest System lands. All prospectors and miners whose proposed 
activities could result in significant environmental impacts must 
comply with these regulations through submittal and agency approval of 
plans of operation.
    All proposed activities are conducted to minimize, prevent or 
mitigate and reclaim adverse environmental impacts to surface 
resources. Reasonable conditions, which do not materially interfere 
with such operations, are required to ensure environmental impacts to 
surface resources are minimized. In evaluating a proposed plan of 
operations, the Forest Service considers the environmental effects of 
the mineral operation, including whether the proposed operation 
represents part of a well-planned, logically sequenced mineral 
operation. On lands that are open for entry under the 1872 Mining Law, 
the statutory right of the public to prospect, develop, and mine 
valuable minerals is fully honored and protected.
    The Forest Service Minerals Program Policy signed by Forest Service 
Chief Jack Ward Thomas in 1995 states that the Forest Service will 
``foster and encourage private enterprise in the development of 
economically sound and stable industries, and in the orderly and 
economic development of domestic resources to help assure satisfaction 
of industrial, security, and environmental needs.'' This national 
policy was affirmed by Chief Dale Bosworth in 2004.
    Likewise, the Department of Agriculture has a long-standing policy 
regarding mining operations on National Forest System lands open to 
mineral entry. In a portion of a 2003 informational memorandum to the 
Chief of the Forest Service, Under Secretary Mark Rey stated:
    1.  The Forest Service's locatable mineral regulations 36 CFR 228 
Subpart A have not been amended or limited and remain fully in effect 
for operations on or off mining claims.
    2.  The Forest Service is not required to conduct mining claim 
validity exams before processing and approving proposed plans of 
operation.
    3.  The Forest Service will conduct a timely review of proposed 
operations and continue to ensure proposed activities are required for 
and reasonably incidental to prospecting, mining, or processing 
operations.
    4.  The Forest Service will continue to ensure operations comply 
with the regulations and minimize adverse environmental effects to the 
extent feasible.
    For National Forest System lands that are open to entry under the 
1872 Mining Law, the Forest Service is not required to inquire into 
claim validity before processing and approving a plan of operation.
Mining on the Coronado National Forest
    The Rosemont property is part of the historic Helvetia Mining 
District, which began producing copper in the late 1880's. Small 
underground workings and diggings in the district yielded copper and 
other metals continuously from 1915 to 1951. Until 1950, total 
production from the Helvetia District included 227,300 tons of ore 
which yielded 17,290,000 pounds of copper, 1,097,980 pounds of zinc, 
and 180,760 ounces of silver. Over the last several decades, various 
mining companies conducted mineral exploration in the Helvetia Mining 
District, and two companies proposed land exchanges to facilitate 
mining in Rosemont Valley. These proposals were subsequently dropped 
when copper prices declined. In December 1995, ASARCO, Inc. was granted 
mineral patents on 347 acres of National Forest lands that were later 
sold in 2004. Shortly thereafter, Augusta Resource Corporation 
purchased the patented land and is currently interested in developing 
their mineral deposit. The Rosemont mine includes the land patented in 
1995, adjacent land which had been patented in the late 1800s and early 
1900s, and unpatented claims on National Forest System lands.
Coronado National Forest Land Management Plan
    The current management direction for minerals in the Coronado 
National Forest Land Management Plan is to support environmentally 
sound energy and mineral development and reclamation.
    The proposed Rosemont Mine is within Management Areas 1 and 4 in 
the existing Coronado National Forest Plan. Management area designation 
provides overall management direction for the area based on the 
resources and uses occurring in the area. Management emphasis in Area 1 
is for visual quality and semi-primitive dispersed recreation 
opportunities including those related to wildlife. There is no 
management direction for Area 1 that is specific to minerals. The 
emphasis for Management Area 4 is to manage for a sustained harvest of 
livestock forage and fuelwood while maintaining and improving game 
animal habitat. Visual quality objectives in this management area 
should be met or exceeded and dispersed recreation activities may 
occur, with the exception of those that adversely affect the 
productivity of the land or resources. Watershed and soil conditions 
will be improved or maintained. Direction for minerals management in 
Area 4 addresses mineral materials only, specifically, that permits 
will be required for common materials for personal or commercial use, 
and borrow pits will be located in areas such that resources or 
facilities will be enhanced.
    Concerning the Forest Plan revision, Phase I of the Comprehensive 
Evaluation Report for the plan revision will be completed in March, 
2007, and the revision itself is scheduled to be completed by December 
2008.
Rosemont Project
    The Coronado National Forest received a preliminary mine proposal 
from Augusta Resource Corporation on August 1, 2006. The proposal 
lacked sufficient detail to initiate National Environmental Policy Act 
analysis, and was retracted by Augusta Resource Corporation on October 
20, 2006. A proposal for geotechnical and hydrogeologic drilling was 
submitted to the Forest in December, 2006. The Forest responded with a 
request for additional information. The company is currently revising 
the proposed drilling Plan of Operations, and expects to resubmit it 
soon. The Forest Service will evaluate the drilling proposal under the 
National Environmental Policy Act with public involvement and 
disclosure and the appropriate analysis, documentation, and decision 
documents.
    If the Forest receives a proposed Plan of Operations for 
development of the Rosemont mine from Augusta Resource Corporation, it 
will be evaluated according to the locatable mineral regulations and 
the National Environmental Policy Act. The analysis and documentation 
in the National Environmental Policy Act process will be commensurate 
with the proposed mine activities.
    Thank you for this opportunity to address the Subcommittee. I will 
be pleased to answer any questions that you may have.
                                 ______
                                 
    Mr. Grijalva. Thank you very much, sir, and Mr. 
Huckelberry, you are now recognized for five minutes. Thank 
you.

                STATEMENT OF CHUCK HUCKELBERRY, 
               COUNTY ADMINISTRATOR, PIMA COUNTY

    Mr. Huckelberry. Good morning, Chairman Grijalva and 
Congresswoman Giffords. Pima County appreciates your holding 
this oversight committee hearing in our community today. We are 
honored with your presence and attention to this matter. Pima 
County has a long history, as a local Western government, of 
cooperating with Congress and the Federal Government and its 
various agencies and entities.
    We are the second largest growing urban county in Arizona. 
Our urban growth has been rapid and continuous. Through our 
concern for the environment, Western heritage and culture, we 
have, again, with the Federal Government's full cooperation and 
funding assistance, developed a blueprint for our urban future.
    Former Supervisor, now Congressman Grijalva, was 
instrumental in moving the planning process for the Sonoran 
Desert conservation plan into action and our present board has 
seen it through to completion.
    With federal planning funds, the county has completed the 
Sonoran Desert conservation plan, to ensure that the county 
remains fully compliant with federal law, particularly the 
Endangered Species Act, while continuing our population and 
economic expansion.
    The voters of Pima County have emphatically endorsed the 
conservation plan by authorizing over 200 million in local 
property tax-supported bonds to purchase open space and 
preserve important ecological systems, our Western heritage and 
cultural integrity.
    In the past, uncontrolled population growth and expansion 
have been the greatest threat to our national ecosystem of the 
Sonoran Desert. This threat has now been successfully managed 
through implementation of the Sonoran Desert conservation plan.
    Today, mining, as it has been conducted in the past, may 
pose the greatest single threat to our ability to create and 
sustain a livable community in Pima County.
    The past legacy of mining in Pima County is not good. 
Permanently scarred landscapes, water and air pollution, 
threats to public health, is what we presently have to show for 
decades of open pit copper mining.
    While we understand the need for these resources, their 
method of extraction from our landscape has been devastating. 
Mining has been an important component in our property tax base 
in the past. However, today, it represents less than one 
percent of our total property tax base.
    Mining has created direct as well as indirect adverse 
impacts to our environment. These impacts have been relatively 
unmitigated. Meaningful mine reclamation has been nearly 
nonexistent. Something must change. I would suggest that 
appropriate modifications are amendments to the 1872 Mining 
Law, to include at least one meaningful and real reclamation, 
generally concurrent with mining activities.
    Mining, once complete, should replicate the landscape in a 
manner to how it was found before mining commenced.
    Financial assurances, for reclamation and mitigation of 
adverse impacts, must be real, substantial, and accessible. 
Issues of bankruptcy and inadequate financial assurances must 
be addressed.
    Third. I'd suggest that the process and procedures for 
utilization of public lands for mining must become more 
transparent and open for public review and comment.
    The filing of mining claims must give substantially more 
rights to the surface fee simple owners than the current 
process affords.
    While mining companies and ventures now submit a plan for 
federal review, these plans have little and almost no 
information regarding reclamation. There is little or no 
thought given to the use of the land after the mine has been 
abandoned.
    With regard to the proposed open pit copper mine of 
Rosemont, the county's position has been unmistakable. We 
oppose this mine. The board of supervisors has passed 
resolutions in opposition. The mine's impacts on the landscape 
and environment, in all likelihood, cannot be mitigated. 
Therefore, the county has requested that all federal lands in 
the Santa Rita mountain range of the Coronado National Forest 
within Pima County be withdrawn from mineral entry.
    We have further and further requested, by resolution, that 
the remaining lands within the Coronado National Forest within 
Pima County be withdrawn from mineral entry.
    We further have requested that the county's national 
resource parks that we've purchased with taxpayers dollars be 
withdrawn from mineral entry.
    We believe that this withdrawal is warranted, for four 
reasons. First, because of the failure to amend the present 
mining law. There's no other way to protect land, where there 
are competing non-mineral interests but through congressional 
withdrawal.
    Secondly, we have worked with the Federal Government to 
protect our landscape through the conservation plan which 
creates a long-term vision for conserving cultural and national 
resources while allowing economic growth.
    Congress has been a partner with Pima County in this plan. 
It's been a partner with Pima County in creating the Las 
Cienegas National Conservation Area.
    The 1872 Mining Law undermines our conservation plan, and, 
in particular, the Rosemont mine is inconsistent with the 
formation of the Las Cienegas National Conservation Area.
    Third, Congress and the Bush Administration supports local 
governments having a say in federal land management.
    That being the case, a mineral withdrawal would be 
consistent with our local preference as expressed through our 
resolutions of our elected officials. We certainly recognize 
that other parts of Arizona may prefer mineral development. 
Pima County is an urban, large county. At this point it does 
not.
    Finally, Congress has previously withdrawn from mineral 
development areas around Tucson at the request of local 
governments. This mineral withdrawal in the Rosemont area is 
consistent with previous congressional actions to protect our 
natural landscapes. Thank you very much for your time and 
attention to this very important matter.
    [The prepared statement of Mr. Huckelberry follows:]

       Statement of Chuck Huckelberry, Pima County Administrator

    Chairman Grijalva, Chairman Costa, and subcommittee members, I 
would like to thank you for holding this hearing on the 1872 Mining Law 
and its impact on our Santa Rita Mountains, and for inviting Pima 
County to testify. This is a significant issue to the residents of and 
visitors to Southern Arizona, and therefore I greatly appreciate this 
opportunity to formally convey concerns on behalf of Pima County.
    Through implementation of the Sonoran Desert Conservation Plan, 
Pima County is successfully balancing an often divisive issue without 
Federal regulation: high population growth and the need to conserve 
important natural areas and ecological systems. However, the current 
1872 Mining Law is threatening this balance by permitting mining to 
occur, subject to review and Federal permitting, in unique natural 
areas such as the Santa Rita Mountains within the Coronado National 
Forest. The legacy of mining under the 1872 Mining Law has left Pima 
County with scarred landscapes and little or no chance of meaningful 
reclamation. Impacts from mining to air, water, and soil quality, 
continue to cause public health concerns.
    The population of Pima County recently reached 1 million people and 
continues to grow rapidly. There needs to be recognition by the Federal 
government that urban counties, such as Pima County, are no longer 
compatible with mining. With a strong and diversified economy, Pima 
County no longer needs to be dependent on the boom and bust cycles of 
mining. Furthermore, the amount of revenue from mining contributed to 
Pima County's tax base, and thus to local residents in the form of 
services, has declined drastically. From 1977 to 2007, mine 
contributions to the Pima County tax base declined from 15 percent to 1 
percent. The first step towards recognizing this is the withdrawal from 
mining of the Santa Rita Mountains within the Coronado National Forest 
in Pima County.

I. Background
    Like many western counties, Pima County has experienced and is 
still experiencing tremendous population growth. Recently it was 
announced that Arizona is the fastest growing state in the country. 
Also like many western counties, Pima County has been faced with the 
dilemma of how to continue accommodating such population growth, while 
conserving the unique natural open spaces that attract so many of us to 
this place. But unlike many western counties, Pima County has 
successfully developed and is implementing a largely locally funded 
plan, the Sonoran Desert Conservation Plan (SDCP), which balances this 
issue without the need for Federal regulatory actions that so often 
divide us. We now have a guide, based on the best science available, 
for which lands are suitable for development, and which lands are 
needed for conservation. With this guide, we are directing growth to 
areas suitable for development, and conserving sensitive areas through 
purchase and development set-asides, among other tools.
    Public support for the Sonoran Desert Conservation Plan has been 
high, as evidenced by voter approval of $174 million of bond funds in 
2004 to purchase lands for conservation. The County's current natural 
reserve system stands at more than 85,000 acres, not including Federal, 
State and other local government reserves. In 2000, President Clinton 
and Congress recognized the importance of our unique natural landscapes 
by creating the Ironwood Forest National Monument and the Las Cienegas 
National Conservation Area. Other Federally-owned natural reserves in 
Pima County include the Organ Pipe National Monument, Saguaro National 
Park, Buenos Aires National Wildlife Refuge, Cabeza Prieta National 
Wildlife Refuge, Goldwater Gunnery Range, the Coronado National Forest, 
Pusch Ridge Wilderness Area, Rincon Wilderness Area, Mt. Wrightson 
Wilderness Area, Baboquivari Peak Wilderness Area, and Coyote Mountain 
Wilderness area, totaling over 1.5 million acres.
    Almost all of the Federal reserves listed above are closed to 
mineral entry, notwithstanding mining claims that were valid at the 
time of their designation. The exception to this is the Coronado 
National Forest, outside of wilderness areas. Over 200,000 acres of the 
Coronado National Forest in Pima County, including the Santa Catalina 
Mountain Range and the Santa Rita Mountain Range, are open to mineral 
entry.
    The Santa Rita Mountains have been designated as both an Important 
Bird Area by the Audubon Society and a World Biodiversity Hotspot by 
Conservation International. The Santa Rita Mountains provide water to 
the Cienega watershed, which includes the Las Cienegas National 
Conservation Area, the County's Cienega Creek Natural Preserve, and the 
proposed Davidson Canyon Natural Preserve, and is a significant high-
quality water source for the Tucson basin. Cienega Creek is designated 
as a Unique Water of the State of Arizona and is home to Federally-
listed threatened and endangered species. The Unique Water designation 
confers the State's highest level of protection from degradation of 
water quality. Riparian areas containing perennial streams such as 
Cienega Creek and Davidson Canyon are extremely rare in Southern 
Arizona.
    Not only are the Santa Rita's important from a biological and 
hydrological standpoint, they also serve as an important recreation 
area and respite for Southern Arizonan's who live in the warmer, lower 
elevations. The Santa Rita Mountains are also highly visible from the 
Tucson urban area, and the communities to the east, west, and south. 
Sonoita Highway is a designated Scenic Highway that passes through the 
Cienega Valley along the eastern slopes of the Santa Rita Mountains.

II. Proposed Rosemont Mine
    On July 31, 2007, Augusta Resource Corporation submitted a draft 
plan of operations to the U.S. Forest Service for the proposed Rosemont 
Mine south of Tucson within the Santa Rita Mountains. The Forest 
Service did not accept the draft plan for review due to insufficient 
information in the plan. Pima County completed a review of the plan of 
operations and provided Augusta with the opportunity to respond to 
County concerns.
    Pima County's comments included performance criteria that should be 
met by any development, mining or other, proposed for this area. The 
performance criteria dealt with concerns that the County has regarding 
permanent destruction of habitat for wildlife and vulnerable species, 
conformance to Pima County's Sonoran Desert Conservation Plan, 
prevention of water quality and quantity impacts on both sides of the 
mountain range but especially to Davidson Canyon and Cienega Creek, air 
quality impacts, visual impacts, concurrent reclamation, and an 
environmental enhancement endowment.
    This mine, as proposed, calls for the damming up of Barrel Canyon, 
a major water source for Davidson Canyon and Cienega Creek. This would 
have a devastating impact on the rare riparian habitat found along 
these areas by reducing flows. It would also impact flows to the Las 
Cienegas National Conservation Area. These riparian areas are so unique 
that Pima County has spent over $30 million conserving land along 
Cienega Creek and Davidson Canyon. We do not yet know how the proposed 
Mine will address conformance to the Clean Water Act, Stormwater and 
Section 404 permit requirements regarding the deposition of dredge and 
fill materials into waters of the United States.
    Pima County has questioned the validity of Augusta's mining claims 
on Forest Service land. Lode claims are not valid unless the claimant 
can prove that the lode claims can be mined for the recovery of 
valuable minerals. The minerals have to be valuable enough that a 
reasonable profit can be expected to be made after subtracting the 
costs to mine the minerals and the costs to comply with required 
governmental rules, regulations, and mitigation. In this case, Augusta 
is not proposing to mine the minerals associated with the Forest 
Service claims, but instead to dump mine waste on the public lands from 
mining activities on their private lands. This has brought into 
question whether or not the minerals attached to the lode claims are 
indeed valuable and valid.
    On December 12, 2006, Pima County asked the Forest Service to 
request that Augusta prove the validity of these claims before 
countless more time and money are spent on reviewing future plans of 
operations. On February 11, 2007, the Forest Service responded by 
stating, ``it is not current practice, nor is it Forest Service policy, 
to challenge mining claim validity, except when a) proposed operations 
are within an area withdrawn from mineral entry, b) when a patent 
application is filed, and c) when the agency deems that the proposed 
uses are not incidental to prospecting, mining, or processing 
operations.'' Pima County respectfully disagrees. Current practice and 
policy do not preclude the Forest Service from requesting such a 
validity exam. It makes little sense for countless taxpayer dollars to 
be spent on a lengthy Federal review of a plan of operations that may 
be flawed due to invalid mining claims. Withdrawal of this area from 
mining would result in a validity examination.
    Residents of Pima County have successfully opposed mining on this 
site in the past. Land exchanges with the Federal government for the 
purpose of facilitating mining on this property were pursued to 
different extents in 1970 and 1997. In 1997, ASARCO proposed a land 
exchange in this location to facilitate development of a copper mine. 
ASARCO held unpatented mining claims, as Augusta does now, but ASARCO 
sought to bring further validity to their right to use the land for 
mining via a land exchange. In May of 1997, the Pima County Board of 
Supervisors passed a resolution in opposition to the land exchange. The 
Santa Cruz County Board of Supervisors and Tucson City Council passed 
similar resolutions. In early 1998, ASARCO dropped the effort to pursue 
the land exchange and develop the mine.

III. Legacy of Mining in Pima County
    The concerns of Pima County regarding the proposed Rosemont Mine 
are more than reasonable, and by the high attendance levels at Board of 
Supervisors meetings where this issue was discussed, it is obvious that 
many members of the public share some of these concerns. Many of us 
have seen firsthand the legacy left behind by mining. The costs and 
adverse impacts placed on the local residents and taxpayers of Pima 
County far outweigh the few local tax benefits received from these 
mining projects.
    Arizona has a long history associated with the mining of our 
mineral resources. Pima County has been the State's largest producer of 
copper from time to time, and numerous other mining activities that 
have occurred throughout the State in the last 200 years. It is readily 
apparent that Arizona's rapid population expansion and urban growth, 
now the fastest growing state in the country, are not compatible with 
historic or continuing mining activities.

A. Past Mitigation and Reclamation Inadequate
    One of the largest issues associated with past mining activities is 
the lack of any meaningful reclamation or mitigation of adverse impacts 
experienced by local communities from these practices. Over 35,000 
acres, an area almost twice the size of Tucson Mountain Park, have been 
or are being used for mineral extraction purposes in Pima County. Much 
of this land is idle open pits or tailings ponds not now producing any 
valuable minerals. To my knowledge there are no plans by any inactive 
or active mine, particularly an open pit copper mine, to attempt to 
restore the natural landscape through the removal of tailings, 
depositing the same in the existing open pit, and restoring the general 
natural landscape. There has been almost no meaningful reclamation of 
any open pit copper mine, or for that matter, any former large sand and 
gravel operation in Pima County.
    Pima County is assisting with reclamation efforts. Since 1998, Pima 
County has worked with ASARCO to build soil and revegetate the Mission 
Mine waste piles through the use of high-quality biosolids. The 
University of Arizona's Water Quality Center has been monitoring and 
evaluating the environmental and health impacts related to the mine 
tailings reclamation with biosolids. Rapid revegetation of mine 
tailings is possible with a combination of biosolids and native grass 
seedings, even without irrigation. Sites revegetated in 1998 and 2000 
still have a higher percentage of cover under non-irrigated conditions 
than is typical for undisturbed Sonoran desert scrub <SUP>1</SUP>.
---------------------------------------------------------------------------
    \1\ Pima County Wastewater Management Department, 2006. Pima County 
Green Valley BNROD Biosolids Land Application, Mine Tailings 
Reclamation at ASARCO's Mission Complex, April 2006.
---------------------------------------------------------------------------
    While the County's biosolids might help, they are but a ``drop in 
the bucket'' of unfunded mining reclamation and mitigation needs. 
ASARCO's estimated liability for the Mission mine reclamation and 
cleanup is around $415 million, and the land surface from which native 
cover has been greatly disturbed or removed entirely covers around 
11,300 acres <SUP>2</SUP>.
---------------------------------------------------------------------------
    \2\ Kuipers, Jim. 2003. Financial Assurance and Mine Reclamation 
and Closure. The Mineral Policy Center: Center For Science in Public 
Participation.
---------------------------------------------------------------------------
    ASARCO started the Mission Mine near Sahuarita in the 1950s. By 
1959, ASARCO had received a lease issued by the Bureau of Indian 
Affairs (BIA) to extend their operations onto the San Xavier District 
of the Tohono O'odham Nation. Many environmental laws were passed by 
Congress in the last 40 years, but the Federal government has not 
successfully imposed these laws upon this mining operation. To date, 
there is no approved mining plan or reclamation plan, as we believe is 
required by State law, for the portion of the mine on tribal land, nor 
is there an aquifer protection permit <SUP>3</SUP>. The Tribe is 
concerned about the sulfate groundwater contaminant plume and movement 
of tailings downstream by air and surface water.
---------------------------------------------------------------------------
    \3\ There is an IGA between BLM and the State, which in theory 
allows the state to require an APP on tribal lands.
---------------------------------------------------------------------------
B. Impacts to Water Quality and Quantity
    Mining can have a profound affect on aquatic ecosystems. Although 
the extraction of minerals has a negative impact on the landscape, it 
is the processing of ore that greatly impacts aquatic resources. Most 
of the mining in Pima County is performed using open pit mines, which 
process the ore through a flotation process using water. The rejected 
materials from this process are then discarded into tailings ponds 
where the water evaporates, leaving a large pile of mineralized 
materials. Possible impacts on aquatic habitats from mining include the 
reduction of water resources from increased groundwater pumping and the 
siltation of streams and reduced water quality due to runoff from the 
tailings piles. Furthermore, a recent study of 70 Environmental Impact 
Statements for modern-era hard rock mines found that impacts to water 
quality are continually underestimated, which causes mitigation to 
consistently be inadequate.
    The loss of an entire native fish population along Cocio Wash in 
Avra Valley is a good example of the potentially damaging effects that 
mining can have on aquatic ecosystems. In 1967, an Arizona Game and 
Fish Department (AGFD) biologist discovered the Federally-endangered 
Gila topminnow in the Cocio Wash, about 1.5 miles downstream of the 
Silverbell Mine. Several years later, in 1973, Arizona State University 
biologist W.L. Minckley informed the BLM that the endangered Gila 
topminnow occurred on a mix of Federal and private lands. Dr. Minckley 
also found longfin dace and leopard frogs at the Cocio Wash site. The 
owner of the mine commissioned Dr. Minckley to study the effects of 
mine seepage on the downstream riparian community. Dr. Minckley noted 
that copper and lead were highly concentrated at the site, and that the 
seepage from the Silverbell Mine tailings may present long-term damage 
to the animals found at Cocio Wash.
    In 1980, the longfin dace and leopard frogs had disappeared from 
the site, but the Gila topminnow remained. At the same time, green 
sunfish from a tailings pond at the mine had been washed downstream 
into Cocio Wash and topminnow numbers seemed low. Subsequent floods 
washed out the sunfish in 1981, and while the topminnow survived the 
floods, they could not survive the gray clay and siltation from the 
mine tailings that were washed into the Cocio Wash pools. BLM biologist 
Bill Kepner reported, ``Our 1982 studies indicate that the Cocio Wash 
topminnow population is now extinct in that habitat due to recurrent 
mine spill and inundations by mine tailings.'' From 1973 to 1982, the 
site was heavily managed by BLM and AGFD. Despite having been protected 
by Federal law, and having survived for thousands of years as a relic 
population, the combined management actions were not enough to protect 
the Cocio Wash drainage from the mine seepage and tailings deluge from 
the Silverbell Mine.
    In 2005, water use for metal mining accounted for 10 percent of the 
total water use in the Tucson Active Management Area (AMA) or enough 
water to serve about 45,000 households for one year <SUP>4</SUP>. The 
agriculture sector used 30 percent, while the municipal sector used 55 
percent and other industrial sectors used 5 percent of the water in the 
Tucson AMA <SUP>5</SUP>. A significant portion of the water extracted 
for metal mining comes from Phelps-Dodge's wells at Canoa Ranch. The 
groundwater pumping in the area lowers the water table, and affects the 
long-term viability of the riparian habitat.
---------------------------------------------------------------------------
    \4\ An acre-foot is 325,851 gallons, enough to serve two average 
households for one year. For 22,400 acre-feet, this is enough water to 
serve about 45,000 households for one year.
    \5\ http://www.azwater.gov/WaterManagement--2005/Content/AMAs/
TucsonAMA/TAMA--documents/2005--TAMA--Water--Use--Summary.pdf
---------------------------------------------------------------------------
    Unlike the municipal sector, mines are not required to use or 
recharge CAP water or reclaimed water in the Tucson AMA to offset their 
groundwater pumping. State laws do not impose restrictions upon their 
groundwater use to protect nearby wells from excessive rates of 
depletion.

C. Endangered Pima Pineapple Cactus
    The Pima pineapple cactus is a Federally endangered species found 
in southern Pima County. Mining has resulted in the loss of hundreds of 
acres of potential habitat for this species. The various mines near 
Green Valley cover thousands of acres of formerly potential habitat. 
When the Mission Mine was expanded in the 1980s, dozens of Pima 
pineapple cactus were destroyed as mine tailings covered the cactus and 
the surrounding landscape <SUP>6</SUP>. Actions associated with mineral 
extraction, such as constructing roads, tailings piles, and settling or 
leaching ponds can also contribute to habitat loss and are expected to 
continue or increase throughout the range of the cactus.
---------------------------------------------------------------------------
    \6\ U.S. Fish and Wildlife Service. August 20, 1993. ``Endangered 
and Threatened Wildlife and Plants: Determination of the Endangered 
Status of the Plant Pima Pineapple Cactus.'' Federal Register. Final 
Rule. Vol. 58, No. 183. pp. 49875.
---------------------------------------------------------------------------
D. Invasive Species
    As a result of the changed and disturbed surfaces of mining 
operations, many mining sites are colonized by invasive non-native 
species. Once established on-site, invasive species can spread into the 
natural surrounding areas. One species of particular concern in Pima 
County is buffelgrass. Buffelgrass chokes out native plants, and for 
ten months of the year, provides fuels for devastating fires that can 
destroy desert vegetation. The desert is not a fire-adapted ecosystem. 
Originally planted to stabilize slopes, buffelgrass is found on 
roadsides and on the tailings slopes of many of the Green Valley mines. 
The first known buffelgrass fire was in 1994, at the Duval Mine 
<SUP>7</SUP>.
---------------------------------------------------------------------------
    \7\ Doster, Stephanie. No date. ``Battling Buffelgrass.'' Institute 
for the Study of Earth. Accessed: http://www.ispe.arizona.edu/news/
articles/buffelgrass.html
---------------------------------------------------------------------------
E. Bankruptcy
    Mining is inherently risky, not only due to the nature of the 
global metals market, but also because contamination risks have been 
consistently underestimated by the industry. These risks sometimes mean 
even large mining companies can go bankrupt. In 2005, 106-year old 
ASARCO filed for bankruptcy, blaming environmental liabilities, 
including asbestos-related litigation <SUP>8</SUP>. The move allowed 
parent company Grupo Mexico to isolate the most profitable parts of the 
company from about $1 billion in liabilities, including 19 Superfund 
sites. The Government Accountability Office said U.S. Environmental 
Protection Agency officials expect more such bankruptcies <SUP>9</SUP>.
---------------------------------------------------------------------------
    \8\ Stauffer, Thomas, Joseph Barrios and Andrea Kelly, 2005. 
``Asarco seeks bankruptcy protection'', Arizona Daily Star, August 11, 
2005.
    \9\ Blumenthal, Les, 2006. Asarco leaves legal heartburn. The News 
Tribune. March 20th, 2006. 
Accessed at: http://www.wncja.org/documents/news/2006-3-
20%20News%20Tribune%20-%20
Asarco%20leaves%20legal%20heartburn.doc on January 30, 2007.
---------------------------------------------------------------------------
    ASARCO promised the San Xavier District of the Tohono O'odham 
Nation that reclamation of the Mission Mine would be done. There is a 
$10 million bond for reclamation on the reservation. The San Xavier 
District has tried to increase the bond to get adequate financial 
assurance that reclamation will be done, but they have not succeeded. 
ASARCO's bankruptcy means that the promises to the tribe are just one 
liability among many that the bankruptcy courts and banks are 
negotiating across the country. Filing for protection under bankruptcy 
could mean that ASARCO will walk away from their obligations to the 
tribe and others.

F. 1872 Mining Law
    The landscape of the western United States is littered with mining 
claims that survive indefinitely, whether mining occurs or not. The 
free access to minerals on State, private, County and Federal lands 
under the 1872 Mining Law makes it very difficult to assure land is 
protected or managed. The 1872 Mining Law also makes it possible for 
individuals to ``lock up'' access to the mineral estate, even when 
there is no real intent to mine.
    There is a long history of abuses of the 1872 Mining Law by 
individuals who have no intention to mine. For instance, in the 1970s, 
a person named Merle Zweifel filed claims on 600,000 acres of land 
along the future route of the Central Arizona Project. While he 
reportedly acknowledged that he would never actively explore for 
minerals there, Zweifel did apparently make money filing nuisance 
claims <SUP>10</SUP>. The Federal government had to sue Zweifel to 
clear the claims placed on the five billion-dollar Central Arizona 
Project.
---------------------------------------------------------------------------
    \10\ B. Newman, ``Never Mined: Merle Zweifel Claims Acres of 
Mineral Land, But What is He Up To?'' Wall Street Journal, Jan. 20, 
1972, in Leshy, John. The Mining Law. Resources for the Future. 
Washington, D.C. p.79
---------------------------------------------------------------------------
    In a similar manner, claims were placed for iron ore in the 1970s 
on Casas Adobes Estates, a subdivision in Tucson. After a costly court 
battle with the surface owning residents, the claims were successfully 
contested. Eventually Congress withdrew large areas around Tucson and 
Phoenix from mineral entry to prevent a recurrence of spurious claims 
on otherwise valuable lands <SUP>11</SUP>.
---------------------------------------------------------------------------
    \11\ John Lacy, ``Conflicting Surface Interests: Shotgun Diplomacy 
Revisited,--Proceedings of the Rocky Mountain Mineral Law Institute, 
vol. 22 (1976) in Leshy, John. The Mining Law. Resources for the 
Future. Washington, D.C. p.80
---------------------------------------------------------------------------
G. Management Challenges
    Abandoned mines pose a number of challenges for our management of 
County-owned lands. First, they present immediate public hazards. In 
almost every case the public routinely ignores signage, fencing and 
even gate barriers to explore the shafts. Open exploration pits pose 
hazards for cross-country hikers, equestrian riders or mountain bikers.
    In some cases the mine waste associated with exploration sites may 
pose environmental hazards. We have situations on several open space 
properties, including Rancho Seco, where after environmental testing 
the area around a site has been fenced to restrict public use as a 
precautionary action. This also can lead to impacts to localized 
watersheds and watercourses. If there is milling or processing activity 
associated with abandoned mines, the potential for airborne, surface 
and subsurface contamination increases. Costs for testing and fencing 
can easily run over $15,000 to $20,000 for an area of mining activity 
of less than two or three acres. Formal remediation can run into the 
hundreds of thousands of dollars, or more.
    When trying to close mine shafts we also encounter significant 
costs. All shafts need to be evaluated for historical and biological 
values, especially for bats, and special status species under the 
Sonoran Desert Conservation Plan. A simple shaft can require $5,000 to 
$7,000 just for the baseline survey needs. Depending on the results, 
the shaft may be fenced, gated, filled in, or other approaches to 
closure appropriate for the location and hazard. Formal gating of a 
shaft could run $10,000 to $15,000, depending on size, complexity of 
the gating system and necessity to accommodate bat/wildlife use. If 
gating items and personnel need to be flown in, the price can double.

H. Public Health Risks
    Active copper mines release other toxic substances in the course of 
crushing and concentrating the ore-bearing rock. The Environmental 
Protection Agency's (EPA) Toxic Release Inventory indicates that 
Phelps-Dodge's Sierrita Mine near Green Valley released 1,053 pounds of 
mercury and 1,243,048 pounds of lead in 2004. The Mission Mine, 
operated by ASARCO, a subsidiary of Grupo Mexico, emitted 1,211,184 
pounds of lead in 2004. It is located near Sahuarita. Over 100 miles of 
streams in Arizona are considered impaired by excessive copper, which 
can be toxic to aquatic organisms. Arizona's mines are the largest 
known sources of impairments for rivers and streams <SUP>12</SUP>.
---------------------------------------------------------------------------
    \12\ National Assessment Database, Environmental Protection Agency.
---------------------------------------------------------------------------
    Processing methods for copper can enhance the concentration of 
naturally occurring radioactive materials coming from mines. EPA has 
compiled data regarding the concentration of radioactive substances in 
the Arizona copper belt. The results show that certain common mining 
practices can concentrate soluble pollutants such as uranium and 
thorium in groundwater <SUP>13</SUP>. Elevated levels of uranium have 
been detected in groundwater at Phelps-Dodge's mines near Green Valley. 
EPA and ADEQ are looking into the issue and have requested that Phelps-
Dodge respond.
---------------------------------------------------------------------------
    \13\ U. S. Environmental Protection Agency, 1999. Technologically 
Enhanced Naturally Occurring Radioactive Materials in the Southwestern 
Copper Belt of Arizona. Office of Radiation and Indoor Air, EPA 402-R-
99-002.
---------------------------------------------------------------------------
    High levels of sulfate and other non-toxic salts have entered 
groundwater in Green Valley from the Sierrita Mine. There is no 
enforceable health standard for sulfate, but it can cause problems with 
taste and digestion. As a result of concern expressed by Green Valley 
residents, Phelps-Dodge is providing a temporary replacement for two 
wells in the sulfate contaminant plume owned by Community Water in June 
2005 until a permanent solution is developed and implemented.
    Many of the mining facilities also have the potential to generate 
large amounts of dust. Such dust, or PM10, is one of the most serious 
air quality health concerns in Pima County and can cause a variety of 
health problems, including breathing difficulties, respiratory pain, 
reduced lung function, weakened immune system, increased severity of 
acute bronchitis and asthma, heart attacks, and premature death (1 to 8 
years).
    Pima County has been interested in acquiring BLM's surplus 540-acre 
Saginaw Hill property for park purposes since the 1980s because of its 
excellent location in a growing region of the County, but has been 
unable to do so because the property includes the toxic remnants of 
mining activities that began in the late 19th Century and continued 
into the 1950s. A limited environmental assessment conducted for Pima 
County in 1988 found problematic levels of a number of metals on the 
Saginaw Hill property, including aluminum, cadmium, copper, lead, and 
zinc. Acidic vapors were also noted on the site, and a variety of 
physical hazards were also present, including adits, shafts, test pits, 
tailings piles, and slag dumps.
    A 2005 study conducted by BLM at Saginaw Hill detected several 
chemicals of concern on the property, including arsenic, lead, 
antimony, copper, mercury and thallium. The study found that 
``Concentrations of these metals in waste material significantly exceed 
all risk-based guidelines and therefore pose a potential threat to 
human health and the environment.'' In addition, groundwater is 
contaminated in the direct vicinity of one of the property's mining 
sites, raising concerns about impacts to the surrounding area's 
drinking water. BLM is actively pursuing the remediation of the site, 
but even the most bare-bones solution is expected to cost more than $2 
million, and its ultimate efficacy remains in question.

IV. Pima County's Recent Threats from Mining Under the 1872 Mining Law
    Pima County has spent a considerable amount of public resources 
protecting our natural open space reserves from the threat of mining 
activities and, in particular, the filing of speculative mining claims 
for mineral exploration on County-owned public lands. Even our Tucson 
Mountain Park is subject to such threats. In 1981, the Bureau of Land 
Management received a notice for oil and gas exploration within Tucson 
Mountain Park. The County clearly opposed such exploration and in a 
County letter by Gene Laos, then Director of Parks and Recreation, 
stated ``In 1974 the people of this community voted overwhelmingly to 
outright purchase an additional 2,000 acres for Tucson Mountain Park 
just so this type of thing would not happen. We have literally spent 
millions of dollars restoring and revegetating the old mineral scars 
from the 1920-1950 and we are not about to sit idle and watch this 
whole sequence of events occur again.'' Tucson Mountain Park was 
established in 1929, and the United States Department of the Interior 
withdrew Tucson Mountain Park from mining and homesteading that same 
year. In 1959, a portion of the park was reopened to mineral entry by 
the Department of the Interior. The reopening, and prospect of mining 
operations in Tucson Mountain Park, caused an immediate explosion of 
public furor and outcry, which resulted in the withdrawal to mineral 
entry, and established the Tucson Mountain District of Saguaro National 
Park.
    In 2005, Pima County began retaining outside legal counsel with 
expertise in mineral rights to object to mining claims filed on 
property acquired by Pima County. In the case of the 30,000-acre Rancho 
Seco recently acquired by Pima County, it was determined that 
individuals locating claims on County property were more of a nuisance 
than a real threat due to limited mineral values. Staff continues to 
have to monitor the situation. Mining activities on Federal in-holdings 
adjacent to our acquired lands at Rancho Seco have caused considerable 
destruction of the natural landscape and potential environmental 
contamination. During the acquisition hearings for Rancho Seco, 
individuals conducting mining activities on BLM parcels within Rancho 
Seco alleged that the property was a toxic waste dump. Testing of 
County lands acquired resulted in fencing off old mine tailings because 
of contaminants in the soil. The level of these contaminants was 
significant enough that public contact with the soil could have 
resulted in adverse health effects. BLM was notified of the statements 
made by these individuals, and Pima County requested that BLM take 
appropriate action to ensure that any contamination by these 
individuals be remediated. These individuals continue to conduct mining 
activities on Federal lands adjacent to the County land.
    More recently, our opposition to State and Federal mining leases 
within Davidson Canyon has been well documented. We are opposing an 
application for mineral extraction of mineral rights owned by the 
Federal government under State Trust land in a significantly sensitive 
and valuable ecosystem, Davidson Canyon.
    We were recently notified by BLM of a potential filing of mining 
claims and mineral exploration by BHP (the mining company responsible 
for the copper mine in San Manuel that ceased operations in 1999) on 
the County-owned Six-Bar Ranch in the San Pedro Valley, along a key 
tributary to the San Pedro River.

V. Urban Counties Not Compatible with Mining
    A recent newspaper article regarding a new copper mine coming 
online in Safford (Graham County, Arizona) touts the economic benefits 
to the Town. Rural towns and counties such as this are in need of jobs 
and tax benefits, which a mine can bring. Almost all of the various 
residents cited in the article spoke in support of the mine and the 
benefits the mine will bring to the Town.
    Nothing could be further from the newspaper articles surrounding 
the proposed Rosemont Mine in Pima County. The majority of comments 
come from residents in Pima County who are concerned about the proposed 
mine's impacts to air, water, soil, unique natural habitats, wildlife, 
views, recreation, and the economy. Those in support of the proposed 
Rosemont Mine and other proposed mines in Pima County are in the 
minority.
    The population in Pima County recently reached 1 million. The 
majority of residents live in the Tucson metropolitan area in eastern 
Pima County. For better or for worse, the urban population can reach 
most areas in eastern Pima County in less than an hour. A mine can no 
longer be hidden in an area so remote as to not have an impact on the 
people who live here.
    Moreover, mines in Pima County are no longer an economic windfall. 
Pima County has a stronger and more diversified economy than rural 
western counties, and no longer needs to be dependent on the boom and 
bust cycles of mining. The amount of revenue from mining contributed to 
Pima County's tax base, and thus to local residents in the form of 
services, has declined drastically. Tax assessment ratios affect the 
amount of taxes levied on mines relative to other land uses. From 1977 
to 2007, the State has decreased the assessment ratio for mines from 60 
percent to 25 percent. During this same time period, mine contributions 
to the Pima County tax base declined from 15 percent to 1 percent. 
Economically, Pima County no longer needs mines.
    There needs to be recognition by the Federal government that mining 
is no longer compatible with urban counties such as Pima County. In the 
long term, comprehensive reforms to the 1872 Mining Law are necessary. 
In the short term, support for Congressional withdrawal from mining of 
the Santa Rita Mountains within the Coronado National Forest in Pima 
County is needed.
    Reform should not ignore rural counties. No matter how much a rural 
county may benefit economically from mining, there is still an equal 
need for reformed mitigation and reclamation measures.

VI. Strategies to Protect the Natural Ecological Resources of County-
        Owned Property and Protect the Public Health from Adverse 
        Impacts Due to Mineral Exploration and Mining Under the 1872 
        Mining Law
    Filing of mining claims, trespass and mineral extraction or the 
mineral exploration activities associated with mining claims have 
become a major threat to our preservation of natural resources, a 
significant potential threat to public health, and a financial drain on 
taxpayers. A comprehensive approach is necessary to resolve these 
threats, manage the filing of speculative mining claims, and to 
mitigate the adverse effects of mineral extraction.
    There are several strategies Pima County is undertaking to protect 
natural open space reserves owned by Pima County and others in Pima 
County, that are open to Federal mineral entry, as well as to address 
public health concerns, and to protect local taxpayers.
    1.  Pima County continues to be actively involved in reviewing and 
making recommendations on mining applications at the Federal level. 
This includes the proposed Rosemont Mine on Forest Service land in the 
Santa Ritas.
    2.  Pima County is pursing Congressional withdrawal from mining of 
certain lands via our Congressional Delegation.
    3.  Pima County intends to be more involved in the long-term land 
use planning of lands associated with mining, so that the lands can be 
planned for an economically beneficial use post mining.
    4.  Pima County is cooperatively working with the University on 
reclamation projects such as the use of bio-solids.
    5.  Pima County will continue to encourage compensatory acquisition 
of lands to offset the irreversible losses that come with digging up 
the land surface through open pit mining. Off-site land acquisitions 
funded by the mining industry should help build the Conservation Lands 
Systems for the Sonoran Desert Conservation Plan.

VII.  Resolution 2007-15 of the Pima County Board of Supervisors 
        Opposing the Proposed Rosemont Mine
    In a packed Board hearing room on January 16, 2007, the Pima County 
Board of Supervisors approved Resolution 2007-15, opposing the proposed 
Rosemont Mine (resolution attached). Through this resolution, the Board 
also resolved to request that the Arizona Congressional Delegation 
initiate the permanent withdrawal from mining and mineral exploration 
of all Federal lands within the Santa Rita Mountain Range of the 
Coronado National Forest, as well as the withdrawal from mineral entry 
of all Pima County natural reserves.
    The Mayor and Council of the Town of Sahuarita passed a similar 
resolution on January 22, 2007, and also resolved to request that the 
Arizona Congressional Delegation initiate the modernization of the 1872 
Mining Law (resolution attached). Other local governments and agencies 
in Southern Arizona are considering similar resolutions.

VIII.  Resolution 2007-33 of the Pima County Board of Supervisors to 
        Withdraw Areas from Mining and Mineral Exploration
    On February 20, 2007, the Pima County Board of Supervisors approved 
Resolution 2007-33, reiterating and refining Resolution 2007-15 in 
preparation for this Joint Congressional Subcommittee Hearing, to 
request that the Arizona Congressional Delegation: first, initiate the 
permanent withdrawal from mining and mineral exploration of all Federal 
lands within the Santa Rita Mountain Range of the Coronado National 
Forest in Pima County (52,000 acres currently open to mineral entry); 
second, initiate the permanent withdrawal from mining and mineral 
exploration of the remaining Federal lands within the Coronado National 
Forest in Pima County (186,000 acres currently open to mineral entry); 
and third, initiate the permanent withdrawal from mining and mineral 
exploration of all County-owned natural reserves where the Federal 
government owns the subsurface mineral rights.
    The Board considered this most recent resolution after a 
comprehensive review of Pima County's experience in dealing with the 
negative impacts of the 1872 Mining Law, historically and in the 
present. This historic law continues to cause contemporary community 
problems due to the total lack of meaningful reclamation.

IX. Summary and Recommendations
    In summary, current mining practices under the 1872 Mining Law are 
not compatible with the rapidly growing urban population in Pima 
County, our need to conserve water for such a growing population, and 
the conservation of our diverse sky islands, rare riparian areas, 
Sonoran Desert habitats, and strong tourism industry. The legacy of 
mining in Pima County has negatively impacted our natural open spaces, 
public health, and the taxpayers financially. The County has been 
proactive in addressing these issues, to the extent that we can, 
through comments to agencies that regulate and authorize mining in Pima 
County.
    On the forefront of these efforts is the County's opposition to the 
Rosemont Mine proposed by Augusta Resources Corporation in the Santa 
Rita Mountains within the Coronado National Forest in Pima County. The 
Pima County Board of Supervisors, in support of local residents, are 
asking that Congress at a minimum please consider withdrawing this area 
from mining. Other areas in Pima County should also be closed from 
mining, and comprehensive reforms to the 1872 Mining Law are necessary.
    Thank you very much for holding a hearing in Tucson, and inviting 
Pima County to provide testimony on this most important issue.
    Attachments
    NOTE: Attachments to Mr. Huckelberry's statement have been retained 
in the Committee's official files.
                                 ______
                                 
    Mr. Grijalva. Thank you very much. Now to myself and my 
colleague, Congresswoman Giffords, to ask the first panel some 
questions, and I would like to begin with Mr. Forsgren, if I 
may.
    In going over your testimony, on the first page you mention 
all reasonable activities pertaining to mining operations on or 
off the forests are allowed under the Forest Service 
regulations.
    How do those regulations determine what is reasonable?
    Mr. Forsgren. The standard of reasonableness we're looking 
at there is their need relative to the proposed mining 
activity. There has to be a reasonable connection between that 
activity and the valid mining activity.
    Mr. Grijalva. So it's pretty wide open in terms of that 
interpretation of reasonable?
    Mr. Forsgren. There is some gray matter that has to be used 
in the interpretation, yes.
    Mr. Grijalva. Okay. Let me go back. Let's say--and one was 
just submitted, a follow up was submitted, day before 
yesterday, from the mining company in question today.
    But if a mining company cannot come up with a well-reasoned 
plan, can the Forest Service deny the operation?
    Mr. Forsgren. We have to have a well-reasoned plan or else 
we're not in a position to go through our required NEPA 
analyses, and that's why we have gone back to the company on 
two occasions, with material that they've submitted, and to ask 
for additional, more detailed information, that would allow us 
to evaluate those effects.
    Our discretion in regulating their activity is limited to 
the surface uses of Forest Service System lands and we cannot 
do that without adequate information and a well-thought-through 
and presented plan.
    Mr. Grijalva. With regard to that forest plan revision, 
will that revision be conducted under the old planning 
regulations, or the new ones, which allows a Forest Service 
plan to be developed under the categorical exclusion of NEPA?
    Mr. Forsgren. Our current thinking is that the forest plan 
revisions in the Southwestern region will all be conducted 
under the new planning regulation, the 2005 planning 
regulation, which does provide for the use of a categorical 
exclusion to meet NEPA requirements.
    Mr. Grijalva. And I think that begs the question that Mr. 
Huckelberry made about the transparency and the public process 
with regard to that exclusion.
    Mr. Forsgren. We think that that transparency and public 
process will be more than adequately provided as we work 
through the NEPA process, which will fully engage the public in 
understanding what the proposal is and we engage the public to 
try and identify alternatives to that proposal and mitigations 
associated with that proposal to protect the Forest Service 
System surface resources and future uses of that land.
    Mr. Grijalva. Is the Forest Service a partner, as we heard 
from Mr. Huckelberry's testimony, or a party to the Sonoran 
Desert conservation process? And if it is, does that mean the 
Agency has to meet the criteria of the plan in terms of 
protecting wildlife habitats, visual quality objects, 
protection of critical watersheds, etcetera, that are part of 
the conservation plan?
    Mr. Forsgren. Mr. Chairman, I apologize. I am not 
personally familiar with that situation to be able to address 
the question but would be happy to get back to the committee 
with an answer.
    Mr. Grijalva. I appreciate that very much. And let me ask--
we will have time, we will go back and forth, and these other 
questions, we will get to them in a little while.
    But I was going to ask, one of the things that we 
inevitably hear in this discussion relative to mining is the 
impact of, that it does to employment, i.e., jobs, that as a 
consequence of a mining operation are created in the community, 
and what it brings to a community in terms of employment.
    No question, as we look at 1872 and the reform of the 
mining law, that question will be persistent throughout these 
discussions, and jobs, and it always becomes a ``jobs versus.'' 
Jobs versus an open-ended 1872 law with no regulations and no 
reform, and if we don't do that, then the consequence is a loss 
of jobs. Your reaction to that?
    Mr. Huckelberry. Yes. Mr. Chairman, I think you have to 
look at it in the perspective of Arizona and perspective of our 
historical population growth. We have seen, over the years, and 
I had mentioned it in my written testimony, that mining has 
been historically very important to the economy of Arizona.
    That importance is declining, and declining rapidly. We 
just took a 30 year window and looked back in Pima County, and 
said what was the percentage of mining's contribution to the 
property tax base in 1977, and it was 15 percent.
    Today, 30 years later, it's less than one percent. We are a 
high immigration center for population shift. Even with that 
high population shift and growth, our unemployment in Pima 
County continues to be at record lows.
    Obviously, we want high-paying jobs in the county. The 
issue are: what are the tradeoffs, and what are the prices you 
have to pay for those? And in this particular case, that price 
may be too high, without complete and absolutely reclamation.
    Mr. Grijalva. Let me follow up on that if I may, Mr. 
Huckelberry. There is an impression that the West is wide open, 
and that I believe those days are long gone, and I think this 
part of the process, that our Chairman, Mr. Rahall, and the 
Natural Resources Committee is going to do, is to not redefine 
the West but accept the reality of what the West is now.
    And with that, you know, the mine would have impacts in the 
area, and what are the impacts of this mine on other uses in 
that southern Pima County area?
    Mr. Huckelberry. Mr. Chairman, the Homestead Act was for 
settling the West, the Mining Act was for exploiting the West. 
What we see in the values of the southern part of Pima County, 
our conservation plan has set it aside as a low-impact area, 
low footprint, because of its scenic values, the values that it 
associates itself with, the Las Cienegas National Conservation 
Area.
    The drainage tributaries from Rosemont mine drain into the 
Las Cienegas area, and the Las Cienegas carries its name 
because of water, because of endangered species, because of the 
open scenic views that you get from the Cienega Valley.
    Those would potentially all be destroyed with exploitation.
    We also know that a large component of our economy today, 
that has replaced mining, is tourism, and if we look at the 
Santa Rita Mountains, we know that it's an important birding 
area as established by the Audubon Society. The conservation 
institution has indicated it as a biological ``hot spot.'' It 
is extraordinarily important in the biodiversity of the Sonoran 
Desert and it is something that we believe any alteration of 
significant modification would be detrimental to our future and 
our economy.
    Mr. Grijalva. With that, and then we have the luxury of 
having two of us at this hearing, so we can go back and forth 
and ask a lot of questions, but now I would like to yield to 
Congresswoman Giffords for any questions she may have.
    Ms. Giffords. I have a couple questions for Mr. Forsgren. 
First of all, was the quality of the initial submission for the 
proposed operation planned for this mine up to par?
    Mr. Forsgren. As I mentioned, it lacked the kind of detail 
we would need to initiate that National Environmental Policy 
Act analysis, and so without that information, we shared that 
with the company and they voluntarily withdrew that proposal 
until a future time.
    Ms. Giffords. Okay. If the mining company cannot come up 
with a well-reasoned plan, can the Forest Service deny the 
mining operation?
    Mr. Forsgren. Yes. Again, we have to have a well-reasoned, 
well-documented plan of operations, so that we can evaluate the 
environmental consequences associated with that, share those 
with the public and work through the process to try and 
identify ways of minimizing the environmental effects 
associated with such an operation, and in the absence of that, 
we can't move forward.
    Ms. Giffords. Okay. You have talked about the area being 
managed for other purposes, visual quality, recreation. Can you 
address the effects of the Rosemont mine, if it were to open, 
and the balance between the other values of the property.
    Mr. Forsgren. Obviously, when you are talking about an 
operation of the magnitude that has been proposed here, there 
is no question that there are potential environmental impacts, 
and we would not disagree with the types of impacts that are 
associated with mining activities, or can be associated with 
mining activities.
    But that the environmental analysis process is the process 
that we use to do that kind of specific analysis and look at 
what the specific impacts would be to water resources, air 
resources, visual quality resources, wildlife, the full sweep 
of uses and benefits that the public expect from their national 
forest lands.
    Ms. Giffords. And Mr. Forsgren, how transparent is this 
process? How do we, as members of the public, how do we access 
the information and have an ability to understand a little bit 
more about the decision making process that you go through at 
the Forest Service?
    Mr. Forsgren. We do the best job that we can, to try and 
make that process as transparent as possible, and so that 
includes holding public meetings, and we try and get those 
public meetings in the communities, the local communities that 
are most readily affected by a proposal, to explain what the 
proposal is, to share with them what our analyses would suggest 
the impacts of that would be, and to solicit the public's views 
as to what values are at risk, that are of concern to them.
    Ms. Giffords. Okay. Mr. Forsgren, if you can imagine, this 
is a pretty active community, so far as public hearings, you 
can see, just on a Saturday morning, you know, we would have a 
lot of public comment, obviously, if this were to move forward.
    Mr. Huckelberry, a couple questions. I was listening to a 
report on the radio, the other day, that was talking about the 
Colorado River and what is happening with global warming, and 
the effects of drought, and I am not an expert on mining but I 
certainly understand that mining requires an extraordinary 
amount of water.
    We are now the fastest-growing state in the nation. Pima 
County of course is growing very rapidly. But could you go into 
depth about if this mining operation were to move forward, what 
would happen in terms of our water.
    Mr. Huckelberry. Yes, Congresswoman Giffords. The issue of 
mining and water is one, and generically, the mines have been 
exempt for recharge and replenishment. In the particular case, 
we understand that there may be an effort by Rosemont to 
acquire CAP water and to replenish and recharge it in Santa 
Cruz Basin as opposed to the Cienega Basin.
    The issues there are complex and difficult, and it is 
unknown as to how that is going to move forward, until there is 
much more detailed plans.
    The biggest issue associated with the present plan of 
operations is essentially the barricading of Box Canyon, one of 
the major tributaries into the Cienega Creek, and that has a 
potential of diverting the clean surface water flows into the 
Cienega, and that in fact depletes the potential for continued 
surface flows in the Cienega Creek which is home to four 
endangered species.
    So it would have very direct impacts. Water is very, very 
important to Pima County. That Cienega Basin provides subflow, 
natural process water that comes through the natural sediments 
into the Tucson Basin. It becomes part of the water supply for 
all of Pima County.
    Ms. Giffords. Mr. Huckelberry, in terms of reclamation, 
have you seen good examples where land is completely restored 
to as it was in the past, and can you touch on Augusta's 
proposals for reclamation of this land.
    Mr. Huckelberry. Yes. Congresswoman Giffords, I have not 
seen any meaningful reclamation by any mining activity in 
southern Arizona. Their attempts are abysmal and their follow-
through does not exist. With regard to Augusta and their plan 
of operations, I have read it, it is 47 pages long, it has--and 
this is the draft that was originally submitted, not the new 
draft.
    It had six pages dedicated to the reclamation, and my view 
of it was that it was a ``dressed up'' version of doing 
business as usual. In fact, the reclamation proposal for the 
open pit was to basically try and prevent public access to it. 
There was nothing about trying to replicate the natural 
environment, trying to actually spend real money in 
reclamation, that would try and leave the land much as I 
indicated in my testimony, as they found it.
    And so I believe that the current effort that we have 
looked at, in the plan of operation that was originally 
submitted, was woefully inadequate.
    Ms. Giffords. I have one final question. How many 
properties are we talking about in Pima County? I know that 
again, a lot of the focus today is on this one particular 
proposal, but can you go into greater detail about the other 
proposals in the county, that you would like to see removed and 
that need to be protected.
    Mr. Huckelberry. Yes. Congresswoman Giffords, the county is 
in the process of acquiring a lot of open space, creating what 
we call working landscapes. It is part of our future urban 
forum as defined by the conservation plan. In many of the cases 
where we have acquired lands, we have acquired them only to 
have individuals come in and file mining claims, tactics that 
we have used very often as harassment, and we have had to spend 
public money to go out and rectify those claims, to basically 
determine that they are not valid.
    We have had this happen on our Rancho Seco acquisitions in 
Arivaca. We have had it happen on our Six Bar Ranch 
acquisitions in the area of Davidson Canyon.
    We have had it happen to our acquisitions in the San Pedro 
Valley. And so it is a constant issue and constant problem, and 
what we find is that the 1872 Mining Act gives the fee simple 
surface owner very little rights, and so we are actually 
reacting, spending public money to protect our natural parks. 
Everything is really inappropriate, and a waste of public 
resources.
    Ms. Giffords. Thank you.
    Mr. Grijalva. Thank you. Let me ask you, Mr. Huckelberry, 
to talk a little bit about as you are going up to get to the 
site, do you have plans to expand that road for the heavy truck 
traffic that will come in the future, and if so, what impact is 
it going to have on all surrounding property owners as a 
consequence of what would be heavy, intense, major vehicle 
traffic on that road right now, that could not sustain it as it 
is.
    Mr. Huckelberry. Yes. Mr. Chairman, the roadways leading to 
the site are actually state highways, and the county obviously, 
we don't have enough money to maintain our own county highways. 
The state is trying to divest itself of its state highways 
because they don't have enough money to maintain and improve 
their highways.
    This particular highway is a rural route. It has been a 
historic rural route. It requires substantial improvement to 
accommodate safely heavy truck traffic. If not, we are going to 
simply expose all the residents who drive on those roads today 
to very hazardous conditions, and that is something I think is 
really unacceptable, and frankly, the money that is required to 
be put into those public highways should not be solely a public 
cost because of the mining operation.
    Mr. Grijalva. This is, as you mentioned, Mr. Huckelberry, a 
high priority conservation area, the site that we are talking 
about relative to the mine.
    When did the county purchase it?
    Mr. Huckelberry. Mr. Chairman, the county actually----
    Mr. Forsgren. Before the mine.
    Mr. Huckelberry. Before the mine. We were very interested 
in doing so. We have this process in Pima County that is very 
open and transparent, and when we promise the voters we are 
going to do something, we follow through, and in 2004, we 
simply overlooked the Santa Ritas and what we call the end 
holding properties, and therefore in our bond prospectuses, in 
our bond ordinances, we do not include a disclosure to the 
public that we wanted to acquire land inside the Coronado 
National Forest, and particularly Rosemont. Therefore, we 
effectively were prohibited from doing it.
    Mr. Grijalva. Got it.
    Mr. Huckelberry. We have now learned our lesson about end 
holdings, and I can almost guarantee you, that if there is a 
bond issue in 2008, all end holdings will be considered.
    Mr. Grijalva. Thank you. Mr. Forsgren, in hearing your 
testimony, isn't it true, that as you mention, the Forest 
Service can minimize the impacts of a mine? But as I 
understand, you have no statutory right to deny a mining 
operation on Forest Service lands. Minimize; but you can't 
deny.
    Mr. Forsgren. Again, we regulate the surface occupancy. The 
actual administration of mining claims is done through the 
Bureau of Land Management and the Department of Interior. And 
so our charge is to put into place whatever mitigations can be 
done, that do not materially interfere with the ability of 
those mining operations. So our discretionary space is somewhat 
limited.
    Mr. Grijalva. So the 1872 Mining Act trumps the Endangered 
Species Act, and the Forest Management Act?
    Mr. Forsgren. You know, I don't think I would go quite that 
far, to say that it ``trumps it,'' because certainly, as we 
work through the environmental analysis process, we are looking 
at the impacts of those resources, we are looking at the 
relationship to what the forest plan has established for 
objectives there, and we work very hard to try and modify the 
proposed plan of operations to be as consistent with those as 
possible.
    Mr. Grijalva. The key point here is minimize, not deny, and 
that is the question I was asking.
    Mr. Forsgren. I think that is accurate, Mr. Chairman.
    Mr. Grijalva. Thank you. Congresswoman, do you have any 
questions?
    Ms. Giffords. No. I know we have got a couple panels and we 
have members of the public to hear from, so----
    Mr. Grijalva. Thank you, both of you. I appreciate it very 
much. And let me now--I want to thank the witnesses on the 
first panel for your testimony, and invite the second panel, 
Mr. Sturgess and Mr. Featherstone to please come forward.
    Thank you. Mr. Sturgess, welcome, and you are recognized 
for five minutes, sir.

   STATEMENT OF JAMES STURGESS, VICE PRESIDENT, PROJECTS AND 
           ENVIRONMENT, AUGUSTA RESOURCE CORPORATION

    Mr. Sturgess. Thank you, Chairman Grijalva, Representative 
Giffords. It is always interesting to be here in this room. My 
name is Jamie Sturgess. I am vice president of Projects and 
Environment for Augusta Resource Corporation.
    I have been working in the resource management field since 
1973. I have worked in the energy and mining industries doing 
mine reclamation, water treatment, air quality and endangered 
species protection in those roles.
    My experiences include working for both Government and 
industry.
    My comments today are focusing on the mining law, the 
Rosemont mine project, and environmental mitigation as proposed 
by Augusta for the Rosemont project.
    Let me first talk a little about Rosemont. Before I start, 
I must point out that in the back of the room, in some of the 
handouts for this meeting, there have been some pictures that 
have been ``photo shopped'' with other mines, pasted on to the 
Rosemont topography. I won't hesitate to call it creative, but 
I will point out that those are outright fabrications, and do 
not represent our plans for our mine.
    What I am providing today--there is a picture here, it is 
also submitted with the testimony--is a layout showing what we 
propose for the ``year 10'' perspective from Highway 83 at 
milepost 44. I understand yesterday, you were at milepost 
forty-four. The foreground in the picture shows that there is a 
mile-wide buffer area between the highway and the active mine 
area where we propose no activities at all.
    The gray-brown area in the background shows the active 
mining area, and then there is a green in the foreground that 
is a perimeter screen berm that we propose around the mining 
activities.
    Rosemont Ranch totals over 20,000 acres and completely 
surrounds the mineral deposit. Over the last century, this 
mining district has had repeated periods of mining, smelting 
and ranching. The mineral deposit itself is on private lands 
that are more than three miles from the nearest paved road.
    The closest part of the perimeter berm will be almost a 
mile from the highway. No more than 40 vacant square miles 
around the mine site. Now let's talk about the mining law.
    It was, 135 years ago, that Congress recognized that the 
wealth of the nation rests, in part, on its mineral resources. 
Since 1872, the Mining Act has been amended many times, 
something like 50 times and 50 amendments. Those who would 
state that the law has not been changed since 1872 would be 
incorrect in those statements.
    The mining law, even as amended, remains clear. I am going 
to quote from the Act, as amended.
    ``Congress declares that it is the continuing policy of the 
Federal Government in the national interest to foster and 
encourage private enterprise in orderly and economic 
development of domestic mineral resources, mineral reserves, 
and reclamation of metals and minerals to help assure 
satisfaction of industrial security and environmental needs.''
    The law goes on: ``...and for the disposal, control, and 
reclamation of mineral waste products, and the reclamation of 
mined land, so as to lessen any adverse impact of mineral 
extraction and processing upon the physical environment that 
may result from mining or mineral activities.'' End quote.
    This is the law, as it has been amended, and this is the 
law that we have to follow. Augusta Resource is in the process 
of complying with this law by submitting a detailed plan of 
operations as required by FLPMA and by NEPA.
    The mine plan is also subject to compliance with the 
Endangered Species Act, the Clean Water Act, the Clean Air Act, 
the National Environmental Policy Act, and other environmental 
regulations that are in addition to the mining laws.
    This Rosemont mining district was first recognized by the 
Federal Government in the 1880's. This was over 30 years before 
Arizona was even recognized as a state. Now, 125 years later, 
in 2005, Augusta Resource Corporation purchased the Rosemont 
Ranch. The purchase came only after Pima County had declined to 
buy the property.
    In 2004, the entire Rosemont Ranch was offered to the 
county for $11 million. After public debate and careful 
consideration, the county decided Rosemont Ranch did not have 
the values that were worth buying relative to other properties 
that they had in their plans.
    In 2005, Augusta paid $20 million for the Rosemont, twice 
the price the county could have paid, and now the county 
opposes Augusta's plans for development. These plans are 
consistent with multiple use designations of both the forest 
plan and the county. Now let's talk a little about Augusta's 
plans for the mine.
    Augusta has proposed conservation and protection measures 
that no other copper mine in Arizona has ever implemented. I 
have been in the copper mining business for 20 years in 
Arizona, 30 years in resource. I can tell you that these plans 
have not been implemented anywhere in the country. It is not 
just in Arizona. Here is what the plan of operations will 
include.
    A truly closed loop process water system; putting more CAP 
water into the aquifer than is drawn out; no tailings pond. The 
smallest possible mine footprint. A commitment to meet the 
local ``Dark Skies'' guidelines. Concurrent reclamation and re-
vegetation of the land. Creation of a community endowment fund 
for preservation of open space and wildlife habitat.
    And we initiated the process with careful siting of 
facilities to minimize the visual impact.
    What are the benefits of developing at Rosemont? During my 
life, the mine will paid $1.8 billion in federal taxes, half a 
billion in state taxes, and those are predictions on prices of 
metals that are much lower than the ones we have today. Not 
insignificant.
    The mine will also produce 5 billion pounds of copper, 100 
million pounds of molybdenum, and 100 million ounces of silver. 
Rosemont would be a nationally significant contributor to the 
trade balance and to domestic production of strategic minerals.
    This mine will produce 5 percent of the national domestic 
demand for copper for 20 years. The mine also brings high-
paying jobs. Rosemont mine will employ 400 people at an average 
annual income of $59,000 per year. Our previous estimate was 
350 people. The latest is four hundred. In addition, there will 
be at least 700 indirect positions here in the Pima County 
community. A total of more than one thousand new jobs in the 
community for 20 years.
    To oppose Rosemont is to support sending those 1000 jobs 
overseas. The Rosemont mine not only contributes to economic 
and energy independence. It contributes to jobs at home in this 
district.
    If we don't produce our own copper, whose copper do we use? 
What country gives up theirs? Or do we just export our jobs and 
import everything that we need in the way of natural resources, 
that can be produced here at home.
    We believe that our plan for Rosemont balances production 
of minerals and protection of the environment, and the details 
will be out when we finish our planning with the input that we 
are getting today and that we have got from our initial plan 
from July, that was submitted originally in July.
    The detailed, completed plan is expected within the next 60 
to 90 days. Thank you.
    [The prepared statement of Mr. Sturgess follows:]

    Statement of James A. Sturgess, Vice President of Projects and 
               Environment, Augusta Resource Corporation

    My name is Jamie Sturgess and I'm Vice President of Projects and 
Environment for Augusta Resource Corporation.
    I've been in resource management since 1973. This includes work for 
the California Fish and Game Department on the threatened fishes 
program and for the mining industry researching reclamation, water 
treatment, air quality, and endangered species protection. From there I 
served in site management positions for large mining operations. Then I 
started up an environmental consulting company, working around the 
world with a balance of municipal, county, state, and private clients.
    I must point out that I've seen several pictures ``photo-shopped'' 
to paste other mines onto Rosemont topography. Those pictures are 
outright fabrications. We are still in the process of developing our 
plans and illustrations of what Rosemont will look like each year 
during mining and reclamation.
    What I'm providing today is a layout showing the ``year 10'' 
perspective from Highway 83 at milepost 44 which should be at the 
height of activity on the property. The brown area in the background is 
active mining, the green area in the foreground is the perimeter berm 
planned for the first few years of construction.
    The mine is on private lands more than 3 miles from the nearest 
roadway. The closest facilities are a mile away from the highway. I 
have taken many people on tours to the center of the proposed pit, you 
cannot see a single house. The nearest neighbors are over 2 miles away, 
over a ridgeline; and there are many square miles around the mine site 
with no occupied dwellings. The Rosemont Ranch totals almost 20,000 
acres, surrounding the proposed mine site.
    The mine site has had more than 100 years of active mining and 
ranching operations on the property. The Helvetia and Rosemont Mining 
Districts there were formed and recognized by the U.S. government in 
the 1880's.
    The property will be developed into a modern mine. Exactly how the 
mine is developed and operated will be decided by thorough feasibility 
studies and a full-disclosure Environmental Impact Statement or EIS, 
with a very public review process.
    The EIS and public review process strengthens today's application 
of the 1872 Mining Law. It brings stringent regulatory, resource, and 
environmental evaluations to bear. And it reflects everything we've 
learned over the years about how to operate a safe, productive, and 
environmentally responsible copper mine.
    In 1872, our forefathers recognized that the wealth of a nation 
rests, in part, on its mineral resources. Their intention with the 1872 
Mining Law is clear:
    ``Congress declares that it is the continuing policy of the Federal 
Government in the national interest to foster and encourage private 
enterprise in (1) the development of economically sound and stable 
domestic mining, minerals, metal and mineral reclamation industries, 
(2) the orderly and economic development of domestic mineral resources, 
reserves, and reclamation of metals and minerals to help assure 
satisfaction of industrial, security and environmental needs''
    ``and for the disposal, control, and reclamation of mineral waste 
products, and the reclamation of mined land, so as to lessen any 
adverse impact of mineral extraction and processing upon the physical 
environment that may result from mining or mineral activities.''
    The legislature of the State of Arizona recognized the need to 
protect this vital industry by ensuring that no county has the 
authority to regulate or restrict the use or occupation of land or 
improvements for mining or metallurgical purposes. The legislature 
further provided that no county is authorized to prevent, restrict or 
otherwise regulate the use or occupation of land or improvements for 
mining or metallurgical purposes.
    Augusta's claims to the mineral resources are valid and not subject 
to forfeiture without significant compensation. We have the right to 
use our private property, patented claims and, consistent with the laws 
and in furtherance of the stated federal policy, the unpatented claims.
    This mine is proposed largely on privately owned land in mining 
districts nearly as old as the Mining Law itself. Rosemont also 
involves patented mining claims on adjacent federal lands that Augusta 
owns.
    We understand that Pima County opposes the proposed mine. 
Ironically, Augusta purchased the land it now owns only AFTER Pima 
County declined to do so at roughly half the price Augusta paid for it.
    Any new mine in Arizona must be a model of maximum safety and 
minimal environmental impacts. And it must be a positive contributor to 
our state, as well as to our country's goals of strategic mineral and 
energy independence.
    Like so many natural resources we all need, copper is not easy to 
harvest. Nor is it found in very many places around the world. Using 
just one quarter of one percent of the state's land, Arizona provides 
65 percent of our nation's domestic copper production. But our country 
still imports about 40 percent of our copper needs. We rely on copper 
for many of our everyday activities, including driving. Your car has 
about 50 pounds of copper. If you drive a new, energy-saving hybrid, it 
uses twice that much. Solar cells rely on copper and the next 
generation of solar panels will require even more copper. Copper is 
also essential to electrical wiring, jet aircraft, air conditioner 
units, water supply systems, and computers.
    Copper can be mined responsibly and that is central to Augusta's 
plan for the Rosemont property. We're a company of people with 
substantial experience and track records in operating safe and 
environmentally protective mining operations. Our commitment to 
environmental safety and reclamation is spelled out in our 
``Comprehensive Plan of Operations.'' It will be filed with the U.S. 
Forest Service this spring and the EIS will follow.
    Here's what our Plan of Operations includes:
    <bullet>  A ``water miser'' closed loop mine water system.
    <bullet>  Putting more CAP water into the aquifer than we draw out.
    <bullet>  No tailings pond.
    <bullet>  The smallest possible mine footprint.
    <bullet>  Specific limitations to protect air and water quality.
    <bullet>  A commitment to meet local ``Dark Skies'' requirements.
    <bullet>  Concurrent reclamation and revegetation of the land, 
beginning the first year of operation to return the site to ranching 
and open space.
    <bullet>  Creation of an endowment over the life of the mine for 
preservation of open space, support of wildlife habitat and other 
community needs.
    <bullet>  Protection of viewscapes through careful siting of 
facilities and operations.
    That plan will be a legally binding document detailing every aspect 
of how the mine must be operated and will be tied to ownership of the 
land, not simply to Augusta. What that means is further assurance that 
the commitments made in this plan endure over the life of the mine, and 
beyond.
    The mine will pay an estimated $1.8 billion in Federal taxes over 
the life of the mine. State tax revenue is projected at $490 million 
over the life of the mine. This tax revenue will have a significant 
impact on the state's general fund and will help mitigate the burden on 
individual taxpayers.
    It also brings high paying jobs. Rosemont Mine will employ 350 
people at an average annual salary of $59,000. In addition it will add 
another 700 indirect positions for a total of 1,000 new jobs for 
Arizona.
    Mining here in a responsible, environmentally effective manner also 
has global implications. The alternative is sending those jobs and 
control of strategic mineral supply overseas to countries without those 
same standards of protection or production.
    The mining industry, like so many in the last decade, has made huge 
technological advances. New mines do not need to look like old mines. 
We will put these technological advances to work for the community, for 
Arizona, and for this country, which depends on copper in countless 
ways. We invite questions from the public as we proceed with planning 
and implementation with the various agencies involved in this process. 
We look forward to answering questions and working with as many 
interested parties as possible as we advance this important project.
    Unless, we, as a country are willing to place all of our minerals 
resources power and its related economic strengths in the control of 
other nations hungry for such projects, we must be willing to allow 
such projects as Rosemont to proceed. This debate reflects some 
inconvenient questions: If we don't use our own resources, whose 
resources do we use? If we don't produce our own food, whose food do we 
eat? If we don't produce our own copper, whose copper do we use?
    All of the members of the Rosemont team are pledged to produce the 
best example of the most protective mining operation ever built in this 
country. We are doing what no mining company has done before, in the 
way of sustainable water supply, concurrent reclamation, water 
conservation, and land conservation. We are prepared to back our 
promises.
    In turn, we understand that in proceeding, Rosemont will be held to 
incredibly high standards. We realize there is no other way.
    Thank you.
                                 ______
                                 
    Mr. Grijalva. Thank you, Mr. Sturgess, and now Mr. 
Featherstone, you have five minutes. Please.

               STATEMENT OF ROGER FEATHERSTONE, 
                SOUTHWEST ORGANIZER, EARTHWORKS

    Mr. Featherstone. Hello. My name is Roger Featherstone. I 
have had more than 30 years experience protecting our natural 
resources across the country.
    I am the Southwest Circuit Rider for EARTHWORKS, based 
here, in Tucson. My territory covers the states of Arizona, 
California, Colorado, Nevada, New Mexico and Utah.
    I would like to start by thanking Chairman Grijalva and 
Congresswoman Giffords for holding this important hearing of 
the Natural Resources Committee, and I would really like to 
thank the Majority for taking the committee back to its 
rightful name, Natural Resources, not just the Resource 
Committee.
    EARTHWORKS is a nonprofit, nonpartisan environmental 
organization dedicated to protecting communities and the 
environment. EARTHWORKS supports responsible mining policies 
and practices that give taxpayers a fair return for valuable 
land and mineral assets, that eliminate government subsidies to 
mine on public lands, that require mining companies to meet 
adequate environmental protection standards, and that recognize 
that some special places on public lands should be off limits 
to mining.
    Mining companies argue that there are engineering solutions 
to environmental problems. But technical solutions are only 
part of the answer. It is one thing to design a safe and 
efficient mine. It is quite another to design public policy 
resulting in good decisions about the use of public land and 
resources.
    Good public policy must provide a basis for weighing 
environmental, social, economic and cultural issues as well as 
technical issues. As many have said, Augusta's Rosemont Ranch 
proposal is the wrong mine in the wrong place at the wrong 
time.
    The long-term solution to protect the Santa Rita Mountains 
is reform of the mining laws. However, the Santa Ritas need 
protection while full reform is debated. EARTHWORKS favors 
legislation to withdraw federal public lands in the Santa Rita 
Mountains, and to the south, in Santa Cruz County, with the 
recent development of a lot of interest down there for mining 
development.
    Throughout this debate, one theme continues to ring true. 
So long as special places on public lands are not placed 
permanently off limits, the public decision makers and mining 
companies will chew up a lot of time, money and energy, 
fighting over proposals to mine the area, that reoccur again 
and again.
    True 1872 Mining Law reform should protect special places, 
give land managers the ability to deny and irresponsible mine 
proposal, balance mineral development with other land values, 
prevent permanent damage to our public lands, safeguard surface 
and groundwater during and after mining, and ensure adequate 
reclamation.
    A reclaimed mine should be restored to pre-mining 
conditions. Comprehensive reform needs to protect the American 
taxpayer by forever ending patenting and eliminate special 
interest subsidies now enjoyed by the mining industry.
    Mining companies should pay a royalty for the privilege to 
remove minerals from public lands. The Bureau of Land 
Management estimates that $982 million in hard rock minerals 
were taken from public lands in the year 2000, and the industry 
paid nothing for those minerals.
    Reclamation bonds should be paid in cash, up front, to 
fully cover reclamation costs. The recent bankruptcy of ASARCO 
is a painful reminder of the danger of not having adequate and 
liquid reclamation bonds.
    True reform also needs to include an abandoned mine lands 
cleanup program paid for by the mining industry to ensure 
public health and safety from pollution and from physical 
hazards, and the restoration of land, water, fish and wildlife 
resources.
    EARTHWORKS encourages Congress to pass an 1872 Mining Law 
reform bill that contains the points I have just mentioned. 
EARTHWORKS further encourages Congress to pass a bill to 
withdraw federal public land in the Santa Rita Mountains from 
mineral entry.
    Passage of a comprehensive reform bill would help future 
generations to enjoy the wonders of the Santa Rita Mountains 
that we in southern Arizona now take for granted, and that 
other outstanding values in the public lands will remain for 
generations to come. Thank you.
    [The prepared statement of Mr. Featherstone follows:]

                   Statement of Roger Featherstone, 
                  Southwest Circuit Rider, EARTHWORKS

    Mr. Chairman, my name is Roger Featherstone. I am the Southwest 
Circuit Rider for EARTHWORKS. I cover Arizona, California, Colorado, 
Nevada, New Mexico, and Utah from my office based in Tucson. I would 
like to start by thanking Chairman Grijalva and Chairman Costa for 
holding this important hearing.
    EARTHWORKS is a non-profit, non-partisan, environmental 
organization dedicated to protecting communities and the environment. 
Our national office provides support to citizens across the country and 
around the world. Our field offices in Arizona, Montana and Colorado 
assist communities throughout the western United States concerned about 
the impact of mineral development in their backyards. EARTHWORKS 
supports responsible mining policies and practices: responsible mining 
policies that give taxpayers a fair return for valuable land and 
mineral assets, and that eliminate government subsidies to mine on 
public lands; responsible mining policies that require mining companies 
meet adequate environmental protection standards; and responsible 
mining policies that recognize that on some public lands there are 
resources, and other uses, that may be more valuable than mining, 
including the protection of environmentally significant areas.
    EARTHWORKS (formerly known as the Mineral Policy Center) has been 
working to reform hardrock mining policies and practices in the United 
States since we were founded nearly 20 years ago. While this is a long 
time, it's not nearly as long as the major statute regulating hardrock 
mining on our public lands has been on the books. The General Mining 
Law was signed by President Ulysses S. Grant almost 135 years ago. Over 
the last two decades, EARTHWORKS has testified before Congress numerous 
times on the need for mining law reform and I am pleased to have the 
opportunity to do so again at this Field Hearing.
    One hundred and thirty-five years is too long. It is time to reform 
the 1872 Mining Law, a relic of a bygone era--when mining was a pick 
and shovel affair, when the frontier was still open and ``Manifest 
Destiny'' was this country's creed. A product of its time, the mining 
law was written to encourage the development of the mining industry, 
and the settlement of the West.
    Today, the prospector's pan has given way to giant earth-moving 
machines that can literally crumble mountains and dig pits the size of 
small cities. Prospecting by hand for copper has given way to the use 
of lethal chemicals such as sulfuric acid that leach microscopic flecks 
of ore from massive piles of pulverized rock. Today's prospectors are 
multinational corporations and their mine sites occupy many thousands 
of acres of our public land.
    Under the federal government's current interpretation, the 1872 
Mining Law elevates mining as the highest and best use for public 
lands. As such, federal land managers give preference to mining over 
all other land uses--from recreation to clean water to hunting. This 
leaves places like the Santa Rita Mountains and countless critical 
watersheds, cherished recreation areas and vital wildlife corridors 
across the West in danger from mineral development.
    The mining companies argue that there are technical and engineering 
solutions to many of the environmental problems that mining can cause, 
but technical solutions are only part of the answer. They are not 
enough to fully address the broader environmental, economic, social, 
and cultural issues that this subcommittee, and all Members of 
Congress, must grapple with.
    It is one thing to design a safe and efficient mine, it is quite 
another to design public policy that results in good decisions about 
the use of public land and resources. Good public policy must provide a 
basis for weighing environmental, social, economic, and cultural 
issues, as well as technical issues. The experience in the Santa Ritas 
illustrates the need to reform the Mining Law of 1872.

The Scenic Santa Ritas: Not the Place for a Mine
    Mining companies have used the 1872 Mining Law to threaten the 
Santa Rita Mountains in the past, and citizens of southern Arizona have 
twice rejected an open pit copper mine in the area as a bad idea. In 
1970, the Anaconda Copper Company proposed a land exchange to obtain 
public land in the Santa Rita Mountains for a copper mine. Through a 
series of mergers and name changes, the proposal was resurfaced by 
ASARCO in 1995.
    EARTHWORKS assisted the local citizens group, Save the Scenic Santa 
Ritas, and others in fighting the ASARCO proposal a decade ago because 
it was a bad deal for the land, the community, and the economy. What 
was true in 1998 when ASARCO withdrew their proposal is even truer 
today.
    The Santa Rita Mountains are important for bird watching, hiking, 
picnicking, off-road vehicle use and many other forms of recreation. 
Tucsonans flock to the Santa Rita Mountains to escape the hustle and 
bustle of the city and the summer heat.
    Pima County has worked hard to bring a wide variety of stakeholders 
together to create the Sonoran Desert Conservation Plan to protect 
critical open space south of Tucson. The Rosemont Mine is proposed 
within the Plan's conservation area and is incompatible with the plan's 
goals.
    The mining industry has been using provisions of the Mining Law to 
take the copper resource out of the public trust. Over the years, 
nearly 2,000 acres of public lands have been patented under the 1872 
Mining Law by the succession of companies attempting to mine the 
Rosemont Ranch area.
    Now, Augusta Resource Corporation (Augusta), a small Canadian 
mining company who has never operated a mine, has submitted a Plan of 
Operation to the U.S. Forest Service to open a large copper mine 
(Rosemont Ranch) in the Santa Rita Mountains south of Tucson.
Potential Impacts to the Rosemont Valley from Open Pit Mining
    Air Quality: The area currently has excellent air quality. Citizens 
of Green Valley or Winkelman can graphically demonstrate what dust 
blowing from tailings and waste piles have done to their communities. 
Prevailing winds would blow dust from a mine at Rosemont Ranch toward 
major new residential developments east of the Tucson basin. Air 
quality in the National Forest and surrounding residential areas would 
be degraded by both dust and truck exhaust associated with mine 
operations.
    Noise: The impact from daily blasting at the proposed mine would be 
the equivalent of daily sonic booms to nearby residences, wildlife and 
recreational users in the National Forest.
    Scenic Vistas: Highway 83 (which would become the major access 
route for any mine) is one of Arizona's few designated scenic byways. 
The current view to motorists is of grasslands, rolling hills dotted 
with oak trees, and the dramatic ridge line of the Santa Rita 
Mountains. The proposed mine would be visible from State Highway 83 for 
3 miles out of the 24-mile trip from I-10 to Sonoita. This 3-mile 
segment includes an overlook and is one of the most scenic sections of 
the highway.
    Traffic Hazards: Highway 83 was not designed to service large scale 
industry. Tourist traffic, commuters, bicyclists, and school buses 
would share the narrow and winding road with mine traffic, including 
ore trucks and vehicles carrying heavy construction equipment and 
explosives for blasting.
    Property Values: The lands surrounding the proposed mine have 
experienced a rapid increase in new residential development including 
high dollar ranchettes. Sonoita Valley is currently a weekend tourist 
destination. A large nearby mine could disrupt the local economy and 
create a boom-bust economy typical of western towns adjacent to large 
mining operations.
    Recreation: As recreational uses of the Rosemont Valley increase, 
open space becomes more valuable. Loss of public land from a large mine 
would decrease the quality of recreational experiences and create 
possible conflicts between recreationists and growing subdivisions. 
Mountain bikers, birders, hikers, off-highway vehicles, bicyclists, and 
hunters all currently enjoy the Santa Rita Mountains but would likely 
find a large open pit mine in the area incompatible with their 
activities.
    Wildlife and Wildlife Habitat: Well established wildlife movement 
corridors would be disrupted by an open pit mine. This would 
potentially impact endangered, threatened, and candidate species, in 
addition to priority vulnerable species or species of special concern.
    According to the Arizona Game and Fish Department, 10 Priority 
Vulnerable species are known to occur in the Rosemont Ranch area: the 
Pima Pineapple Cactus (Coryphantha scheeri robustispina) and the Lesser 
Long-nosed bat (Leptonycteris curasoae yerbabuenae), which are 
endangered; the Mexican Long-tongued Bat (Choeronycteris mexicana), the 
Western Red Bat (Lasiurus blossevillii), the Chiricahua Leopard Frog 
(Rana chiricahuensis), which are threatened; the Lowland Leopard Frog 
(Rana yavapaiensis), the Yellow-billed Cuckoo (Coccyzus americanus), 
which is a candidate for listing as a threatened or endangered species, 
the Giant Spotted Whiptail Lizard (Cnemidophorus burti stictogrammus), 
the Rufous-winged Sparrow (Aimophila carpalis), and the Bell's Vireo 
(Vireo bellii).
    Economics: Since the early 1970's the mining industry's 
contribution to Pima County's economy has diminished considerably while 
jobs dependant on a clean and healthy environment have increased. For 
example, in 1970 the mining industry employed 6,972 people in Pima 
County. By 2000, the number of mine employees in the County had 
dwindled to 2,476. In contrast, in 2001, 8,541 people were employed in 
Pima and Santa Cruz Counties in the recreation industry. Possible 
economic benefits from new large mines in the Santa Ritas would be 
offset by the negative impacts to tourism-related businesses dependent 
on the area's scenic beauty. Any possible economic benefit from the 
proposed mine could be temporary given the normal boom-bust cycle of 
major metal mines in the western US.
    Water: Leaching of tailings piles or waste dumps, and leaks from 
other facilities are common occurrences at mine sites. This could 
result in the release of toxic materials into ground and surface waters 
draining into nearby riparian areas such as Davidson Canyon. Not only 
is a loss in water quality a potential problem from this mine proposal, 
so is a reduction in water quantity. It is likely that a large open-pit 
mine would dewater the surrounding watershed.
    The potential for water contamination is of particular concern in 
light of groundbreaking research released last year. In a pair of 
reports, Comparison of Predicted and Actual Water Quality at Hardrock 
Mines: The reliability of predictions in Environmental Impact 
Statements, and Predicting Water Quality at Hardrock Mines: Methods and 
Models, Uncertainties, and State-of-the-Art, authors Jim Kuipers P.E. 
and Ann Maest PhD revealed that 76% of studied mines breach water 
quality standards, despite predicting compliance during the mine 
permitting process. These reports highlight the obvious: because mine 
proposals MUST predict compliance with water quality standards in order 
to be permitted, they always do--no matter the proximity to water 
resources, no matter the potential for leaching of toxic contaminants.

Permanent Protection for the Santa Ritas
    The long term solution to protect the Santa Rita Mountains is 
comprehensive reform of the 1872 Mining Law. However, the Santa Ritas 
are in need of protection while full reform is debated. EARTHWORKS 
urges the U.S. Congress and/or the U.S. Secretary of the Interior to 
permanently withdraw federal public lands in the Santa Rita Mountains 
from mineral entry and to do so as soon as possible to preserve the 
status quo for all time.
    Moreover, EARTHWORKS favors a legislative solution that withdraws 
all of the federal public lands in the Santa Rita Mountains as well as 
federal public land to the south into Santa Cruz County from mineral 
development. It is clear that the citizens of Pima and Santa Cruz 
Counties have spoken about the need for protecting the Santa Rita 
Mountains from irresponsible mining proposals. Throughout this issue, 
one theme continues to ring true: so long as public lands of special 
concern are not placed permanently off-limits, the public, decision-
makers, and mining companies will chew up a lot of time, money, and 
energy fighting over the inevitable proposals to mine the area that 
recur again and again.

Real Reform of the 1872 Mining Law
    Comprehensive reform of hardrock mining law in the United States 
must include provisions that protect special places from irresponsible 
mining. Reform of the mining law must give land managers the ability to 
deny a mine proposal if there are other important resource values that 
could be damaged by a mining operation. Mining Law reform should 
balance mineral development with other land values in the following 
ways:
    1.  Wilderness study areas, lands recommended for wilderness 
designation, lands managed as roadless areas, lands in the Wild and 
Scenic River System or recommended for such, lands administratively 
withdrawn or segregated, lands surrounding National Conservation Areas, 
lands proposed as roadless areas, and sacred sites all should be off-
limits to mineral exploration and development. In addition, important 
lands such as those included in Pima County's Sonoran Desert 
Conservation Plan should also be off-limits to mineral entry.
    2.  When a mine is proposed, land management agencies should review 
the land involved to ensure that it is an appropriate use of the land, 
given the other competing demands for the public lands resources.
    3.  Land managers need the authority to deny mine permits if an 
irresponsibly designed mine is proposed on public lands or outstanding 
resource values are at risk.
    Under current law, environmental standards written specifically for 
mining are weak or non-existent. For example, the Clean Water Act does 
not protect groundwater from mining pollution and lacks a definition of 
how to reclaim a mine. Relating specifically to the Santa Rita 
Mountains, there are no protections against a mine permanently altering 
the water table surrounding the mine.
    Comprehensive reform should balance the demands for minerals with 
the public's demand for the long term use of the land by:
    1.  Preventing significant, permanent and irreparable damage to our 
public lands. If a proposed mine would cause significant, permanent and 
irreparable damage, the Secretary of the Interior should deny the 
mining operation.
    2.  Ensuring adequate reclamation. A reclaimed mine site should be 
restored so that it can sustain either pre-mining uses, or uses 
conforming to the applicable land use plan.
    3.  Safeguarding surface and ground water during and after mining. 
Operations should minimize damage to surface and groundwater resources, 
and restore pre-mining hydrological conditions.
    Comprehensive reform needs to protect the American taxpayer. The 
1872 Mining Law still allows multinational mining companies to buy 
(patent) mineral bearing public land for less than $5.00 per acre--
although the annually renewed patenting moratorium has stopped new 
patents since 1995. It is important to note that the private land where 
Augusta would like to dig its open pit at one time was public land, but 
was sold by the federal government for $5.00 an acre under the Mining 
Law.
    Under the 1872 Mining Law, mining interests have enabled an area 
roughly equivalent in size to the state of Connecticut containing 
mineral values exceeding $245 billion to be patented. Reform of the 
1872 Mining Law needs to bring an end to this practice and keep these 
resources in the public domain.
    Current law allows extraction of public minerals from federal 
public lands without payment to taxpayers. A royalty needs to be 
established on the removal of minerals from public lands. BLM estimates 
that $982 million in hardrock minerals were taken from public lands in 
2000. Industry paid no royalty for those minerals. Coal, oil and 
natural gas extractors pay between 8% and 12.5%. A similar return to 
the American public for minerals taken from public lands is reasonable 
for hardrock mining companies to pay as well.
    The Interior Department mining regulations contain provisions 
enacted in 2003 that require mining companies to post bonds to cover 
the full costs of mine clean ups. However, the regulation no longer 
provides clean up standards. Without such standards, it is unclear 
exactly what such reclamation bonds will pay for, and taxpayers may 
still be exposed to liability in the future. Reclamation bonds should 
be paid in cash, up front and in an amount that would fully cover third 
party reclamation costs. The recent bankruptcy of ASARCO is a painful 
reminder of the danger of not having adequate and liquid reclamation 
bonds.
    Comprehensive reform needs to recognize the ongoing social and 
environmental costs of abandoned mines and create a mechanism to clean 
up the mining industry's historic messes. EARTHWORKS estimates that 
there are more than 500,000 abandoned hardrock mines in the United 
States that will cost between $32 and $72 billion dollars to reclaim. 
Currently there is no funding source for abandoned hardrock mine 
reclamation. True reform needs to include a fund mechanism and a 
process for reclaiming abandoned mines. For example, all revenues from 
royalties and fees could go to an Abandoned Mine Lands (AML) fund. The 
cost of processing permits should be paid by the mining industry. 
Priorities should be set to ensure public health and safety from 
surface and groundwater pollution; general public health and safety; 
and the restoration of land, water, fish and wildlife resources.
    Finally, comprehensive mining law reform requires substantially 
better industry oversight, including the following concepts:
    <bullet>  The Secretary of the Interior should use all legal powers 
available to prevent mining in protected areas.
    <bullet>  Failure of a mining company to address a violation should 
require the Secretary of the Interior to stop operations causing the 
violation.
    <bullet>  Regular inspections should be permitted without advance 
notice. They should occur at least once per quarter. The public should 
be allowed to request an inspection.
    <bullet>  Violators should be fined an amount that would deter 
large international corporations from further violations.
    <bullet>  Citizen suits should be permitted.
    <bullet>  Operators that currently violate laws should not receive 
new permits. Past law-breakers should only receive a permit if their 
past violations are not part of a willful pattern of abuses.
    EARTHWORKS encourages the Natural Resources Committee to introduce, 
debate and pass an 1872 Mining Law Reform bill that contains all of the 
points mentioned above. EARTHWORKS further encourages the Natural 
Resources Committee to introduce, debate and pass a bill to withdraw 
the remaining federal public land in the Santa Rita Mountains from 
mineral entry.
    Passage of a comprehensive reform bill can help ensure that future 
generations will enjoy the wonders of the Santa Rita Mountains that we 
in southern Arizona now have available, and that other outstanding 
values of the public lands will remain for generations to come.
                                 ______
                                 
    Mr. Grijalva. Thank you very much. Thank you. I want to 
begin with some questions of Mr. Sturgess, if I may. You state, 
I think in your testimony, that you are still in the process--
and correct me if I am wrong--of developing plans for the mine. 
You know, if that is indeed the case, why did you ask the 
Forest Service to approve a plan of operations that you 
acknowledge is not complete, before waiting for the complete 
plan?
    Mr. Sturgess. Which plan of operations would you be 
referring to?
    Mr. Grijalva. From July 31st.
    Mr. Sturgess. Thank you. Forest Service regulations 
stipulate that in a large or complex project, particularly like 
Rosemont, that it is encouraged to file an initial plan of 
operations when enough detail is available upon which to base a 
scoping process of initiate public review process.
    They also allow for submitting either addendums to that 
plan as more information becomes available, or doing what we 
did, which is to withdraw with the intention to resubmit, and 
they actually it initial plan of operations.
    We discussed this with our planning team, with our design 
team, and our community relations team, and we decided, in 
July, that we had enough information to come forward. That is 
when I met with some of the people on the panel, and I said we 
had a plan that we know if going to be controversial, we would 
like to get input, we would like to show our plan so we are not 
accused of hiding in the dark, and then to finish up and say, 
here it is, we hope you like it, cause we knew that wouldn't be 
the case.
    So we came out with an initial plan of operations in July, 
it was 49 pages of text and figures, and had about 50 pages 
appended, a demonstration of claims and technical filings.
    We also did this to allow the Forest Service the adequate 
opportunity to realize the scope of what our plans were going 
to be as they have to be prepared to do some reviews and 
evaluations in response to that with their NEPA obligations.
    Mr. Grijalva. Relative to that, Mr. Sturgess, on page three 
of your testimony, you refer to an extensive list of activities 
that you claim you will do under your plan of operations. I 
just want to know if it is true, that under that plan of 
operations, that plan of operations was rejected by the Forest 
Service because it didn't provide necessary detail to evaluate 
the plan. I am referring to your testimony that you provided us 
earlier.
    Mr. Sturgess. I am sorry, Mr. Chairman. Your question--a 
clarification. I wouldn't say ``rejected.'' The Forest Service 
told us that they were going to require a lot more detail 
before they could initiate their planning process in response 
to our plan, and so we chose to withdraw it. It wasn't taken to 
the point of rejection. I don't know if that matters but--your 
question is not clear to me, though.
    Mr. Grijalva. Your answer kind of is. So I'm okay with it. 
A simple question. Your testimony, you own the property of 
Rosemont Ranch, which is 20,000 acres, if I'm not mistaken, 
that is what you mentioned, and since you have all this 
property under your ownership, why not use the private lands of 
Rosemont Ranch for the dumping for waste? Why use the national 
forests for that dumping ground?
    Mr. Sturgess. That is a very good question, Chairman. Let 
me try and clarify. An Arizona ranch would claim that it has 
20,000 acres when it has a combination of fee land, grazing 
leases, grazing rights and state leases. So I should clarify. 
The 20,000 acre Rosemont Ranch includes 3000 acres of fee land, 
that is both a combination of patented mineral land and some 
old homestead lands interspersed.
    It includes several thousand acres of state grazing leases. 
It includes several thousand acres of Bureau of Land Management 
grazing leases. It includes about 12,000 acres of U.S. Forest 
Service grazing leases. So the ranch is 20,000 acres. Our fee 
land that we own outright is about 3000 acres.
    Mr. Grijalva. So let me just, going back to a point you 
made in your testimony, how long has Augusta Resource 
Corporation been incorporated?
    Mr. Sturgess. I believe it was in the 1930's or forties.
    Mr. Grijalva. And so at this point, how many mining 
operations do you operate?
    Mr. Sturgess. Let me clarify. The corporation itself was 
incorporated in the thirties, or--and I'm not an expert on the 
corporate history. As a mineral venture, we have been in 
existence for about ten years, and looking at properties and 
looking at development opportunities. We do not at this time 
have an operating, producing facility.
    Mr. Grijalva. And so there is no way to deal with your 
history of reclamation at this point; correct?
    Mr. Sturgess. Mr. Chairman, we have no failures on our 
record. You are correct.
    Mr. Grijalva. That was a good one. That was a good one. 
Last question. I am going to ask Mr. Featherstone one and then 
yield to Congresswoman Giffords.
    In your testimony you stated no county, in this instance 
Pima County, is allowed to prevent the use or the occupancy of 
the land for mining.
    You talked about the fact that mining can override local 
communities. So is it your belief that residents and their 
elected officials here locally should have no say, at all, in 
what occurs in the community that they live in?
    Mr. Sturgess. I would not agree with that. I agree with 
your, what I--you asked me a double negative question. I am 
sorry, sir. It is my belief that the community in any area is 
very important to the success of every venture, whether it's 
private, public or political, and we are very happy to 
acknowledge that, both the local community as well as what I 
call the extended community of interested parties.
    I think it is very important, the processes that we are 
just initiating, are going to take two years to three years, to 
however many years, to include community involvement in all 
steps.
    Mr. Grijalva. We will come back around. Thank you, sir. Mr. 
Featherstone, let me get to the claim that Augusta makes, that 
since we have no track record with this company in terms of 
mining operations, reclamation, we are working off trust at 
this point. And the corporation is claiming that Rosemont 
operation will be a modern mine.
    I just wanted to ask you, what are some of the impacts that 
you have seen from, to quote, modern mines?
    Mr. Featherstone. Well, I think a good example is the 
Summitville mine in Colorado, which was a state of the art, and 
by the way, I mean, for 30 years of doing this kind of work, I 
think every mine proposal I have ever looked at has ben state 
of the art, a modern mine. Yet every mine that has operated has 
leaked, in some form of another, some more than others.
    A good example is Summitville, which was state of the art, 
which ended up killing about 15 miles of the Alamosa River, all 
the aquatic life in that river.
    The dangers of a modern metal mine depends a lot on the 
sulfur in the ore. I understand that this ore body is moderate 
sulfur but we are still waiting for Augusta to come up with the 
final geochemical analysis. That would make a lot of 
difference. A high sulfide mine is going to, when the ore is 
dug out of the ground and exposed to air and water, it is going 
to create sulfuric acid, it is going to leach heavy metals out 
of that. Copper ore, there is a high correlation between copper 
ore in the Southwest and uranium.
    For example, the Sierrita Mine and the Twin Buttes mine, 
and the Queen mine in Bisbee, all had uranium, and Twin Buttes 
and the Queen actually processed yellowcake, the raw uranium 
ore. And the process used in a modern sulphide copper mine 
actually concentrate the uranium as the ore is processed. So 
that is something really to watch for.
    There is just any number of problems that can happen. 
Leaking tailings impoundments, leaking waste rock, you know, 
dust. It is just quite a bit of problems that can occur.
    Mr. Grijalva. My last question. The drafters of the 1872 
Mining Law, could they have imagined the size and scope of 
modern mining? And that is part of the question because it was 
crafted in 1872. And if they did, if they were to look at the 
size and scope of modern mining now, what other kinds of 
accommodations do you think they would have made in that law?
    Mr. Featherstone. The first part, I don't think there is 
any way that the drafters of the law could have imagined a 
modern metal mine. In the old days, it was pick and shove; it 
was by hand. The workings down in Bisbee, the underground 
operations were, you know, real engineering feats. But that is 
a lot different from a modern mine where basically you are 
trading labor for oil.
    You know, a modern mine is an excavation operation. It is 
heavy equipment, it is huge equipment, and, you know, from a 
footprint of maybe a few acres to a footprint of tens of 
thousands of acres on some of the larger mines, is just 
something that the drafters could not have foreseen.
    The second part of your question--actually, I don't 
remember the second part of your question.
    Mr. Grijalva. Let's use the example you used, in terms of 
an absence in the 1872 law as it stands, and that would be the 
issue of current reclamation standards and bonding for 
liability and damage that might be caused to surrounding 
communities, to water, etcetera. That is the kind of 
accommodation that isn't present now, but that may be, with 
rethinking this law, would be included now.
    Mr. Featherstone. Yes. I mean, the original law really had 
no provisions for reclamation. Currently, the Forest Service 
does require reclamation bonding.
    However, a report that EARTHWORKS, back when it was the 
Mineral Policy Center, commissioned by a mining engineer, Jim 
Kuipers, had looked at reclamation bonding across the West, and 
specifically in Arizona, and the amount of money that is 
required by the agencies and provided by the companies, and in 
all cases in Arizona, is far less than what full reclamation 
would require.
    I don't have those statistics at my fingertips, or buried 
in my--I probably do have them buried in my brain but they are 
not going to come forward right now, and I would be happy to 
provide those to the committee.
    But the difference is an order of magnitude, you know, like 
hundreds of millions of dollars in Arizona between what should 
be in the bank for reclamation and what is in the bank now.
    Mr. Grijalva. Thank you, and with that, let me yield to 
Congresswoman Giffords for any questions you might have.
    Ms. Giffords. Thank you. Actually, my questions are for Mr. 
Sturgess. Good morning, Mr. Sturgess, thank you for being here 
today.
    Mr. Sturgess. Thank you for the invitation.
    Ms. Giffords. Yes. How much did Augusta pay for the 
property?
    Mr. Sturgess. Augusta Resources paid $20.8 million--that is 
$20.6 million.
    Ms. Giffords. And how much, based on today's copper prices, 
do you believe the property to be worth?
    Mr. Sturgess. It depends whether that ground--that copper 
would be in the ground as an undeveloped property or whether it 
was permitted, constructed, developed, produced for sale.
    Ms. Giffords. If you could address both aspects of the 
property.
    Mr. Sturgess. Okay. In the ground, I would say at the time 
we purchased it, it was worth $20.8 million. I believe it was a 
member of your staff who told me that was a lot to pay for a 
ranch, when we met, and I commented, it is a lot to pay for a 
ranch but it is very little to pay for a copper mine, and we 
will see what it turns out to be.
    In terms of value of the minerals, and it is going to take 
a minute to go through some math. Five billion pounds of 
copper, 100 million pounds of molybdenum, 100 million ounces of 
silver.
    At today's prices--and I haven't checked in the last few 
days--the copper is over $2.50 a pound. Molybdenum is about 
$25- to $27 a pound, and silver, I think yesterday, went over 
$14 a pound--or an ounce. An ounce, rather. The amounts are 
enormous. But those are market, retail, without having the cost 
of getting there.
    So getting back to what is the value? It depends what the 
price assumptions are. In our feasibility study modeling, we 
will probably use the trailing three year average, that is what 
the Securities and Exchange Commission looks at--that is about 
$2 a pound.
    And that is how I got with the number of $1.8 billion in 
taxes. That is the federal tax payment that comes--and this is 
part of the reason mines have historically been exempt from 
paying royalties, is because they pay income taxes, fairly 
substantial.
    So the $1.8 billion in income taxes would be about 30 
percent of the--well, of the profits.
    Ms. Giffords. So based on standard copper mining or mining 
practices, if you were fully operational, what would your 
profitability be if you were operating today?
    Mr. Sturgess. What I can tell you is published information, 
because that is all I am allowed, really. When we make 
disclosures, it has to be to all the public at the same time. 
That will be upcoming, within the next 60 to 90 days. So I 
encourage patience. In some ways, from Rosemont's standpoint, 
this hearing is perhaps very early in the process as opposed to 
the 1872 Mining Act purpose.
    But the net present value of the property in material that 
was published in April of last year, at prices of a dollar, I 
believe a $1.50 copper, is about $500 million.
    Ms. Giffords. Has Augusta ever developed a fully 
operational mine?
    Mr. Sturgess. The individuals of a company make the 
company, the same as the individuals on an elected body make up 
the body. So Augusta--no. The people that work for Augusta, 
myself, I have been on a half a dozen mine projects, there are 
actually some pictures around the wall, some that I have 
personally been involved with, some reclamation projects where 
industry has had success.
    Globe Miami, for example, where the tailing reclamation--
and anybody who drove through Globe Miami before 1988, when 
Cypress bought it, remembers what the terrible dust blowing 
was. A great example of a failed, or not even attempted 
reclamation effort.
    Drive through Globe Miami today. There are photographs on 
the side of the building, of the room, that show where the 
reclaimed or at least revegetated tailings are today. Those 
projects have been done by individuals.
    There are also pictures here from a Golden Cross mine in 
New Zealand. It still looks like a mine because revegetation, 
when the photograph was taken, was only about five years old. I 
was the environmental architect, you might say, for that 
project, in 1986, full mine, tailing ponds, revegetated, on its 
way back.
    The individuals that make up Augusta have started, built, 
closed, and operated mines, with good relations with the 
community, good relations with labor, organized and unorganized 
labor, good relations with the regulators, and I am proud of 
that record and everybody on our team, many which are here on 
our design team, I should ask, from Tucson--and I am sorry to 
grandstand but if we can have a quick standup, everybody who is 
here, who has had anything to do with the Rosemont planning 
design, that is proud to say I am part of it.
    Okay. These people live in the community. We are not going 
to fail you. We are trying to show the mining industry has to 
find a way to develop minerals, and this group is committed to 
doing that.
    Ms. Giffords. But Mr. Sturgess, you would agree, that while 
all you work for Augusta mining company, and it sounds like you 
have quite a background, it is really the company that is the 
entity that we would deal with.
    So you have a problem with the company, if we were to go 
back in a reclamation standpoint, or whatever. It is not you, 
individually, that we would be dealing with. We would be 
dealing with the corporation.
    And the reason why I bring up the question is because if 
your company doesn't have a track record, or we don't have the 
faith that it is even your company that is going to be carrying 
this project forward, it just makes it difficult to be able to 
understand a little bit more about the planning process and 
your intentions.
    Can we shift, briefly, to talk about the environmental 
impacts? As a motorcyclist, that is one of the best stretches 
of roads in, I would argue, all the country, but particularly 
Arizona.
    Can you talk about trucks on the highway, how you would 
export the ore and the other--obviously, you touched on water, 
but if you can go into that in a little bit greater detail.
    Mr. Sturgess. I will try and take those three at a time. As 
a motorcycle operator myself, if we don't concentrate on what 
we are doing, we crash, and actually, milepost 44, where I 
think you were yesterday, Congressman, and milepost 45, is the 
single most dangerous stretch of road on the Arizona highways.
    It is the most dangerous mile for motorcycles and it is in 
the top four for cars. I look at that, where the present access 
is into the ranch, and I said there is no way that our 
employees, our designers, or our haulage vehicles, would want 
to be anywhere near that stretch of road. It is dangerous 
enough already. It needs to be fixed.
    I know there is resistance against that but it needs to be 
straightened. I would like to see it straightened to the east 
and I would be happy for our company to commit to help pay to 
do that. I think it could be straightened, made more safer, and 
we could just drop it about 15 or 20 feet in grade, and if you 
don't want to look at a modern mine, you wouldn't have to see 
it. It could remain a scenic highway, with no view of the mine 
at all in those three miles. That is a scenic issue, which is 
part of the environmental.
    Back to traffic. What we instead selected, and what the 
engineers are designing, is back at milepost 47 there is a one 
mile straight stretch. You might know it now. It has got a 
picnic area, a table and an overlook.
    That is the safest stretch of that road, and that would be 
where we would propose to have our traffic and our access in 
and out.
    There are two other parts to your question. Help me again.
    Ms. Giffords. Water.
    Mr. Sturgess. Water. We did a telephone poll of all the zip 
codes around the area of the mine, in April, a year ago, we did 
it again in October, and we asked people, What are the most 
important values and concerns and issues you might have with a 
mining development at Rosemont, and the top three were water, 
water, and water.
    Water quality, water quantity, and water supply. And so 
that is a very important question. I can't go into all the 
details now, but I can tell you that the plan of operations, 60 
days, 90 days, when it comes out, will have a very thorough 
demonstration of exactly where our well fields would be, where 
the pipeline routes could be, where the Central Arizona Project 
Recharge Water, that we are actually starting in three days, 
four days--five days. March 1st, we are actually starting a 
recharge project, storing water in the Santa Cruz Basin.
    We have 15,000 acre feet that we purchased from the CAP 
system, that is going in the ground, to more than offset the 
water that we are going to take out of the aquifer for mine 
operations. We are not required to do it, but we realize, if we 
are going to have a chance with the public, we have to earn 
their trust.
    The water chemistry is going to be thoroughly evaluated. I 
think Mr. Featherstone--I don't argue with much of what he said 
about the historic problems. The good news--and I think he 
alluded to this--low pyrite mines are a lot easier to manage 
that high pyrite or high sulfide mines.
    The limestone deposit at Rosemont, in my 30 years, is as 
clean and clear, from a water chemistry standpoint, as any 
place I have had the pleasure or challenge to work at.
    That doesn't mean that by itself, we don't have a lot of 
challenges to overcome, and to meet in the details.
    And the other part of your question was?
    Ms. Giffords. Well, actually, the number of trucks daily on 
the road.
    Mr. Sturgess. We have a transportation plan. I have seen a 
draft. The M3 Engineering company that is working on that has a 
schedule that will be out in 60 to 90 days. On that chart, it 
will show, by hour, our estimated number of trucks and employee 
vehicles.
    I have told them there are two blackout periods between--we 
are subject to change this--but between 6:00 and 9:00 in the 
morning and 3:00 and 6:00 at night, and those can be changed.
    No haul trucks during those hours when the school buses are 
on Highway 83. I know that was a concern that was raised here. 
We are listening. The answer to your question is three trucks 
an hour as far as--as concentrate trucks.
    We have scheduled our shift change, 12 hours, so we have 
two shifts at 12 hours apiece, which means we only have two 
crews that have to go back and forth instead of three eight-
hour crews. It also means the employees get a four day weekend, 
a three day weekend, and then a six day weekend, which gives 
them a lot of flexibility.
    Ms. Giffords. You talked about being in compliance with the 
``Dark Sky'' laws. You are planning a 24 hour open pit copper 
mining operation. Obviously, you need to do that with lighting. 
Can you address, a little bit, how you plan on keeping the 
skies dark?
    Mr. Sturgess. In our plan, again, those 60 to 90 days, we 
have a lighting plan, and I have tasked the M3 Engineering 
company that does--at least last year, about half their work 
was for the observatories, half for the mining industry. They 
are pretty well-qualified to do it.
    We asked them to put the details of the lighting plan for 
all the external lighting at Rosemont, to make sure we are in 
compliance with the guidelines. Those are strict guidelines. We 
are within 12.5 miles of the, I guess Mount Hopkins 
Observatory. Part of the mine operation is within the strictest 
part of the guideline area.
    What we would do that with is through use of the proper--I 
think they are called low sodium vapor, basically yellow 
lights, what you see. A lot of is mechanical. You put a hood--
if the light is up here, you put a hood and shielding, so that 
the light is focused where you want it, and a lot of that is 
energy conservation as well. Hoods, shields, and also 
limitations of activities occur inside of buildings versus 
outside.
    It will be a challenge. I am sure we can do it.
    Ms. Giffords. One final question. How many public meetings 
have you had so far?
    Mr. Sturgess. How many public meetings on Rosemont? I can't 
remember. There's a lot more coming.
    Ms. Giffords. Okay. But you don't know how many meetings 
you've had where you've opened the public up to answer 
questions, to walk the property and----
    Mr. Sturgess. The reason I can't remember is I can't count 
that high. We talked to Sahuarita, talked to Pima County, been 
here several times in this room, talked to the Pima Association 
of Governments, talked with, either myself or other members, 
talked to the Chamber of Commerce in several situations.
    Ms. Giffords. Mr. Sturgess, public meetings? Not meetings 
with planning officials or elected officials. But actual public 
meetings.
    Mr. Sturgess. Between five and ten. Probably between five 
and ten.
    Ms. Giffords. Okay. All right.
    Mr. Sturgess. But I would point out that we have not 
officially filed a plan that we are in the process of reviewing 
here.
    Ms. Giffords. Okay. Thank you, Mr. Sturgess.
    Mr. Grijalva. Thank you, Congresswoman Giffords. A couple 
of follow-ups. Let me start with Mr. Featherstone. One 
question. You know, other than hard rock mining--and correct me 
if I am wrong--federal energy and mineral resources are managed 
under a lease or sale system?
    Mr. Featherstone. Correct.
    Mr. Grijalva. Do you think that we have reached the point, 
in the history of mining in this country, that we shouldn't use 
a leasing system for hard rock mining?
    Mr. Featherstone. Yes, I think so, and I think a good 
example of that is uranium, which is kind of a duality, where 
you have got both some leases left over from the Department of 
Defense after World War II, and then you also have it as a hard 
rock mineral. So that is one where you have a duality. But I 
see no reason, in this day and age, why there shouldn't be some 
sort of leasing system.
    Of course as part of two reforms, there needs to be, in our 
view, some places that are just plain off limits.
    Mr. Grijalva. Thank you, and just before we close this part 
of it, I would just like to comment for the record, in the 
statement of Mr. Sturgess, on page two, it's erroneously 
asserted that the intent of the 1872 law is clear, the 
congressional intent.
    The problem with that, as he goes on with the quote, the 
quote comes from the Mining and Materials Act of 1970, which 
essentially provides guidelines and procedures, but does not 
supersede the 1872 law, and what has happened is that this 
proposal, this request is under that law, which is really 
written around ownership, and really doesn't bear on any other 
criteria, and it does not address reclamation, it does not 
address disposal, control of material waste products. So that 
is part of the problem in which we are having this kind of 
hearing today.
    I want to thank the witnesses for their testimony and we 
will at this point call the next panel forward. Thank you very 
much.
    Ms. Levick and Ms. Lunine, please. Ms. Levick, you are 
recognized for five minutes, please.

            STATEMENT OF LAINIE LEVICK, PRESIDENT, 
                  SAVE THE SCENIC SANTA RITAS

    Ms. Levick. Thank you, Congressman Grijalva and 
Congresswoman Giffords, for having this hearing today. My name 
is Lainie Levick. Can you hear me with this?
    Mr. Grijalva. It might be easier, for more audio. I know 
you don't want to but----
    Ms. Levick. Right. I don't want to stand up here. Okay. 
Thank you, Congressman Grijalva and Congresswoman Giffords, for 
having this hearing today. My name is Lainie Levick. I am 
representing Save the Scenic Santa Ritas, SSSR, an all-
volunteer 501(c)(3) nonprofit organization. We were formed in 
1996 to stop the ASARCO land exchange and mine proposal at 
Rosemont Ranch and to protect the scenic recreational and 
environmental values of the Santa Ritas.
    We are opposed to all plans for mining in the Santa Ritas, 
including those by Augusta Resource, a Canadian company, to use 
our public lands as a dump for their toxic mining wastes at 
Rosemont.
    When we helped stop ASARCO in the late 1990's, there were 
over a hundred people actively involved, and almost 3000 people 
signed petitions opposing the land exchange and mine.
    SSSR was endorsed by 55 local groups, ranging from hunting, 
off-road vehicle and gun clubs, to neighborhood associations, 
hikers and birders. The Pima County Board of Supervisors, Santa 
Cruz County Board of Supervisors, Pima County Parks and Rec 
Department, Arizona Audubon Council, and Tucson City Council, 
all passed resolutions against the land exchange in 1997.
    The public opposition to that proposal was enormous, and 
along with hard times for the copper industry, helped to end 
that threat to the Santa Ritas.
    And now with this new mine proposal, we are seeing there is 
still enormous public opposition to mining at Rosemont. The 
Rosemont Valley is important to our quality of life in southern 
Arizona for recreation, open space and environmental 
protection. Open pit mining is not compatible with these uses 
and the community is passionate about protecting this area.
    The potential impacts to the Rosemont Valley from an open 
pit copper mine are simply not acceptable. Impacts to our water 
resources are the greatest concern, as we have already heard. 
Most mines have unintended leaks and spills, degrade surface 
and water quality with sulphates and heavy metals, and de-water 
the aquifer.
    Our water resources are already severely stressed due to a 
growing population and existing groundwater contamination from 
past industrial and mining uses. It is crucial that we protect 
what is left, both quantity and quality.
    The newspaper, last Wednesday, reported that the EPA is 
investigating the mines in Green Valley after the monitoring 
wells at the Sierrita Mine found uranium in groundwater at 
twice the legal limit. According to a Coronado National Forest 
geologist, the deposit at Rosemont is the same as Sierrita. So 
now we have the threat of uranium added to the list of 
potential water quality contaminants at Rosemont, if this mine 
is permitted.
    Air quality is also a concern. Wind speeds throughout the 
Sonora Valley are high and prevailing winds blow towards 
Tucson. The winds originating from mine sites can move great 
distances. For example, tungsten originating from mine tailings 
in Bisbee is suspected as the cause of the leukemia cluster in 
Sierra Vista, about 25 miles away. The Rosemont mine proposal 
is a perfect example of why the 1872 Mining Law must be 
changed.
    It is a grave injustice to the American people, and in 
spite of overwhelming public opposition, and a multitude of 
unacceptable environmental impacts, that the mining law makes 
it nearly impossible to deny this project.
    Although other laws exist to protect the environment, the 
mining law takes precedence, and most of the environmental 
destruction associated with mining is allowed.
    The small economic benefits of mining at Rosemont are not 
worth the huge risks to our water, environmental resources, and 
huge loss of recreational land. Mining is not the best use of 
Rosemont Ranch. This area will provide the greatest good for 
the greatest number, by leaving it as it is now. Arizona 
already has an abundance of operational copper mines that will 
help sustain our standard of living and provide copper to the 
country.
    The small amount of copper that may be produced at Rosemont 
is not significant enough to justify destroying this beautiful 
and important part of the Santa Ritas.
    We support efforts to withdraw this area from mineral 
entry. Mining is not an appropriate use of this land, and as 
Roger mentioned, and one of the speakers at the January 16th 
Pima County Board of Supervisors hearing on the resolution 
opposing this mine said: It's the wrong project in the wrong 
place at the wrong time.
    Thank you for the opportunity to testify on this issue of 
great importance to the people and environment of Southern 
Arizona.
    [The prepared statement of Ms. Levick follows:]

                Statement of Lainie Levick, President, 
                      Save the Scenic Santa Ritas

    Thank you Congressman Grijalva, Congressman Costa and members of 
the committee for convening this hearing on the Rosemont Mine, the 1872 
Mining Law and the impacts on the Santa Rita Mountains. I appreciate 
this opportunity to testify before you today.
    My name is Lainie Levick. I am here today representing Save the 
Scenic Santa Ritas (SSSR). We are an all volunteer, 501(c)(3) non-
profit organization formed in 1996 to protect the scenic, recreational, 
environmental and wildlife values of the Santa Rita Mountains, 
including protection from degradation due to mining activities. We are 
intensely opposed to all proposals for mining in the Santa Rita 
Mountains. We are opposed to plans by Augusta Resource, a Canadian 
company, to use our public lands as a dump for their toxic mining 
wastes at Rosemont Ranch.
    We are in strong support of the efforts to withdraw this area from 
mineral entry. We are aware that withdrawal is subject to valid 
existing rights, meaning that valid mining claims remain in effect. The 
Forest Service has refused to conduct a validity exam of the claims at 
Rosemont, although they have the jurisdiction to do so. We hope this 
withdrawal will force an examination, and reduce the needless 
destruction of the area by further mineral exploration and development.
    I am the current President of SSSR. We have 11 members on our Board 
of Directors, and 8 members on our Advisory Committee. We have no paid 
memberships, but maintain an email action alert list which includes 
members from other organizations that forward the alerts on to their 
lists. These citizens are all passionate about protecting the Santa 
Ritas. They include off-road vehicle groups; hiking, birding and 
mountain biking groups; neighborhood and conservation groups; and many 
others. Our current activities include maintaining a website 
(www.ScenicSantaRitas.org), working with local public officials, public 
outreach and education, hikes to the Rosemont area, and contact with 
the local press. In addition, we have an online petition opposing the 
mine that has approximately 919 signatures since Oct. 29, 2006 when it 
went online (http://www.petitiononline.com/sssr2006/petition.html). A 
copy of that petition is attached. We also have over 80 names on paper 
petitions. No one has been paid to collect signatures or sign the 
petition, nor is anyone expecting to receive compensation or get a job 
by signing. It is all completely voluntary, and shows the strong public 
opposition to this mine proposal.
History of SSSR and our efforts to protect the Santa Ritas
    The Santa Ritas and the Rosemont Valley have been of interest to 
mining companies for over a century. I will not discuss that history 
here (see our website for more information www.ScenicSantaRitas.org), 
but will just present the most recent attempts at mining that prompted 
the formation of Save the Scenic Santa Ritas.
    In 1995, the Rosemont Ranch was proposed for copper mining by 
ASARCO, Inc. ASARCO had acquired through purchase and patenting under 
the 1872 Mining Law, nearly 3,000 acres in the Coronado National 
Forest's Santa Rita Mountains, which included the porphyry copper ore 
body. In 1995 they sought to acquire an additional 13,272 acres (more 
than 20 square miles) of claimed National Forest land through a land 
exchange, to provide additional areas for disposal of overburden and 
mine tailings, and to provide a land-use buffer for the mine.
    In 1996, Save the Scenic Santa Ritas Association formed as a non-
profit organization to stop the land exchange and open pit mine 
proposal. Over a hundred people were actively involved in that effort, 
and almost 3,000 people signed petitions opposing the land exchange and 
mine. These petitions were presented to the Forest Service in 1997. 
SSSR was endorsed by 55 local groups (see list attached) ranging from 
hunting, off-road vehicle and gun clubs, to neighborhood associations, 
hikers and birders. A campaign coordinator was hired to help with the 
political, administrative, fundraising, and media work.
    SSSR also gained the support of the local governments in Southern 
Arizona. In May of 1997, the Pima County Board of Supervisors voted 4-1 
to oppose the proposed Rosemont Ranch Land Exchange and passed a 
resolution in opposition (attached). Congressman Grijalva, who was at 
the time Chair of the Board of Supervisors, signed this resolution. It 
stated, ``The public interest of Pima County and southern Arizona 
will...not be furthered by the proposed Rosemont Ranch Land Exchange.'' 
The Santa Cruz County Board of Supervisors, Pima County Parks and 
Recreation Department, the Arizona Audubon Council and the Tucson City 
Council also passed resolutions against the land exchange that year. A 
copy of the Pima County resolution is attached. The other resolutions 
are similar in content.
    All three major local governmental bodies gave similar reasons for 
opposing the land exchange: the loss of access to 20 square miles of 
public land, and the resulting stresses on remaining public land in the 
area; the loss of recreational opportunities for residents of, and 
visitors to, southern Arizona; the potential negative impacts on our 
tourism-based economy; the potential harm to wildlife as management of 
this diverse habitat passed from the Forest Service to a private 
corporation; the negative impact on the overall quality of life in 
southern Arizona; and several other reasons.
    In early 1998, Coronado National Forest Supervisor John McGee 
announced to the press that ``he and ASARCO have mutually agreed to 
terminate the Memorandum of Understanding related to potential copper 
mine development or land exchange in the Santa Rita Mountains.'' 
Although the immediate threat of a land exchange and copper mine was 
halted, there remained over 13,000 acres of unpatented mineral claims 
in the National Forest, as well as the unresolved situation with the 
private lands at Rosemont Ranch.
    In 2004, the Ranch was sold by ASARCO to a new owner who was 
considering conservation instead of mining, and was willing to sell all 
or a portion of the Ranch to Pima County. The County was very 
interested in purchasing this property since it is almost entirely 
within the designated biological core area of the Sonoran Desert 
Conservation Plan (SDCP), and the Santa Ritas are a priority 
conservation area with important wildlife habitat. The SDCP is the 
result of years of scientific study that will help guide development 
and ecosystem protection in Pima County (http://www.pima.gov/cmo/sdcp/
intro.html).
    In late 2004, Pima County prepared a report to evaluate the 
potential benefits of acquiring Rosemont Ranch and associated water and 
mineral rights for open space preservation. The only available funding 
for this purchase was from the 2004 Open Space Bond funds; however, 
most of the Rosemont Ranch was not included in the list of properties 
to be acquired with these funds because all inholdings in the National 
Forest were categorically excluded from the 2004 land acquisition 
priorities. The groups working on this list assumed that Land and Water 
Conservation Funds would be available to acquire Forest Service 
inholdings.
    As a result, Pima County was not able to purchase Rosemont Ranch 
with 2004 Bond money, and in 2005 the owner instead sold the property 
to Augusta Resource Corporation, a Canadian company. Augusta has 
proceeded with exploration activities and in 2006 submitted a mining 
plan to the Forest Service. This plan was rejected due to lack of 
detail. Although Augusta's mining footprint would be similar in size to 
ASARCO's land exchange proposal, unlike ASARCO, Augusta is not offering 
to acquire and protect other land in advance of mining to compensate 
for the irreversible losses of land that would occur. Instead, Augusta 
is offering a ``regional trust'' for a variety of projects, which may 
or may not include land acquisition, but the land acquisition, if any, 
would occur after the mining impacts.
    In 2006 Save the Scenic Santa Ritas succeeded in getting the 
private lands at Rosemont Ranch on the preliminary list of properties 
to be purchased for Community Open Space through Pima County's upcoming 
2008 Open Space Bond. If the property becomes available for sale, Pima 
County will be better able to protect these lands through bond funds. 
SSSR continues to monitor the activities of Augusta at Rosemont Ranch, 
educate and inform the public, and participate in any public 
participation opportunities that arise.
The importance of the Rosemont Valley to the citizens of Southern 
        Arizona and the potential impacts from mining.
    The Rosemont Valley is important to our quality of life in Southern 
Arizona, for recreation, scenic views, water resources, wildlife 
habitat and ecosystem processes. As our population grows, and 
development spreads out from the urban areas, there will be more 
pressure on Rosemont for its numerous values. Augusta claims they will 
maintain multiple uses at Rosemont Ranch, but it is unlikely that these 
uses would continue after it becomes an open pit copper mine. Intensive 
development of the area as a mine would result in the permanent loss of 
these resources.
    The potential impacts to the Rosemont Valley from an open pit 
copper mine are simply not acceptable to the citizens of Southern 
Arizona. These impacts would include destruction of the landscape 
(vegetation, soil and hydrologic processes), water and air quality 
degradation, noise and light pollution, destruction of scenic views 
from State Scenic Highway 83, increased traffic hazards, lower property 
values, huge loss of recreation lands, destruction of wildlife habitat, 
and damage to the local tourism-based economy.
Degradation of Water Resources
    Most mines cause some damage to surface and ground water resources. 
Even though they may use modern technology or have good intentions, 
mines have unintended leaks and spills. In the arid southwest, we have 
lost over 80% of our riparian areas, making it even more important that 
we protect what's left. Our water resources are already severely 
stressed due to a growing population and existing groundwater 
contamination from past industrial and mining uses.
    There are many potential water resource impacts from a mine at 
Rosemont. The mine site is in a particularly sensitive and important 
location. It is in the watershed of Cienega Creek, a state protected 
Outstanding Water (also called a Unique Water, a water quality anti-
degradation protection), and part of the watershed for Tucson's water 
supply.
    Augusta has proposed to dump their mine wastes (tailings and waste 
rock) into Barrel Canyon, one of the main drainages to Davidson Canyon 
which flows into Cienega Creek. They have also proposed several holding 
ponds that would impound surface flows in Barrel Canyon. Filling this 
canyon and impounding the surface water will deplete flows in both 
Davidson and Cienega Creek and cause significant damage to the riparian 
habitats. Any leaks or spills from the mine site would flow into and 
contaminate these rare riparian systems. Augusta's mining plan used the 
100-year 24-hour design storm for their stormwater management plan; 
however the flood events during the summer of 2006 in Southern Arizona 
were determined to be 10,000 year events.
    Although Augusta claims they will use ``dry'' tailings, water will 
still be required for processing. When water is applied onto broken 
rock in areas with high sulfate concentrations, sulfuric acid is 
generated which in turn leaches out heavy metals. These potentially 
toxic heavy metals and other chemicals could leach into ground and 
surface waters and Tucson's water supplies.
    An article in the Arizona Daily Star article on Wednesday Feb. 21, 
2007, reported that ``The EPA is investigating the mines west of Green 
Valley after monitoring wells on the Sierrita mine site found uranium 
in the groundwater at twice the legal limit. Mary Poulton, head of the 
department of mining and geological engineering at the University of 
Arizona, said uranium and thorium often occur in the same granite rocks 
that contain copper and molybdenum.'' According to Bev Everson, 
geologist with the Coronado National Forest, the deposit at Rosemont is 
the same type of deposit as Sierrita. This creates concerns that the 
same type of water quality contamination may occur at Rosemont if the 
mine is permitted.
    Augusta hasn't yet disclosed their water source, but it will likely 
be groundwater from the Santa Cruz Basin, at about 5,000--8,000 acre 
feet per year, or enough water for a city the size of Santa Fe. 
Domestic wells in the area of Rosemont Ranch already go dry 
periodically due to overuse of the aquifer and cannot handle additional 
stress. Stream flow and springs would likely dry up from this quantity 
of groundwater withdrawal, adversely affecting plants and wildlife. 
Most of the groundwater extraction would probably occur from dewatering 
the pit, and this pumping would lower the groundwater level, change the 
recharge patterns and change the groundwater flow direction. This has 
the potential to diminish underground flows moving southeast to the 
upper Cienega Basin, including Empire Gulch, as well as flows moving 
north toward Davidson Canyon. Until a complete water balance and 
hydrologic study of the area are completed, it is unknown exactly how 
much water would be required for processing, and what the surface and 
ground water impacts would be.
    A recent report by Anne Maest and Jim Kuipers looked at how well 
the NEPA process predicted water quality impacts from mines. They found 
that 73% of the mines that predicted no adverse impacts to surface 
water resources actually did cause water quality standard exceedances. 
They also found that 92% of the mines close to surface or ground water 
had surface water impacts, and 77% caused ground water contamination 
when they had predicted no impacts. The possibility of water quality 
and groundwater degradation is extremely high if the Rosemont mine is 
permitted. These are risks we can no longer afford to take in Southern 
Arizona where our water resources are already severely stressed. This 
is reason enough to deny the mine. But under the 1872 Mining Law, these 
concerns cannot be considered, leaving mineral withdrawal as the best 
available option to stop this project.

Reclamation
    Although Augusta claims they will use environmentally responsible 
techniques and restore the area to ranching and wildlife uses, there 
are no legal requirements that they do so. The 1872 Mining Law does not 
require reclamation, and the Arizona Mined Land Reclamation Act is 
extremely weak. This proposed mine would permanently destroy 
approximately 4,000 acres (over 3,000 acres of public land). Augusta 
will be required to post a bond for site reclamation, but it is unknown 
if it will be adequate for real restoration of the site. Most 
reclamation bonds mainly cover the cost of surface reclamation, and 
barely address water quality issues, which can be difficult to predict. 
By far the greatest expense in current mined land reclamation is for 
long-term water quality monitoring and treatment (i.e. for at least 100 
years), since ground water contamination can take years to appear, and 
leaching may continue into perpetuity. Furthermore, in this semi-arid 
climate, where rainfall is highly unpredictable, revegetating over 
4,000 acres to ranching and wildlife uses would require intensive 
irrigation and long-term monitoring. Reclamation costs for similar 
sized mines have been estimated at $200 to $300 million, with most of 
the cost for water quality restoration. Augusta has not indicated how 
much they will put up for their reclamation bond. Open pit mining 
causes irreversible changes to the landscape, and in our semi-arid 
climate restoration to any form of sustainable use would be a 
formidable task.

Air Pollution
    The region currently has excellent air quality. Mine tailings and 
waste piles would be sources of dust, which prevailing winds would blow 
toward the Tucson basin. Air quality in the National Forest and 
surrounding residential areas would be degraded by both dust and truck 
exhaust (which contains diesel fumes and particulate smoke). Augusta's 
proposed ``dry'' tailings and other mine waste could allow dust 
particles to become airborne, creating a plume of metal particles in 
the air. Wind speeds throughout the Sonoita Valley tend to be high. 
Dust plumes originating from mine sites are serious concerns since they 
can move great distances (further than water pollution) and contain 
heavy metals. For example, tungsten originating from the mine tailings 
in Bisbee is suspected as the cause of the leukemia cluster in Sierra 
Vista, about 25 miles away. If gold is present, then airborne plumes of 
particulate arsenic may occur since there is a strong correlation 
between the presence of gold and arsenic. Predicting wind direction and 
velocity requires extensive monitoring and the analysis of wind rose 
diagrams.

Impacts to Biological Values and Wildlife
    Rosemont Valley is biologically important from its pinion pine-oak 
grasslands in the higher elevations to the cactus shrub grasslands in 
the lower portions. The Valley is part of the Madrean Archipelago bio-
region of North America. Named as one of four Biodiversity Hotspots in 
North and Central America in 2004, the Santa Rita Mountains and 
Rosemont Ranch contain a level of biodiversity that is unmatched in 
most other parts of the United States. The Santa Ritas have also been 
designated as an ``Important Birding Area''. From a landscape-level 
perspective, the northern Santa Ritas, where Rosemont is located, act 
as a critical landscape connection to the Empire and Rincon Mountains 
to the north and east. This connection is best characterized by the 
fact that several jaguars--one of many federally listed species within 
the area--occurred in the vicinity in the 1900's.
    There are two Endangered Species known to exist at Rosemont: Lesser 
Long-nosed bat (Leptonycteris curasoae yerbabuenae) and Pima Pineapple 
Cactus (Coryphantha scheeri robustispina). In addition, this area may 
be home to the Chiricahua Leopard Frog (Rana chiricahuensis), listed as 
threatened, and the Yellow-billed Cuckoo (Coccyzus americanus), a 
candidate for listing.
    There are six others priority vulnerable species or Wildlife of 
Special Concern known to occur in the Rosemont Ranch area, according to 
the AZ Game and Fish Department: Mexican Long-tongued Bat 
(Choeronycteris mexicana), Western Red Bat (Lasiurus blossevillii), 
Lowland Leopard Frog (Rana yavapaiensis), Giant Spotted Whiptail Lizard 
(Cnemidophorus burti stictogrammus), Rufous-winged Sparrow (Aimophila 
carpalis), and Bell's Vireo (Vireo bellii). The Mexican Spotted Owl 
(Strix occidentalis lucida) may also occur there, based on its habitat 
requirements.
    For more information on wildlife potentially affected, see the 
report by Pima County, ``Preserving the Santa Rita Rosemont Ranch'' 
(2004). http://www.pima.gov/cmo/sdcp/reports/d29/Rosemont%20Ranch.pdf
Loss of Recreational Opportunities
    The Rosemont Valley is a valuable recreational resource for 
Southern Arizona. This area is used for hiking, camping, off-highway 
vehicles, mountain biking, dirt bikes, hunting, bird-watching, 
bicycling, picnicking, photography and sight-seeing. As the population 
in this region grows, and development spreads further out from the 
urban areas, there will be more and more demand on this area. A mine at 
Rosemont would result in the permanent loss of these recreation lands, 
and will aggravate our increasingly crowded public lands, decreasing 
the quality of recreational experiences.

Noise Pollution
    Daily blasting is required to remove rock covering the ore body. 
The impact to nearby residences, wildlife and recreational users in the 
National Forest will be equivalent to daily sonic booms. The blasting 
may also cause damage to nearby residences. The noise from large mining 
trucks at the site and on the local roads would be disruptive to people 
and wildlife in the area.

Light Pollution
    Mines operate 24 hours a day, 7 days a week. They require huge 
amounts of lighting which would interfere with the operation of local 
observatories, such as Mt. Hopkins, and would not be in compliance with 
Pima County's Dark Sky Ordinance. Many people live in the Sonoita and 
Empire Valleys because they value the rural lifestyle, which includes 
dark skies and stars at night. The lights from a mine would impact this 
aspect of their lives.

Loss of Scenic Views
    The mine site is visible from State Highway 83, a designated State 
Scenic Highway. The scenic views will be impacted for about 3 miles of 
the 24-mile drive from I-10 to Sonoita. This 3-mile segment includes 
the portion of the highway where it gains its greatest elevation above 
the surrounding land, at which point drivers are treated to a sweeping 
panoramic view of the Rosemont Valley to the west. The mine site 
dominates this view which currently consists of spectacular rolling 
hills of grasslands, dotted with oak trees and backed by a scenic, 
rugged ridge line.

Traffic Hazards
    Mine related traffic and trucks, including ore trucks and vehicles 
carrying heavy construction equipment and explosives for blasting, will 
use the Rosemont Junction Road and narrow, winding Highway 83 which is 
heavily used by commuters, school buses, tourists, motorcycles and 
bicyclists. This would create very dangerous and hazardous driving 
conditions, and the heavy mine trucks would damage the road more 
quickly than normal traffic.

Decrease in Property Values
    The areas surrounding the mine site have developed into rural 
residential areas, ranches and ranchettes. The development of an open 
pit mine will lower property values in those areas due to increased air 
pollution, noise and light pollution, water quality impacts, and a 
generally reduced quality of life. The Sonoita Valley, a weekend 
tourist destination, may experience reduced tourism and could be thrown 
into the boom-bust economy typical of western towns adjacent to large 
mining operations.

Economic Impacts
    Any economic benefits of the mine will be offset by the negative 
impacts on tourism-related businesses dependent on the area's scenic 
beauty and recreational opportunities. Mine employment may be partially 
or completely offset by (1) the impact of the mine on recreational and 
scenic values which might otherwise have lured companies into 
relocating to Southern Arizona; and (2) the long-term deleterious 
effects of mining's well known boom-bust economies. Although Augusta is 
promising to provide about 350 jobs, these jobs will last only about 20 
years (boom-bust economy of mining), and there is no guarantee they 
will come from the community. Typically, mining companies fill 
management positions from out of town, and other skilled mining jobs 
are typically filled by people moving from other mining areas.
    Mining no longer represents a large portion of the jobs or income 
in Arizona. Besides farming, mining has consistently represented a very 
small portion of personal income in Arizona since 1970. According to 
the Arizona Game & Fish website, in 2000, mining provided about 2,500 
jobs in Pima and Santa Cruz counties. In comparison, recreation related 
jobs totaled 8,541 in 2001, or more than 3 times the number of jobs as 
mining provided. This includes jobs related to non-consumptive 
recreation such as camping, hiking and bird watching (approximately 
3,430 jobs), hunting and fishing (about 1,400 jobs), and OHV related 
jobs (about 3,700).
    The Arizona Watchable Wildlife program is a program run by the 
Arizona department of tourism and partnered with Arizona Game & Fish. 
Watchable wildlife recreation includes bird watching and general 
wildlife viewing at our parks and other attractions like the Boyce 
Thompson Arboretum, or local Bed and Breakfasts that focus on nature 
activities. Statistics show that retail sales related to this program 
totaled over $173 million in 2001 for Pima County, and $11.9 million 
for Santa Cruz County. There were 3,196 jobs from these industries in 
Pima County, totaling $90.7 million in salaries and wages, and 236 jobs 
in Santa Cruz County with $6.2 million in salaries and wages.
    When comparing the economic contributions of the main industries in 
Arizona for 2004, mining represented a small portion compared to 
aerospace, micro-electronics, and the food and travel industries. For 
example, the travel industry represents $4.3 billion in Arizona, or 
nearly 7 times the mining sector contribution of $0.7 billion. 
Recreation related jobs produced nearly $210 million dollars in 
personal income in 2001, compared to a projected $147 million from 
mining jobs.
    These are sustainable, non-consumptive jobs that improve our 
quality of life in Southern Arizona and do not harm the environment. 
Southern Arizona is moving towards clean, sustainable businesses, and 
is not as dependent on extractive industries as in the past. The small 
economic benefits from mining are not worth the great environmental 
risks. The current uses of Rosemont Valley provide more benefits to 
Southern Arizona than would be obtained from a copper mine.

Conclusions
    The Rosemont mine proposal is a perfect example of why the 1872 
Mining Law needs to be changed and updated. It is a grave injustice to 
the American people that in spite of overwhelming public opposition and 
a multitude of unacceptable environmental impacts, the Mining Law makes 
it nearly impossible to deny this project. In addition, the Mining Law 
contains no provisions for environmental protection or for reclamation 
and clean-up of the site once mining is finished. Although other laws 
are intended to protect the environment, the Mining Law takes 
precedence and most of the environmental destruction associated with 
mining is allowed. I am extremely pleased that the Subcommittee on 
National Parks, Forests and Public Lands, and the Subcommittee on 
Energy and Mineral Resources are listening to how we might address this 
problem.
    The goal of SSSR is to prevent any mining from occurring in the 
Santa Ritas and the Rosemont Valley so the area can be preserved for 
its current uses. We support permanent protection for the Santa Ritas 
through withdrawal of the Forest Service lands from mineral entry. We 
believe that the small economic benefits of mining at Rosemont are not 
worth the large risks to our water, recreation and environmental 
resources. Arizona already has an abundance of operational copper mines 
that will help sustain our standard of living. The small amount of 
copper that may be produced at Rosemont is not significant enough to 
justify destroying this beautiful and important part of the Santa Rita 
Mountains.
    We are in strong support of efforts to withdraw this area from 
mineral entry in the hope that the resulting claim validity exams will 
prove the claims at Rosemont to be invalid, and end the threat of 
mining there forever. Mining is not an appropriate use of this land. To 
quote one of the speakers at the Jan. 16, 2007 Pima County Board of 
Supervisors hearing on the resolution opposing mining at Rosemont 
Ranch: It is the wrong project in the wrong place at the wrong time.
    Thank you for the opportunity to testify and submit comments on 
this issue of great importance to the people and environment of 
Southern Arizona.
    Attachments
    1.  Current online and paper petition opposing mining at Rosemont 
Ranch, by Save the Scenic Santa Ritas, at http://
www.PetitionOnline.com/sssr2006/petition.html.
    2.  List of Groups who endorsed the position of Save the Scenic 
Santa Ritas and helped stop the Rosemont Ranch Land Exchange and Open 
Pit Copper Mine proposal in 1997.
    3.  Resolution passed in 1997 by the Pima County Board of 
Supervisors in opposition to the Rosemont Ranch Land Exchange, signed 
by Supervisor Raul Grijalva.
    [NOTE: Attachments to Ms. Levick's statement have been retained in 
the Committee's official files.]
                                 ______
                                 
    Mr. Grijalva. Thank you. And Ms. Lunine, you are recognized 
for five minutes.

         STATEMENT OF CYNTHIA LUNINE, PRIVATE LANDOWNER

    Ms. Lunine. It is a privilege to speak here today. I thank 
Congressman Grijalva, Congresswoman Giffords, and all those who 
support them, who will continue to expand the work done today.
    I am not an expert in economics, toxicology, science, 
politics, mining, or law. I speak today because in my lifetime, 
and via the history that my family continues to relate to me, 
greater than this lifetime, has been shared with the benefits 
and the disasters of mining in the Southeast.
    My family settled near Lordsburg, New Mexico, before it was 
a state, right around the time the mining laws were being 
written, and various members worked for or in mining. My 
grandfather hauled ore with his team and wagon. Various uncles 
owned claims and did small-scale independent work, on and off. 
And I hiked the hills all my life, always wary for unprotected 
vertical shafts. That was a normal part of my childhood 
landscape. I never fell in. But others I knew did.
    My Uncle Claude, a senior aide to Senator Clinton Anderson 
from 1949 to 1973, still tells me stories of how conservation 
legislation was made into law and how the interests of mining 
and water were folded into almost every bill.
    Open pit mining at Tyrone started up while I lived in 
Lordsburg and the pit is still expanding today with 
unbelievable tall mountains of tailings visible for miles along 
the highway.
    Friends have worked there, on and off, because layoffs 
occur every time the price of copper drops. My dad always 
worked in the bank in Lordsburg, and I worked there summers, 
during the time the smelter was being built by Brown and Root 
Corporation in Playas, New Mexico.
    So I have seen the economy of that town from the inside. My 
parents still live there and we visit frequently, talk with 
friends from Lordsburg, Animas, and Silver City.
    I moved to Tucson in 1976 and lived here almost 18 years. 
Since my husband and I bought land in 1989 in Sonoita, and 
built our home a few years later there, we have seen the 
historic effects of mining in the Santa Ritas and have both 
been active in these and other land use issues in the area.
    We hike with our son, I ride horseback with a friend in the 
Santa Ritas, Patagonia Mountains, and everywhere there is the 
evidence of mining sites that have not adequately been cleaned 
up.
    My life's experience has taught me that an open pit copper 
mine in the Santa Ritas, and an awakening of smaller-scale 
mines in the Patagonia Mountains, would be a disaster on every 
scale. It must not be allowed to occur.
    Mineral entry withdrawal seems to be the only tool 
currently available and it must be imposed. Even if mining 
reform is enacted, these mountains must not be ever invaded on 
that scale, for the following reason, among others that other 
people have stated.
    Larger cities have enough diversity and economic stability 
to absorb these 10 to 20 year cycles of good jobs; then 
nothing. Sonoita and probably Patagonia are too small to 
survive a boom/bust cycle unscathed. Businesses come in, people 
become rooted in the community with families, sometimes 
multiple generations of families, and then it's just all gone.
    These smaller towns, like Superior, Arizona, where friends 
of mine lost their pharmacy after the mine closed and crime 
levels surged, are not resilient.
    From the last major down cycle of copper, Lordsburg was 
left with boarded-up buildings and out-of-work families on 
Government subsidies. This is with the mine at P-D, and back in 
full operation. They still have a worthless housing market. 
They have lack of money to support parks and recreation. No 
substantial shopping. A struggling county budget.
    Very few of the hundreds of Border Patrol agents now 
stationed there are actually willing to live there. They 
commute, 45 minutes to an hour, from Deming or Silver City, 
which are larger communities, more resilient, more robust, with 
diverse economies.
    One of my dearest friends and her husband operate an 
international mineral exploration company, and I know them to 
be individuals of the highest integrity. We don't always see 
eye to eye on this issue, but this issue is not about the 
character of the individuals involved in it.
    The issue is about industry practices that have been 
allowed to get seriously out of balance with American values 
through neglect of the checks and balances applied to almost 
every other major industry in this nation, and prices of a 
commodity that do not reflect what should be reasonably 
required to extract it.
    From power production to building construction, from 
airlines to agricultural, all major industries, except the 
mining industry, are required, by law, to clean up for 
themselves, a basic value that we teach our kids from their 
earliest days.
    I would like to point out that reform of these industries 
has not apparently limited jobs and prosperity within those 
industries.
    Highest and best, for this industry, highest and best use 
of forest land seems to have been defined by law, and by 
precedent, to be open pit mining on public lands, above all 
other uses, such as grazing, recreation, timber harvesting, 
wildlife, or health.
    Mining reclamation activities are not required to be fully 
funded and functionally guaranteed. That balance must be 
reassessed and the laws be brought into harmony with that 
reassessment.
    As with passage of the Wilderness Act, it will take years 
of persistent effort, and bold leadership, to state to the 
world that this damaging process cannot continue unchecked.
    Thank you for your consideration of this critical issue.
    [The prepared statement of Ms. Lunine follows:]

             Statement of Cynthia Lunine, Sonoita, Arizona

    My thanks go to Congressman Grijalva and the committee and guests 
here today to hear these comments and consider diverse perspectives on 
a historically powerful process of land modification in the 
southwestern United States. I am grateful to all those who are willing 
to step forward at a national level to advocate bringing our laws in 
line with current American values and realities.
    It is because I would so much like to see true reform accomplished 
in my lifetime that the following comments are balanced between a 
desire to live within and adjacent to an uncontaminated environment 
that is beautiful and protected from devastation and a recognition of 
the dependence I also have on minerals in my lifestyle and the respect 
that I have for people of integrity that I know and who work in the 
mining industry.
    The viewpoint that I will attempt to describe is that of a small 
landowner living for 12 years at the southern base of the Santa Rita 
Mountains; the previous 18 years in Tucson, Arizona, and a childhood in 
the small town of Lordsburg, New Mexico. All of my life I've lived 
close to mines and their influence and this testimony will be a 
personal opinion of how mining has affected my family and the various 
communities that I've been a part of. Part of the perspective has been 
shaped by exposure to both economic and political careers of members of 
my family. My uncle, Claude Wood, was the top aide to Senator Clinton 
P. Anderson throughout his Senate career (1949-1973) and took over many 
of his duties as the Senator suffered from Parkinson's disease in his 
last two terms. He has inspired me with stories of the delicate and 
protracted years of negotiations that resulted in the Wilderness Act of 
1964, legislation whose final form and reality of passage owes much to 
the Senator's talent in deal-making and integrity, but also to the 
skill of a tightly-run staff and their behind-the scenes activity.
    My family roots in the southwest extend back to the late 19th 
century when the West was being settled; my ancestors were looking for 
land to make a living upon and took advantage of the Homestead Act and 
hard work to eventually stay in southern New Mexico along the Gila 
River near Red Rock for my mother's parents and south of Lordsburg for 
my father's. Both sets of grandparents had small ranches where they 
raised a few cattle from time to time, but mostly angora goats for 
their mohair. This was the early 20th century and the land was dry and 
arid, and ranching was always very marginal for small land-owners and 
people often had to work at other activities during periods of drought 
or depressed economies. My mother's father worked at least at one time 
of his life hauling ore for mines south of Lordsburg; an uncle was 
employed at various mines (the Banner, Bonney, the 85 Mine) in the 
1930s & 40s and had a few of his own small claims that he worked on and 
off for years. In my childhood, once a year another uncle, Jack Ewing, 
came to do his annual assessment work on claims near Steins, NM, and I 
would always enjoy going along to help with what I could and be in the 
outdoors and pick up samples of ore from the floor of the tunnel. Uncle 
Jack still does the assessment work today, in order to keep the claims, 
although the mine hasn't been actively producing for decades. I am not 
averse to extractive activities on public land. A few years ago I 
purchased a permit from the Forest Service to take out landscape stones 
for building walls around our home. My permit was just adjacent to the 
land now owned by Augusta. We did most of the work by hand ourselves 
and were always very careful to leave no visible trace by selecting 
only some stones, by filling in any holes and by not taking stones from 
sloped areas that could erode.
Small Mining Operations
    There are two points to be made regarding small (under 5 acres) 
mining activities.
    The first point is that small mining has been both economically 
important and perceived as a treasured ``right'' within individual 
families and small communities in the southwest and politically has 
blocked mining reform because of the large numbers of citizens who are 
involved in it or support it. The perception has been that reform of 
the 1872 Act would eliminate or seriously reduce the ability to 
participate even in limited activities such as panning for gold or 
taking small amounts of turquoise for jewelry manufacture. In 1977 Mo 
Udall proposed a bill to repeal the 1872 mining act, a move that met 
with punishing resistance in Pima County in particular and Arizona in 
general. Mining law historian Charles Miller (Miller 1991 p. 245-246) 
writes, ``The ``little man,'' the ordinary prospector/miner and small 
businessman, was the primary opponent of Udall's proposal. Congress had 
initially directed the Mining Laws of 1866, 1870, and 1872, at this 
group. Over a century later considerable evidence exists that the 
``little man'' who was supposed to benefit from the law was still doing 
so, at least psychologically.'' Representative Udall's proposal was 
dropped and serious attempts at reform of these laws was not again 
attempted until 1990, and was narrowly defeated then. Perception is 
paramount.
    The second, some might say opposing point, is that in my experience 
on the land all of my life, small mining activities are rarely cleaned 
up or filled in, and are extremely hazardous on a number of levels. My 
mother's direst warnings to me when we hiked in the hills was to look 
out for holes, because there were open shafts and tunnels that were not 
protected by wire fences or filled in. I still see these when we go out 
south of Lordsburg on my Dad's family's ranch (now owned by Ed & Lindy 
Kerr). Every once in awhile one would hear of someone falling in and 
either being injured or killed. Those people (usually young men, 
although I did it a couple of times too) who climbed down without 
injury reported skeletons of wildlife at the bottom, so they obviously 
are hazardous to wildlife, and ranchers still lose an occasional 
animal.
    This is only the most obvious hazard. Another hazard that I'm now 
more aware of is the possible level of toxicity to tailings or waste 
piles left behind after yet another mining company declared bankruptcy 
or left without cleaning up. Only lab tests would tell which heaps of 
mining materials I and my family have climbed up and down on are 
dangerous to touch or breathe dust from, but it's very difficult to 
hike off-trail for any distance in southern Arizona or New Mexico 
without encountering one. Abandoned works of small mines are reputed to 
pollute ephemeral drainages such as those running into Temporal Gulch, 
north of Patagonia, where local residents warn you not to drink or let 
your kids wade in the water. Mansfield Canyon has been referred to as a 
superfund site. Flux Canyon, south of the town, is scheduled for 
another round of expensive cleanup because of small mining activities 
that left toxic materials leaching into drainages and exposed to wind. 
I just spoke (Feb. 21) with John Millikin, Arizona Game and Fish Unit 
Manager (south of Highway 82) who said that high levels of toxic 
minerals in perennial streams or springs would prevent reintroduction 
of threatened or endangered species of fish or amphibians. He also 
reiterated common knowledge that the laws don't have too many teeth in 
requiring adequate cleanup of mining activities. (see also the 
discussion of Wildlife Impacts from Kurt Bahti, in later paragraphs)
    In addition to hazards, mines destroy property values. My mother's 
family home and adjacent 300 acres came on the market again from the 
family who bought it from them in the 1950s. It is the ranch located 
closest to the National Forest at the mouth of the box on the north 
side of the Gila River and is beautiful country. My husband and I 
wanted to purchase it as a link to our family roots, to hold for 
retirement, to encourage a local tenant to do a little farming. What we 
found was that it had been devastated by mining. A fluorspar mine 
across the Gila River had been allowed to dump all the mill crushings/
tailings on the land in a huge multi-acre surface, I believe in the 
1970s or 80s. In addition, Phelps Dodge bought all the water rights to 
the property except for a residential permit, making agriculture 
unfeasible, even though the property includes productive agricultural 
wells. The property is still on the market, but will be a difficult 
sell because it has been heavily degraded. Phelps Dodge has been known 
in that area (Red Rock) to have bought numerous water rights from 
retiring or financially needy ranchers and farmers along the Gila 
River. This transference of water from agriculture to mining is allowed 
by law, but can make huge changes in culture as well.
Small Communities and Boom-Bust Mining Economy
    Urban centers, such as Tucson, are large enough to absorb the surge 
of prosperity as mines and mineral prices rise, then deflate 
precipitously as the mine works out and/or copper prices plummet. Small 
communities--Superior, Arizona, Lordsburg, New Mexico (where I grew 
up), and Sonoita, adjacent to the proposed Rosemont Mine--are not so 
resilient to the large-mine economic reality.
    My father, Fred Ewing, worked in the bank in Lordsburg for all of 
my life. He had been driven from ranching by the drought in the 1950s 
and took a job in town and worked his way up to retire in 1989 after a 
long tenure as president (First National Bank, now Western Bank). As 
his daughter, and working summers at the bank during college years in 
the 1970s, I had an inside picture of the local economy. The Tyrone 
mine employed many local people from Lordsburg during that time, the 
smelter at Playas, NM took several years to be built by the Brown & 
Root Corporation out of Houston, and those times allowed people to buy 
homes, cars, pickups, and make good money. The bank opened a branch at 
Playas, built a building, employed a couple of people full time. Tyrone 
built a little town, complete with supermarket and gas station. Another 
cluster of homes was constructed at Playas. But when copper prices 
plunged, when the smelter was finished, when it shut down completely, 
those people were out of work and the businesses were just gone. The 
supermarket at Tyrone never re-opened, even though Phelps Dodge's mine 
is back in operation. Those low-quality homes are more of an eye-sore 
and maintenance nightmare than cherished neighborhoods (Homeland 
Security recently bought the town of Playas to use as some sort of 
training center). Silver City's economy seems to be fairly robust 
because of its climate and beauty and proximity to the Gila National 
Forest and Wilderness recreation areas. Lordsburg, at this time, is 
crumbling. It's my opinion that a very large factor was the inability 
to recover after the last wave of mining left. Even now, a couple of 
years into the new mining ``boom'', because small businesses hadn't 
survived the previous bust, there's inadequate shopping, very little 
recreation for kids, no parks, deteriorating housing. My aunt's brick 
home was placed on the market, years ago after she passed away, at a 
bargain $36,000 and just sold last year at a paltry $12,000. The influx 
of Border Patrol workers hasn't made much difference; they all live in 
larger communities such as Silver City or Deming that have always had 
more diverse economies & commute an hour to Lordsburg for work. In 
Superior, Arizona, friends of mine bought a pharmacy a couple of years 
before the mine closed (early 1980s?). They told stories about the 
surge in shoplifting that occurred in their business after the economy 
collapsed, and they lost their investment in the business.
    The critical aspect of the modern large mining economy to small 
communities is that the cycle is so long--usually ten to twenty years--
that people become very rooted to their jobs and their community. No 
one is going to take a menial low-paying service job if they can work 
for a well-heeled mining company with excellent pay and benefits. The 
mining company doesn't tell them that most of these jobs will be gone 
sooner or later, at which time their family will be unemployed and most 
likely, untrained to do other skilled work. They are not required to 
retrain and relocate workers or provide bonds that provide for this 
activity. If workers do leave to find other jobs, what about the 
community they leave behind? They don't say that the local economy will 
possibly collapse and businesses will leave empty, boarded-up buildings 
and loans that go into default. They don't point to higher crime 
statistics and higher levels of dependence upon public assistance. And 
small communities often do not have the sophisticated and deft 
political clout that can demand that the mining company pay for 
required infrastructure upgrades in times of prosperity. Once again, 
the laws have no teeth.
    Our son is now 11 years old, in fifth grade at Elgin Elementary 
School. If there is an opening of a Rosemont open pit mine with a 20-
year ``boom'' of production, he will, most likely, be just starting a 
family when the ``bust'' occurs. If he has chosen to stay in the 
Sonoita area, I would say with some certainty that it will be 
enormously difficult for him to maintain whatever job he had here and 
he may have to move away from his childhood home, along with many of 
his friends.
    The little village of Sonoita is far too small to survive one of 
these cycles unscathed. It mustn't be allowed to occur.
Mining Profits Leaving the United States
    I have not read the Mining Laws and may not understand them if I 
did. I know, however, that Augusta is a Canadian company and that much 
of the money produced from this mine would leave the county, leave the 
state, and probably leave the country (depending on who the owners and 
investors are). Evidently, Augusta has some interests in the Patagonia 
Mountains as well, and residents there (personal conversation with Don 
Wenig) have publicly expressed dismay and frustration at the lack of 
information and at the fact that any profit would be gone forever. Yes, 
some jobs are created and some cash would end up in Arizona, but I've 
been told that it is one industry that gets a free ride by not having 
to pay royalties on the minerals extracted.
    It's an archaic and economically unsound system that was developed 
for frontier times, not for the 21st Century. These areas need to be 
withdrawn from mineral exploitation.
Health Concerns
    As we waited for a Pima County Supervisor's meeting to convene late 
last year, people sitting close to me, from Green Valley, talked about 
how their houses and yards would get covered with dust from the 
tailings piles of the mines along I-19. They had come to protest the 
Rosemont Mine initiative, as had I, and knew directly what it was to 
live with the aftermath. What is the health hazard to that dust? 
Evidently, nobody knows with certainty, even now.
    A couple of days ago (Feb. 20) I called my friend and neighbor, 
Mary Kay O'Rourke, a researcher at the U of A medical school who does 
this kind of work (O'Rourke 2007). She authorized me to quote her in 
this testimony and described the difficulty of unraveling causes and 
effects of contaminants on human health of people living in mining 
communities. She sent me a few copies of journal articles, one of which 
concluded that ``High serum copper, low serum magnesium, and 
concomitance of low serum zinc with high serum copper or low serum 
magnesium contribute to an increased mortality risk in middle-aged 
men.'' (Epidemiology 2006;17: 308-314)
    Her e-mail response to my questions about whether epidemiology 
studies had been done with people living near mines comes down to the 
difficulty in separating out causes from mining versus problems that 
would occur even if a mine weren't further exposing existing minerals 
to the air & water. Higher than normal levels of Arsenic, for example, 
are found in test subjects in some mining towns, but not in all 
(O'Rourke, et. al., 1999). People move in and out of communities and 
may have been exposed to toxins from other sources. In the case of 
arsenic, the researchers had to correct for those people who had high 
levels because they ate a lot of fish.
    So, it's not so simple. But I don't want my child growing up 
breathing that dust, or drinking water downstream from an open-pit 
mine.
    It is, however, pretty easy to predict what can happen when traffic 
increases along Highway 83 between the Rosemont site and I-10. Someone 
counted the number of school buses that traverse that section of 
highway twice a day--I don't remember the number, but I do know that 
many kids from Sonoita and north of there go to high school and middle 
school in Vail and that's who is in the buses. And I know from training 
and experience as an Emergency Medical Technician that higher traffic 
translates into more accidents. Are our kids going to be on the road 
with mining trucks? With workers speeding because they're late to punch 
in? Contractors delivering supplies who are behind schedule?
    What about people in Patagonia as mining reawaken old claims in the 
Patagonia Mountains because the price of copper is now so high? How 
will mining impact their water quality? Who will see to it that 
adequate bonding is secured to do truly effective cleanup?
    What does ``reclamation'' really mean in practical terms? I haven't 
seen anything on mine tailings/overburden sites that is convincingly 
sustainable, no matter how mining companies make progress. (attached 
photos of Tyrone reclamation slopes) The fine material of the tailings 
will inevitably erode in many places after the mining company has left. 
Because they have been through a crusher mill, the tailings will always 
be finer particulates than adjacent consolidated soils. What water and 
air contaminants will leach out of those finer-than-natural 
particulates? In PD's own words on a sign in front of their newly 
graded tailings slopes it says, ``There will always be evidence on 
these private lands that this was a mining district.''
Mining from Space
    Our actions as a society leave a legacy for the future. Do we want 
Arizona's legacy to be a continuation of landscape devastation? A 
number of years ago, an astronaut took pictures of Tucson from the 
space shuttle (Jones, STS059) and sent one to my husband, Jonathan. He 
did his doctoral work at the University of Arizona Lunar and Planetary 
Laboratory and lived in Tucson for a number of years, then went on to 
NASA and flew on several space shuttle missions. It's ironic that the 
most visible evidence of Tucson is the mine complex. When I spoke with 
Tom (now retired from NASA) on the 20th of February, he told me that 
the Great Wall of China, one of the world's largest man-made 
structures, is not visible to the naked eye from space as many people 
believe, but these mine sites are. What are we leaving for future 
generations to see of our work on the planet?
Visual Resources
    The site for the Rosemont mine has the misfortune to be centrally 
located in one of the most scenic vistas along the Patagonia-Sonoita 
Scenic Road, the state's second officially-designated scenic drives 
(designated in 1985). Criteria from Arizona's process and a tour of 
this road were part of the development of Federal legislation know as 
National Scenic Byways in the Intermodal Surface Transportation 
Efficiency Act of 1991. In 2003, the Arizona Department of 
Transportation (ADOT) released a Corridor Management Plan (Wheat & 
Scharf 2003) that represented hundreds of hours of community-
volunteered time and many thousands of dollars spent by ADOT to plan 
for protection of the values inherent to the corridor. Out of 23 values 
assessed, ``scenic overlooks along the corridor'' ranked in the top 3, 
along with the Patagoniz-Sonoita Creek Preserve and the Las Cienegas 
NCA (the corridor includes the start of State Highway 83 from I-10 in 
the north to Sonoita, then turns right and follows Highway 82 through 
Patagonia to Nogales).
    That overlook is my favorite view, with its series of folded, oak-
studded ridges; the dramatic skyline of Mt. Wrightson shoots up on the 
left and jagged ridges and the Gunsight slot spread out on the right. 
Because the highway is very close to the top of the pass here, it would 
expose even more of the mine's devastation to view than if it were 
lower. People stop in the pullout and take pictures.
    I am one of the citizens who attended many of the management plan 
meetings, and later became a member of ADOT's Development & 
Construction Review Committee that has met regularly, for the past 2 
years, with the Tucson District Engineer and his staff and a 
coordinator in Tucson to attempt to monitor and advise them of ongoing 
local concerns. A lot of time and energy and state money has been spent 
to date to work on the values contained in the Corridor Management 
Plan. Initiation of the mine would invalidate much of that effort by 
industrializing the entire northern end of the drive. Tourism is the 
primary industry in Sonoita and Patagonia and many people come just to 
do that drive. Tourism is sustainable over generations, mining is not.
Wildlife in the Santa Ritas
    Kurt Bahti is Field Supervisor for Arizona Game and Fish for the 
sector that stretches from I-10 to Mexico in the south, and from the 
Tohono O'Odham Reservation to Sulfur Springs Valley near Wilcox. It 
includes the Santa Rita Mountains. Kurt is also a long time resident & 
landowner in the foothills of the mountains, east of Sonoita, has 
worked for 25 years here, and was previously Wildlife Manager in the 
Santa Rita Mountains. He has the local reputation of knowing these 
mountains better than just about anyone and is trusted by all the 
people I know to give honest, direct, detailed, and highly useful 
advice about issues pertaining to wildlife and natural resources. I 
spoke to him Feb. 21 about the issue of mining in the Santa Ritas and 
he authorized me to quote him in this testimony.
    When asked about the effects of the proposed Rosemont Mine on 
wildlife, he answered unequivocally that it would be disastrous to 
wildlife in the northern portion of the range. He said that although he 
doesn't know the exact size of the footprint of pit, overburden, 
tailings and operational facilities, that a boundary extending from one 
to two miles around it would potentially affect wildlife populations 
and behavior, depending on the species and their sensitivity to various 
human activities and the mine would disrupt wildlife corridors and 
fragment habitat. He mentioned existing populations of whitetail deer, 
javelina, mountain lions, and bear that would be affected, along with 
many smaller mammals & amphibians. He noted that a couple of natural 
springs in the area that supply water to wildlife would likely be 
compromised, and that it would make reintroduction of the Tarahumara 
frog to the area not possible because of their sensitivity to changes 
in acidity in their environment. He is concerned that their current 
reintroduction of wild turkeys into the Josephine drainage (April of 
last year and again last week) would not spread the population as they 
would expect from the success they've experienced in the Huachucas, if 
the mine is developed.
    I asked Kurt about any problems from historical mining in the 
mountains and he told me that he had had water samples from an area 
that used to be mined in Mansfield Canyon tested for Ph (acidity) and 
the results showed a startling 2.1. As an example of what that level, 
or similar levels of acidity does, he told me he had worked bare-handed 
for a few minutes in the mud in Happy Jack canyon (site of another 
extensive mining tunnel complex) to release some dammed-up water and 
got up to realize that he no longer had fingerprints on his fingers. 
They had been burned off by the acid. Other anecdotes are common 
locally--people talk about sitting down on a rock covered with the 
ochre precipitate and getting up without seats in their jeans. Kurt 
noted that although wildlife naturally stay away from water that smells 
bad or is heavily acidic, he suspects they would drink water that may 
contain unsafe levels of heavy metals or other contaminants that cannot 
be smelled or tasted. Game and Fish has not performed these tests on 
the waters in drainages in the Santa Ritas. Once again, amphibians or 
native fish cannot live in water that is contaminated by acidic mine 
leachings & effects of metals are unknown.
Summary
    Copper and other valuable minerals are useful and prominent in 
everyone's life. It is necessary, however, that their true cost be 
reflected in the manner in which they are extracted and that extraction 
does not destroy valuable landscapes, wildlife habitat, recreational 
resources, and local cultures. Our laws and costs of metal must reflect 
our most deeply held values, not the ephemeral values of profit and 
instant gratification.
    Values that Americans commonly hold--those that history has 
validated--dictate that issues of such major impact not be left to the 
primary influence of the market and profits and short-term gains. The 
copper will be there for future generations who may have greater wisdom 
and technology to extract it without destroying everything else, should 
there be a national crisis. But just because copper sells for $4 a 
pound right now doesn't make it the right time to dig it out; this land 
is too precious to too many people to be utterly destroyed.
    Please initiate mineral withdrawal for land in the Santa Rita and 
Patagonia Mountains.
    Once again, I extend gratitude to those of you who are willing to 
undertake this activity with the wisdom of reading history, the years 
of persistence that will be required, and the love of this land and its 
people.
Postscript:
    I would recommend a very concise and well-written account of 
Anderson's career, written by Senate historian Dick Baker, for 
historical details of the issues of western conservation legislation, 
including interests of mining, which played large in the landmark 
Wilderness bill. The book is Conservation Politics The Senate Career of 
Clinton P. Anderson by Richard Allan Baker, UNM press, Albuquerque 
1985. Another good, but short account of legislative history is 
Miller's Stake Your Claim! The Tale of America's Enduring Mining Laws 
(cited below).
REFERENCES:
personal conversation 2007. Kurt Bahti
Field Supervisor
Arizona Game & Fish
Tucson, Arizona
(520) 628-5376

personal conversation 2007. Thomas D. Jones, PhD
Former NASA Astronaut; Consultant
P.O. Box 693
Oakton, VA 22124
(703) 242-9256 (office)
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="deadb5a7a9bfb2b5b7b0b99ebdb1a6f0b0bbaa">[email&#160;protected]</a>

Nathalie Leone, et. al. ``Zinc, Copper, and Magnesium and Risks for 
All-Cause, Cancer, and Cardiovascular Mortality''. Epidemiology 
2006;17: 308-314.

Charles Wallace Miller, PhD. Stake Your Claim! The Tale of America's 
Enduring Mining Laws. Westernlore Press: Tucson, Arizona. 1991.

personal conversation 2007. John Millikin
Unit Manager, 35A & B
Arizona Game & Fish
Tucson, Arizona
(520) 628-5376

personal e-mail 2007. Mary Kay O'Rourke, Ph.D., Associate Professor
Community, Environment and Policy
The University of Arizona
Tucson, Arizona
(520) 626-6835
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="86cbcdc9d4c6e3ebe7efeaa8e7f4effce9e8e7a8e3e2f3">[email&#160;protected]</a>

Wheat Scharf Associates. Corridor Management Plan for the Patagonia-
Sonoita Scenic Road. ADOT Intermodal Transportation Division. 2003.

    [NOTE: Photographs attached to Ms. Lunine's statement have been 
retained in the Committee's official files.]
                                 ______
                                 
    Mr. Grijalva. Thank you. As you were standing, if I could, 
let me just ask you one general question, because in your 
testimony, you talked about the ``boom and bust'' cycle. You 
also talked about your own experience, family, and other mining 
operations associated not only with you, individually, but with 
areas.
    And you heard the representative of the mining operations 
being proposed here, to talk about the fact that this is a 
different proposition, and what do you think about those claims 
that the proposed Rosemont mine will be different from the 
other mines that you spoke to directly or alluded in the ``boom 
and bust'' example, of the past?
    What would make this different, and do you have any 
confidence in that difference?
    Ms. Lunine. Well, I heard Mr. Sturgess cite the same number 
that I did, which is 20 years. You know, in 20 years, my son 
will be raising his family, and if he wants to stay in the 
area, that is going to be the bust. I don't know if it's going 
to be exactly 20 years, but prices of copper go up and down, 
and between that time, there could be a lot of mini busts, 
where the price of copper goes so low, that they shut down the 
mine for periods of time.
    That is what happened with the Tyrone mine, is people would 
work for a few years, the price of copper would drop, they 
would reduce operations, people would be laid off.
    So it is just the effect of one major industry on small 
communities, because that industry dominates that community, 
and so when it declines, then that whole community declines. So 
I don't see anything different in the economics of what he is 
proposing.
    Mr. Grijalva. Thank you. Ms. Levick, you mentioned, you 
talked about the recent report that looked at how well the NEPA 
process predicts water quality impacts for proposed mines. 
There seems to be a big difference, a disconnect between what 
is predicted and what ends up occurring, and I wonder if you 
could elaborate any more than the testimony we have on that 
process, and on that disconnect that I spoke to.
    Ms. Levick. I know that, as Mr. Sturgess mentioned, they do 
their best to design the mine facilities, so there are no leaks 
or spills or water contamination issues. But there are always--
it seems like there are always problems that occur. I can't 
talk about every mine that has ever been constructed in the 
United States or in the world.
    But most of the time there are some leaks and spills. There 
might be a rainstorm that a tailings damn is breached or the 
liners under the leach pads are torn and leach the sulphates 
and the other toxic metals into the groundwater.
    So even though they design for no contamination and for 
zero discharge facility, there are always accident and spills. 
So in the NEPA process, when they do the analysis based on what 
is proposed in the mining plan, it appears that they are taking 
all precautions, but frequently, there are unforeseen 
circumstances and so as the Kuipers/Maest report, which I 
haven't read everything, just a summary, it is a huge document, 
they have shown that in whatever the statistics were, 70 
percent of the times where they predicted no water quality 
impacts, there actually were.
    Mr. Grijalva. Okay. One more and then I will yield to my 
colleague. If a new mine is developed, do you foresee much 
opportunity for residential and commercial growth in the area 
that you are speaking to, for the future, if a new mine is 
developed?
    A potential for residential and commercial growth as a 
consequence?
    Ms. Levick. Not really. I think that frequently, a lot of 
the people that come to work at a new mine are from out of 
town. They are the experts the community might not be able to 
provide. Although Mr. Sturgess has stated there would now be 
about 400 new jobs provided by this mine, there is no guarantee 
that they will all come from the community. Is that your 
question?
    Mr. Grijalva. That, and could you respond to that same 
question about a new mining operation and the potential, and 
people proposing this mining operation and others always talk 
about the boom that will come in terms of residential and 
commercial growth as a consequence of this mining operation, 
and it is alluded to in this one as well, and I would just like 
to get your perspective on that claim.
    Ms. Lunine. It does provide commercial growth, initially. 
You know, it provides good jobs to a lot of people in 
communities, and that has always been cited as the great 
benefit of mining.
    And, you know, people do benefit for a period of time. It 
is just a short-term prospect, and then it is the aftermath of 
that short-term prosperity. You know, people have mortgages, 
they have property that gets devalued, after it is over. They 
have families that are embedded in the community. They don't 
leave.
    Some of those families that had really good mining jobs are 
now on public assistance. It is such a cultural mandate to stay 
where you put your roots down. When small communities are built 
up by that way, by any single industry, it doesn't have to be 
mining, if that industry then leaves, then those people and 
that community are bereft.
    If you look at P-D's town that they built in Tyrone, you 
know, they had a grocery store, they had a gas station, they 
had a lot of facilities there. The houses were inexpensive 
houses, but, you know, it is basically not a desirable 
neighborhood to live in now.
    So you have to look at the long-term effects of these 
things, and that is what I am speaking to, is the long-term 
effects.
    Mr. Grijalva. Thank you. With that, let me yield to my 
colleague, Congresswoman Giffords.
    Ms. Giffords. A quick question for, and same question for 
Ms.--is it Lunine?
    Ms. Lunine. Lunine.
    Ms. Giffords.--Lunine, and also Ms. Levick. Mr. Sturgess 
talked about the public process. He said five or six meetings. 
Can you talk about how those meetings were conducted, whether 
or not as a landowner and as a community group, you are asked 
to participate, in which way? Do you feel satisfied with the 
process, and whether you agree or not agree? But I am just 
curious about that public process.
    Ms. Lunine. I have seen Mr. Sturgess in this room but I 
have no personal knowledge of any public meetings held in my 
area. That doesn't mean that they weren't. It is just that I 
don't remember being informed of public meetings by this mining 
company in our community.
    Ms. Giffords. Okay. Thank you.
    Ms. Levick?
    Ms. Levick. Does this work?
    Mr. Grijalva. Yes.
    Ms. Levick. Yes. I have the same response basically. I have 
seen Mr. Sturgess present at various City Council or, you know, 
supervisors hearings, or PAG meetings, but I don't recall the 
company ever holding a public meeting where we were invited, 
and I wanted to ask him, if he had these meetings, why weren't 
we invited?
    Ms. Giffords. Thank you.
    Mr. Grijalva. Anything else?
    Ms. Giffords. No.
    Mr. Grijalva. With that, thank you very much. We will thank 
the witnesses. And under Committee Rule 4(h), additional 
material for the record should be submitted by members, or 
witnesses, within ten days after the hearing. I would 
appreciate the witnesses' cooperation. If there are questions 
that we didn't get to, and we will submit those in writing, and 
would appreciate the cooperation of responding to those as well 
for the record.
    We are going to take a little break before proceeding to 
the public comment period. The Subcommittee is in recess, a 10-
minute break, and we will resume the hearing after 10 minutes. 
Thank you.
    [Recess from 11:45 a.m. to 11:55 a.m.]
    Mr. Grijalva. I will reconvene this meeting of the 
Subcommittee, and thank all of you for being with us today. The 
panels and the question-and-answer period went longer than we 
anticipated, but that was good, that was good information. 
Other commitments are going to come into play in a little 
while, but rest assured that all the information that you give 
us will be part of the record, and any written information that 
anybody wants to provide to us within ten days should be 
submitted to the Natural Resources Committee.
    Protocol and courtesy. First, I would begin with the public 
comments of elected officials, beginning with the Chair of the 
Pima County Board of Supervisors, Mr. Elias, for three minutes, 
please, and hopefully everyone that we call forward can limit 
their comments to three minutes. Thank you.
    Mr. Elias.

             ORAL STATEMENTS FROM AUDIENCE MEMBERS

    Mr. Elias. Thank you, and good morning, Representative 
Grijalva, and Representative Giffords. It is a pleasure to see 
you here today. I understand that we tried to find the plaque 
with Chairman Grijalva's name on it, in order to reuse it 
again, but it was made of recyclable material, so----
    [Laughter.]
    Mr. Elias. I didn't do it but somebody did. Where is Chuck? 
No. I am sorry. I digress. I will try and make this quick 
because I realize that as many people as we can, we want to 
have testify today.
    But I do want to thank you, and comment to you that it is 
an honor to have you here, holding this hearing here today, 
with all of these folks who truly believe in Tucson and Pima 
County and what a wonderful place it is.
    I am a fifth generation Tucsonan, and my family has been 
here for longer than that, actually. My first relative being in 
the first detachment of soldiers sent to the Presidio. So 
within that time, and all the time we spent out on the Sopate 
ranch, we have watched the economy grow, here, in Pima County, 
and change, over time.
    We heard mention of the ``boom and bust'' nature of mining 
and mineral exploration, and it is true, and my family and 
myself have witnessed that, over time.
    I think it is important that we make a special note of 
that, because the discussion typically, about mining and 
mineral exploration, revolves around jobs versus environmental 
concerns.
    And those of us who have lived here, in Arizona, for a long 
period of time, recognize that this is really a hollow 
argument, in many ways.
    Economic changes versus tourism and the changes that have 
come in related to that, and the growth in that industry, are 
important to us.
    But also, I would comment that, over time, the unions and 
organized labor, have worked hard to protect miners' interests, 
and we have seen ASARCO renege on the retirement promises to 
their workers, over time, and now their health, which they gave 
to their employers, is truly at risk, because now, they must 
pay out of their own pockets, when they were promised something 
different.
    This is another example of that ``boom and bust'' problem 
that happens in relation to mines.
    This is something that we must come to some kind of 
agreement on, so that we can recognize that we have to protect 
the important biological and scenic natures of Pima County, but 
also show an interest to not only the environment but also the 
people who live here, because they are all important to us.
    Issues. The Sonoran Desert conservation plan and 
comprehensive land use plan have been designed to protect our 
remaining valuable assets and eco systems, and towards that 
end, the voters, in 2004, approved over $174 million to 
purchase open space.
    $30 million dollars of that has been spent in the area of 
the Rosemont mine. Las Cienegas National Conservation Area, 
Cienega Creek National Preserve, and the proposed Davidson 
Canyon Natural Preserve. Several of those areas are under 
attack now, not just from the Rosemont mine but also from a 
proposed cement mine in the Davidson Canyon area. The Board of 
Supervisors has, in a bipartisan manner, and I am very proud to 
have some of my colleagues here in the audience today, look 
forward to hearing their comments, unanimously passed a 
resolution in opposition to all those mining efforts. This is 
something that is very important to us.
    $30 million of local money with more than 60 percent of the 
voters approving that money being spent in that manner, being 
changed by a decision where we have very little to say about 
it. That concerns us, greatly.
    Legacy. Legacy issues are important to us. The Mission Mine 
that ASARCO currently owns radically altered more than 11,300 
acres of land in that area. 11,300 acres. And the price tag for 
cleanup and reclamation in that area is more than $415 million.
    But, again, the company's financial future remains in 
doubt. We do not know, the Tohono O'odham Nation do not know 
where that $415 million of reclamation are going to come from. 
Promises are nice but reality is another thing that all of us 
must face in a changing economic world.
    Public health, and protecting the public health is 
important to us too, and I think that when you put biological 
concerns, conservation concerns, that I might add, have really 
become a bipartisan concern of all this region, due, in large 
part, to Chairman Grijalva's leadership in his time on the 
Board of Supervisors, has grown to a tremendous size.
    I will couple that with the issues related to public 
health. Thus Sierrita Mine, owned by Phelps Dodge, in 2004, 
released 1,053 pounds of mercury into our environment. That 
same year, 1.2 million pounds of lead were released into our 
environment. I assure you, that is not good for anyone, and our 
friends from Green Valley that are here, I am sure will be the 
first ones to testify to the damage related to their own health 
and the future of their homes and their community.
    We remain very concerned about that. We stand in opposition 
to this mine at Rosemont. We ask you to take the lands of the 
Coronado Forest Service out of mineral exploration for the 
future, and I would ask that you include the public lands owned 
by local municipalities in that request as well.
    We look forward to your help in maintaining the sacred 
place we live and assisting the honest, hard-working people who 
live here. Because we have such a short amount of time 
available to us, I will cut my comments off now, but before I 
leave, I would ask everyone who is in the room, in opposition 
to the Rosemont mine, to please stand and let their voices be 
heard. Thank you.
    Mr. Grijalva. With that, let me--thank you--let me call--
the next person I'm going to call is Mr. Ray Carroll, 
supervisor of the district, who will bear the consequences of a 
decision on Rosemont in the future and now.
    Mr. Carroll.
    Mr. Carroll. Thank you, Chairman. Thank you and good 
morning. I would like to thank the esteemed Chairman, 
Congressman Raul Grijalva, for presenting this excellent 
opportunity today, to discuss some of the vitally important 
issues for our community and our country.
    I want to welcome you back to your chambers, where I began 
as a member, almost ten years ago, and it is an honor to have 
you in Congress, and it is an honor also to welcome 
Congresswoman Giffords here to our hearing room, as well as all 
the Washington, D.C. staff. I hope your stay is a pleasant one 
here and I hope that you enjoy southern Arizona.
    My name is Ray Carroll. Do you need my address for the 
record, like----
    Mr. Grijalva. Please.
    Mr. Carroll. Okay. I'm watching that, and the yellow light, 
I am out of here. I am the county supervisor who represents 
District 4, and that includes some of the most pristine and 
environmentally valuable areas in Pima County, including Mount 
Lemon, Cienega Creek, Colossal Cave, Madera Canyon, and other, 
many unique natural environments.
    District 4 also includes areas that are highly threatened 
by proposed mineral extraction. Included in those are Rosemont 
Ranch in the Santa Rita Mountains and Davidson Canyon. District 
4 includes a retirement community mentioned by our Chairman, 
Richard Elias, which has been burdened with viscous dust, some 
molasses type material coming off the tailings of the mines in 
the area. It stuck to most everything in each house in South 
Green Valley, including the family pets. It was so hard to get 
off, that the mining entity itself volunteered to clean up 
almost 600 homes, because it took a lot of elbow grease. Even 
it got on some of the family pets, which are not easy to clean 
in the first place.
    Our constituents rightfully complained about the effects of 
the mine on their quality of life, and I have listened, and as 
a representative of those people, I am here to tell you, I 
support their claim. This is not a good idea, to create more 
mining in District 4, and especially in the recreational basin, 
and the view shed of what is a growing population, an area 
slated for new growth in Pima County.
    One of the greatest political leaders for conservation in 
our nation's history was a fellow Republican, President 
Theodore Roosevelt. T.R. was a man who had a lifelong, intense 
personal interest in great outdoors, but he also had a deep 
understanding that it is the responsibility of political 
decision makers to take care of our natural resources, because 
doing so protects our nation's strength and prosperity for 
future generations. He called conservation ``a great moral 
issue,'' and if it were so then, it is even greater now, 
because the threat to our land and water is much greater today.
    In Pima County, we have stepped up to meet the challenges. 
Each resolution passed by the Board of Supervisors in 
opposition to mining has been unanimous. There are numerous 
issues that need to be addressed. The pollution of air and 
water, the effects of overpumping our water table, 
proliferation of invasive species such as buffelgrass, which 
due to the disturbed surfaces of mining operations, get a 
strong foothold on their lands.
    The public health risks. The ultimate cost to the taxpayer 
due to the grossly inadequate mitigation and reclamation 
efforts of the mines after they leave. There is about 35,000 
acres used for mines already in Pima County. Most of it has not 
been reclaimed.
    In the West alone, it is estimated that the cleanup of 
mineral extraction could cost 72 billion, with a b, dollars. 
The history of mining in Arizona is replete with ``horror 
stories,'' but state law prohibits Pima County from exerting 
authority over mine reclamation.
    That is why we are here today, to ask for federal 
assistance from our congressional delegation, to initiate the 
permanent withdrawal of mining on all federal lands within the 
Santa Rita Mountain range and the remaining federal lands 
within the Coronado National Forest.
    It is the American people who are the ultimate landlords of 
the over 270 million acres of public lands open to mining 
claims, and as representatives of those people, we ask for your 
strength and leadership to do the right thing on their behalf.
    Thank you, Chairman.
    Mr. Grijalva. Let me at this point welcome our next 
speaker, a former colleague, Supervisor Bronson.
    Ms. Bronson. Thank you, Mr. Chairman, and Congressman 
Grijalva, Congresswoman Giffords, welcome home. It is a 
pleasure to see you today and we truly appreciate you holding 
this hearing.
    I am going to be brief. I want to talk about three things. 
I want to talk about validity, I want to talk about 
transparency and I want to talk about accountability.
    You heard that the Forest Service has a policy that they 
don't examine claims, validity claims until after the fact. If 
this is indeed a policy, I would then urge Congress, before I 
would begin this costly, expensive process, costly in the end 
to taxpayers, that Congress require that the Forest Service 
indeed investigate the validity of this claim.
    Number two. Transparency. Of the mining claims to come 
forward through the U.S. Forest Service, to date, to my 
knowledge, once the NEPA process has started--and again, 
remember, in previous testimony it was said that the NEPA 
process would provide the transparency, the ability of the 
public to influence outcome. Not one mine has been denied. They 
have all moved forward.
    So I would question that transparency does indeed exist in 
the process and I would ask that Congress review, and in fact 
demand better transparency than currently exists.
    In regard to accountability, recent studies of 70 
environmental impact statements for modern era hard rock mines, 
have found that water quality impacts for mineral extraction 
are consistently grossly underestimated, mitigation measures 
consistently grossly inadequate and undercapitalized, where 
taxpayers are left to bear unjust financial burdens.
    Again I would ask, as this process moves forward, that we 
have in fact, through the environmental impact statement, the 
NEPA process, that we have guaranteed measures that will not 
underestimate the impact to water quality, undercapitalize the 
reclamation process.
    And then I would like, on behalf of the Santa Cruz Board of 
Supervisors, to alert you to the fact that yesterday they 
passed resolution 2003-03, requesting the permanent withdrawal 
of mining exploration and extraction from all federal lands 
within the U.S. Coronado National Forest in eastern Santa Cruz 
County. They request that those lands be withdrawn.
    The vote was unanimous and the resolution will be forwarded 
to you.
    Again, I thank you for this opportunity and welcome you 
home, once again.
    Mr. Grijalva. Thank you very much. Let me at this point ask 
Councilwoman Ullich to please come forward and on behalf of the 
City Council, and make a statement.
    Ms. Ullich. Thank you, Chairman Grijalva, Congresswoman 
Giffords, and all of you for being present on this important 
matter. I am simply here to transmit a residential, a memorial 
that I introduced for consideration by the Tucson mayor and 
City Council on February 6th. That measure was unanimously 
adopted and clearly articulates the reason why we, as a city, 
oppose the Rosemont mine request.
    We are also wholly in support of the leadership of our 
county Board of Supervisors and stand ready to provide further 
information, as you would require it of us, or ask it of us. 
Briefly, our local experience, and numerous local studies, 
indicate that the proposed mine would clearly damage our area 
ecosystem and jeopardize water quality in our region.
    It would be hard to overstate the long-term economic and 
environmental repercussions of this kind of project, not only 
to Tucson but the entire regional economy and health and well-
being.
    It is clear to us, as well, that it would return little, if 
any, net economic benefit. We cannot solely look at and try to 
measure the benefits of this kind of venture, in terms of the 
billions of dollars of mineral profits that might accrue to a 
particular corporation, or even the interests of the Nation, 
that might be served by a fraction of the minerals that are 
being offered through this venture. We must look at the overall 
net effect, and I can tell you, as we all know, who live here, 
that this ecosystem is unique in the world. This is the only 
place where certain flora and fauna are found, and we are a 
worldwide draw, and that is integral to the economic health and 
well-being of our community.
    If we jeopardize that, if we are not good stewards, we are, 
in fact, put at risk, much more than the minerals at stake 
here, I would argue.
    Speaking as an individual member of the Council, we 
therefore would--I would urge you to work with the county Board 
of Supervisors, and others, to ensure that this plan not go 
forward, and that we take a more holistic approach to the 
factors that are at risk here. Thank you so much for your time 
and consideration.
    Mr. Grijalva. Thank you. Let me invite Mr. Doug LaFollette, 
Secretary of State, Wisconsin, for your comments, sir.
    Mr. LaFollette. Thank you very much for allowing me to 
speak this morning on this very important issue. M y name is 
Doug LaFollette. I have been Wisconsin's elected Secretary of 
State for many years. I also serve as the Chair of the 
Wisconsin Land Commission and I hold a PhD in organic 
chemistry.
    I am here in the Tucson area for a few days of hiking. I 
love Wisconsin, but a break from walking to work at minus 12 
degrees is going to be nice. I, like many others from the 
Midwest, have visited the Tucson area many times. We bring our 
tourist dollars with us and we are glad to spend them here. I 
am very pleased to see the local involvement in this process. 
As a public official myself, I think it is critical, and what I 
have learned here this morning, and I am learning from the 
county board representatives, City Council, and others, is very 
enlightening, and really, very encouraging. We, in Wisconsin, 
have experienced a number of episodes of mining activity, and 
many of the complaints and concerns I have heard are very valid 
in terms of transparency, openness, accountability, etcetera.
    I have hiked the Santa Ritas. I have driven the scenic 83 
that will be destroyed by this proposed mine. Wisconsin also 
depends on tourism, it is one of our major industries, and 
without major reform of the 1872 Mining Law, our beautiful 
north woods, lakes and streams can be threatened, very much the 
way the Santa Rita Mountains are threatened by the Rosemont 
mine.
    I urge you to protect this area in your community now. In 
all respect to Members of Congress, I doubt if the mining law 
reform is going to pass any time soon. Let's hope it passes 
your House, but the Senate is more problematic. We have been at 
this for many years. Senator Bumpers, who is a friend of mine, 
fought this battle, over and over again.
    So as a short term, you need to protect your community by 
withdrawing some of this land. In the long term, you know, the 
reform of the law is of course critical. Both mining reform 
that is fiscal and environmental is very long overdue.
    When I mention the 1872 Mining Law to many of my 
constituents, as I have worked with them over the years, they 
try to correct me, and they tell me, no, 1972, and I say no, 
no, it is 1872, and they don't believe it.
    I know a large majority of my fellow Wisconsinites want 
reform along the lines that you have heard here today. Some of 
the topics that I will not talk about but only mention, that we 
have dealt with in Wisconsin, and I would be glad, Mr. 
Chairman, member, to discuss this with you. There are people in 
Wisconsin who have dealt with it, who could also be helpful. 
The jobs issue. It is a ruse, in most cases. We have had mine 
developments open and closing, many, many jobs promised. There 
were jobs, temporarily.
    The real estate industry does pretty well for a while. Most 
of the jobs come into the community by expert people. A few 
local guys get to drive some trucks and make some money. But it 
is not the boom you think, in terms of the local people. I 
would urge you to look at the work of a professor, sociologist, 
Al Gedicks, University of Wisconsin, who has done a form called 
The End Of An Era, done extensive research on boom/bust 
economies as far as mining is concerned, and his research would 
be helpful to you.
    The water issue is critical. Wisconsin, we have got lots of 
water. You folks don't have nearly enough and you have to be 
very careful about it. But even in Wisconsin, we have had 
serious water issues with these mining proposals, proposals to 
build 20 mile pipelines, to move water from one river to 
another river, all kinds of schemes to deal with the water, all 
of which could be real problematic.
    We have stopped some of the worst ones in Wisconsin, I am 
proud to say.
    The ownership issue. We have dealt with at least two cases 
where the owners were foreign corporations, they had local 
subsidiaries, no connection and accountability. As Secretary of 
State, I understand something about corporate accountability. 
That is where you have a local Falambo Mining Company--that is 
a real story in Wisconsin--that was also owned by Rio Tinto, 
Inc., a British company--but Rio Tinto had no responsibility 
for the liabilities of Falambo Mining Company who was actually 
on the job, driving the bulldozers. Very complicated.
    And one thing I have heard nothing about, that I will just 
mention, that is processing. We heard about three trucks an 
hour going somewhere, but I don't know where they are going, 
and that is another factor that your community should watch out 
for, cause where they take that ore presents another very 
serious issue to be concerned about.
    Well, in conclusion, I urge you to finally reform the 1872 
Mining Law, it has become a sad joke, and it is a giant give-
away of public resources. And I want to thank you very much for 
this opportunity to not only be here today but to enjoy your 
beautiful community. I will come back again, I assure you. 
Thank you.
    Mr. Grijalva. Thank you, Mr. Secretary. I did very well 
trying to keep the elected officials to 3 minutes, and I 
promise to do better in the rest of it, and I would really hope 
that--it is a courtesy and a protocol--but as we go forward, 
that the names that are called, please, so that we can get as 
many people as we can in to discuss, try to keep it at three 
minutes.
    I have some good comments here from the Vindiola family, 
and I would like to ask Ms. Anita Vindiola to please come 
forward for three minutes.
    Ms. Vindiola. Yo soy la Senora Anita Vindiola. Y vengo a 
decir que por favor pues que no destruyen alla, yo recreo en 
los montes. Que alla vamos cada summer con mis hijos y mis 
nietos. [English translation: I am Mrs. Anita Vindiola. And I 
came to say that please don't destroy over there, I recreate in 
the mountains. It's over there that we go each summer with my 
children and grandchildren.]
    Mr. Grijalva. A little English, a little Spanish. That will 
work too.
    Ms. Vindiola. So I would appreciate very much if they 
wouldn't destroy all the--I am 82 years old and here I am still 
going over there with my children and grandchildren to pass the 
days and pick acorns. Then if all those trees are gone, we are 
not going to have that anymore, no bellotas.
    Mr. Grijalva. That would be terrible, no bellotas. It would 
really be terrible. Thank you very much. Thank you and I 
appreciate it, and your comments will be part of the record, 
that you submitted. Thank you.
    Let me at this point welcome Mr. Manny Armenta for his 
comments, please. And after him--I will call up a couple of 
names. After him, Ms. Nancy Freeman, after Mr. Armenta.
    Mr. Armenta. Thank you, Chairman Grijalva, and 
Congresswomen Giffords. My name is Manny Armenta. I am the 
subdistrict director for the United Steel Workers of America, 
that represents the mining industry. I am personally in charge 
of Arizona, New Mexico, Colorado, Utah, and southern Idaho in 
my subdistrict. I guess I'm here as a minority but I do support 
Rosemont in their efforts to do it. I have worked a lot in my 
career with the different people and organizations in the 
environmental issues.
    I also was involved with the ASARCO situation, which has 
drastically changed because it was Grupo Mexico, not 
necessarily ASARCO. I believe that in the 30 plus years I have 
been in this industry--I am also a third generation miner--that 
this is probably one of the best plans I have seen, and I know 
there are a lot of issues out there, environmental. But I feel 
that our Government, through the EPA, should enforce the laws 
that are out there, and unfortunately, I don't see that 
happening.
    I think we have an umbrella to cover those issues that are 
not being covered, and if Rosemont was to fall in the same 
predicament as the other people we deal with, EPA should do it, 
and I thank you for your time, for letting me speak here. I do 
believe this could be a positive thing, and we could stop, we 
could stop all the metals that are coming in from other parts 
of the world, because this country no longer has an industrial 
base in this country, because some of the decisions the parties 
have done, mostly the Republican Party with their free trade 
issues that are now affecting this country. Thank you very 
much.
    Ms. Freeman. I am Nancy Freeman, Groundwater Awareness 
League. I really appreciate this opportunity and thank you all 
for being here. I am going to talk about water but I have to 
stick in one comment because everyone is interested in jobs, 
and the mining company talks about high-paying jobs. In 1985, a 
haul truck driver at Mission Mine, or Twin Buttes Mine, got $15 
an hour, and that is the starting pay for a haul truck driver 
today.
    So the myth of the high-paying jobs is long since gone. I 
have been studying the water pollution by mining and the water 
depletion problems in Arizona for over four years now.
    From extensive research, including attending committee 
hearings at the Arizona Legislature, I would suggest that there 
be a thorough hydrological study of water levels of national 
forest and national wildlife refuges in the Southwest, and that 
consideration be made to protect the groundwater levels in 
public lands. Mining is one industry that uses huge amounts of 
water for their extraction processes.
    In Arizona, industries, including power plants in mining, 
are exempt from all groundwater pumping laws, even in active 
management area. This means that in regions of mining, 
groundwater tables are going down and there is no recourse. 
Problems of depletion in mining areas was highlighted in early 
1970's, when Farmers Cooperative in Green Valley, sued the 
local mining companies for depletion of the Santa Cruz aquifer, 
which would eventually infringe on their water rights in that 
aquifer.
    Further, Farmers Cooperative and Tucson Water Company 
asserted that water not fit for drinking should not be put into 
the aquifer, and I have included copies of those law suits. I 
remind you, that at least in Arizona, the so-called aquifer 
protection permit is an aquifer pollution permit, allowing 
industry to pollute up to a certain point.
    So, in Green Valley, we have a sulphate level, ambient, of 
50 milligrams per liter whereas aquifer protection permit 
allows pollution up to 250 milligrams per liter, and this is a 
special case. In New Mexico, they felt lucky to get 650 
milligrams per liter.
    Frankly, I want to speak up for the trees, plans, and 
wildlife. Birds and animals do not have the intelligent 
capacity nor the ability to dig wells down to bedrock at 12,000 
feet, then decide what they are going to do next, as we do in 
Arizona. They are dependent on surface water. The water has to 
be cleaned. Not only is Rosemont area in danger of dropping 
water table, but we have a similar situation in the Superior 
area, where a British company proposes to tunnel down to 7000 
feet, which means the tunnels will have to be de-watered down 
to 7000 feet.
    At the Oak Flat, U.S. Forest Service campground, there is a 
stunning and diverse array of priceless breeding and wintering 
birds, that bring birders throughout central Arizona. And 
mining is not the only source of drawdown in Forest Service 
areas in public lands. At the Buenos Aires Wildlife Refuge, the 
riparian area is being threatened by exempt wells pumping in 
nearby Arivaca. The Tonto National----
    Mr. Grijalva. If you could just start to conclude. Thank 
you.
    MS. Freeman. Okay. The Tonto National Forest riparian areas 
are being dried up by development near Payson. So originally, 
the Forest Service was designated to provide a watershed. So I 
hope this important aspect of the National Forest will be taken 
into consideration, and I do have quite a bit of documentation 
to give you a lot of information.
    Mr. Grijalva. Thank you, and let me just for the sake of 
trying to get as many people that have requested, which we 
won't get to everybody, that written comments are going to be a 
part of the record, they can be submitted for 10 days.
    [NOTE; Numerous comments, letters and statements submitted 
for the record have been retained in the Committee's official 
files.]
    Mr. Grijalva. And what was the other point I was going to 
make? The little red light means something, and----
    [Laughter.]
    Mr. Grijalva. Dr. Tim Marsh, please.
    Dr. Marsh. Representatives Grijalva and Giffords, it is a 
pleasure to be here today. I am not like the other people who 
have spoken today. I am a scientist, I am an engineer, with a 
PhD from Stanford University in the field of ore deposits and 
exploration. I am a geologist. I look for new ore deposits. I 
am formerly chief geologist of Resolution Copper Company. I am 
a graduate of the Colorado School of Mines. Rocks are my 
business.
    You can't go anywhere on this planet and find copper. It 
comes from very specific environments, and I would argue that 
the Santa Rita Mountains are a very precious environment that 
needs to be preserved. It needs to be preserved for a single 
purpose that is the exploitation of mineral resources.
    One thing we have done in this country very successfully, 
and that is to preserve parts of our country for special uses. 
We have national parks, we have State parks, we have got a lot 
of areas that have been zoned for very specific uses.
    We have got industrially-zoned parts of our towns and 
counties. I have witnessed, firsthand, the results of Mr. 
Huckelberry's efforts in Pima County and what his dream is for 
this county. I don't like what I see. I see tens of thousands 
of acres being paved over by residential areas, and instead of 
triangle-leaf bursage, and prickly pear, and creosote, all the 
plants that we love as part of our Sonoran Desert, we see 
houses and houses and houses, and a serious problem is arising 
in our Nation today because of that uncontrolled growth, and 
that is the paving over of our Nation's mineral resources.
    We have got housing developments in Casa Grande and in Pima 
County, here, that are being built on our Nation's mineral 
resources. There is a hungry dragon east of here by the name of 
China, and all of Eastern Asia, that is growing phenomenally 
fast, and it is sucking up minerals from the places that we 
have been importing them from.
    From Chile, from Peru, from Mexico, those minerals are 
going to China, they are going to India, to make the things 
that everybody has to have these days. We have all got to have 
Ipods, we have all got to have cars with our 40 pounds apiece 
of copper in them. That copper has got to come from somewhere.
    We are not going to be able to get it from Chile forever. 
We are not going to be able to get it from Mexico forever. We 
have got to get it where we have got it, and where we have got 
it is in the Santa Rita Mountains. It is in Pima County. Pima 
County is an epicenter of mineral resources, specifically 
molybdenum, uranium, gold, copper. This is the place. Let's 
protect it for the right use and the right use is development 
of mineral resources. Thank you very much.
    Mr. Grijalva. Thank you, sir. Let me call a couple of 
names. Mr. Dick Schuman and Ms. Dawn Garcia. Is Mr. Schuman 
here?
    Audience Member. He is not here.
    Mr. Grijalva. Okay. Ms. Garcia, and after her will be Joy 
Maccabee.
    Ms. Garcia. My name is Dawn Garcia. I am an Arizona 
licensed professional geologist. I am representing the American 
Institute of Professional Geologists, the Arizona section, and 
we formally ask that the U.S. and State governments do whatever 
they can to better facilitate development of this country's 
valuable mineral resources.
    AIPG supports unfettered access to public lands for 
environmentally responsible and smart development of mineral 
resources. The vast extent of public lands managed by Federal 
and State agencies contains undiscovered and discovered 
resources that are vital to maintaining and improving 
Americans' standard of living and national security.
    Existing Federal and State laws and regulations are 
intended to ensure that the citizens protect water, air, 
biological and cultural resources that exploration and 
development of mineral resources is undertaken with minimal 
adverse impacts to the natural environment.
    Restricting access to public lands severely inhibits the 
responsible development of domestic energy and mineral 
resources. Such restrictions further impact the national 
economy and our quality of life.
    Lack of access to public lands encourages imports of oils, 
metals, and other resources from other conventional without the 
environmental protection laws that we have in the U.S., or from 
countries where those are not enforced.
    The American Institute of Professional Geologists believes 
that the U.S. should be a world leader in environmentally 
responsible development of its own natural resources. Please do 
not weaken the 1872 Mining Law. The American Institute of 
Professional Geologists encourages the U.S., State and local 
governments, to facilitate the development of domestic natural 
resources.
    Thank you for listening to this testimony and entering this 
document into the public record.
    Mr. Grijalva. Thank you very much. I recognize 
Congresswomen Giffords.
    Ms. Giffords. Yes. Thank you, Chairman Grijalva. I am glad 
to see such an interest in this. I thought the hearing was 
going to go to noon and I have a 12:30, and I need to step out, 
but if you would please make sure that I have information that 
is going to be proposed.
    And, particularly, I just want to say, because I do believe 
that a hearing is important to hear all sides, and I know that 
we are now just starting to hear from the other side of the 
issue, and I am looking forward to hearing that testimony but I 
have to leave, so----
    Mr. Grijalva. Thank you very much. I called Joy Maccabee, 
and also let me call a couple more names. Glenn Martin after 
that, and Scotty Johnson after that.
    Is Joy here?
    Scotty Johnson here? And then Mr. Martin after that, 
please. Okay.
    Mr. Johnson. Congressman Grijalva, many thanks for keeping 
alive via such meetings the all-important dialogue of democracy 
and for bringing this opportunity for citizens in the area to 
speak on this issue which is important to all of us.
    My name is M. Scott Johnson. I am both a native Arizonan 
and the senior outreach representative for Defenders Of 
Wildlife in Tucson. Defenders is a national wildlife 
conservation organization dedicated to the protection of all 
native animals and plants in their natural communities.
    I prepared some comments in more formal fashion and I will 
submit those, in writing. I will skip some of them today 
because I think a lot of people have covered a lot of the 
impacts of the Rosemont mine, in particular.
    And I want to jump straight to the overarching 1872 Mining 
Law, and I want to put it in the context of as we look at the 
environment in large, and how that has changed since 1872.
    As we look at the newly free rein that the law, today, 
gives on environmental concerns, it is important to note that 
the forests of America and the American Southwest are in 
serious trouble.
    They are suffering, not from one factor but from many 
factors. A sort of death by a thousand cuts. Extended drought, 
an epidemic of pinebark beetles, a century of fire 
mismanagement, extirpation of keystone and cornerstone species, 
an influx of invasive species, and surface disruption, which 
this would be one.
    And then overarching all of this, we have the larger 
concerns of global loss and biodiversity, facing what 
biologists call the Sixth Great Extinction, and global climate 
change, which is throwing factors into this we cannot even 
being to think about or imagine, or can't even begin to 
quantify exactly. Extreme water events and their impacts on 
mining collection ponds is a good example.
    I just have to say, quickly, that any new developments now 
allowed in the Coronado National Forest, under the auspices of 
that law, should proceed with a scientifically-based, holistic 
view of forest and diversity health. Rosemont is just such a 
situation.
    Now, in quantifying the science here, it is important to 
note that we can't quantify this exactly because our National 
Forest policy has also gone a sort of ``death by a thousand 
cuts.'' Reduced funding and resources for forest managers, 
politics over science, and land managers and scientists--excuse 
me. Politics over science and special interests over public 
interests.
    They have handcuffed our land managers and eliminated good 
scientific data. One example of this is the wildlife population 
viability analysis which were required in the regulations in 
the National Forest Management Act.
    Shortly after taking office, George W. Bush gutted these 
PVAs. These were enacted under the Reagan Administration as 
Reagan's wildlife legacy policy, as part of the Forest Service 
Management Act regulations. Assessing the health, or viability 
of wildlife populations under this, this is a necessary tool, 
and we have that no longer because the Bush Administration saw 
an expedient and eliminated--saw those as inexpedient and 
through expediency eliminated those.
    So, in closing, let me just directly say that the mission 
of the 1872 Mining Law needs to be updated, both to ensure 
forest health and to ensure consideration of a new emerging 
ethic or value that the public has, in seeing the forest as a 
resource for future generations.
    This emerging ethic is a desire to leave wildlife and wild 
lands legacy for our children and grandchildren, and to enjoy 
forests as we now enjoy them.
    There is now, in the public mind, a new spirit born of 
concern for our forests, and a strong desire to protect them, a 
new ethic, a new value, yet unformed in 1872 when this mining 
law took effect, and this ethic, this desire to leave a 
wildlife legacy----
    Mr. Grijalva. You need to wrap up pretty soon, Mr. Johnson.
    Mr. Johnson.--for future generations must be taken into 
consideration and thank you very much, sir.
    Mr. Grijalva. Let me call Mr. Martin. If I may, before you 
begin Mr. Martin, let me call some other names. Annie McGreevy, 
Richard Bishop and Jesse Edmondson. If those three could be 
ready. Okay. Sir, please.
    Mr. Martin. Thank you, Mr. Chairman. My name is Glenn 
Edward Martin. I am the president and CEO of United Mines, 
Incorporated. We're an Arizona corporation. We are at 11924 
North Santoras Place. My phone number is [520] 742-3111. How is 
that for transparency? Anybody wants to contact us, we are 
available to talk on all these issues.
    Primarily, going back in, starting with Mr. Featherstone 
who mentioned that, you know, the 1872 laws were not applicable 
today. Well, the Comstock Load was a huge silver mining 
operation, started Virginia City, and if it wasn't for the 
Comstock Load and the Government using that silver, we might 
all be speaking in southern tongues.
    So it goes back to a long history. Yes, this 1872 Mining 
Law needs to be corrected and things need to be modified with 
it. The biggest thing that I see throughout the threads of 
everybody's comments is we're not paying royalties.
    I agree with that standpoint. I believe mining is a God-
given right, and it is under the laws of the United States, and 
I believe we should be paying for those rights.
    We own some 3500 acres of mineral rights in Arizona, 
primarily in southern Arizona. We own a mill site down by 
Arivaca that Mr. Huckelberry had mentioned about the Rancho 
Seco project. The Rancho Seco project, we spent several 
millions of dollars, that gave to local landowners, and they 
did not take into any context of the subsurface mineral rights, 
that they could either go to the BLM themselves and get, or 
that type of nature.
    They also wanted--the patented properties on the Rancho 
Seco property is called the Silver Queen. It's a 20 acre 
patented piece that is now owned by Pima County and there's 
huge tailing piles there, but they're not doing anything with, 
and it's going to just go right into the water.
    Pima County needed to address these things before. They put 
millions of dollars in the pockets of a few landowners but they 
did not take in any mineral rights concerns at all. We would 
offer to even clean up that site, free. Give us the patented 
property, we'll clean it all up for them. It's not a problem. 
But Pima County is not addressing--they're buying property and 
they are not addressing their own cleanup problems at the 
properties that they buy.
    The landowners that are out there do not take into effect 
mining that is out there. They own the surface rights but they 
do not do anything with the subsurface rights, and they cave in 
a lot of these tunnels that are a danger to people coming 
through that area.
    Primarily that is the main thing I wanted to address, was 
the fact that we need to pay royalties. You know, I think as 
Augusta Resources is a Goliath, we are Little David. You know, 
they have a very good plan, from what I have read from it. I 
would encourage the board to approve their plan, and we need, 
as Dr. Marsh had said, we must go into an industrial age and 
competing with the gross domestic product of China, is 8 to 10 
percent, and right now, they have already stopped 50 percent of 
their copper exports.
    So we need to mine where we can, and it is good right now. 
We thank you again.
    Mr. Grijalva. Thank you.
    Ms. McGreevy. Chairman Grijalva, I am Annie McGreevy from 
Senoita. I bring you the resolution passed yesterday by the 
Santa Cruz County Board of Supervisors, requesting permanent 
withdrawal of mining exploration and extraction from all 
Federal lands within Coronado National Forest in eastern Santa 
Cruz County.
    Whereas the U.S. Forest Service, via the National 
Environmental Policy Act, will be required to take into account 
consistency with local land use plans, which in this case is 
the Santa Cruz County comprehensive plan, and whereas the Santa 
Cruz County Board of Supervisors believes mineral exploration 
and extraction is not consistent with the goals of the Santa 
Cruz County comprehensive plan for this area of our county, and 
whereas the Santa Cruz County Board of Supervisors has concerns 
about both the quantity and quality of groundwater resources in 
eastern Santa Cruz County, critical to support our current and 
projected residential population.
    And whereas recent studies of 70 environmental impact 
statements for modern era hard rock mines found that water 
quality impacts from mineral extraction are consistently 
underestimated, and therefore mitigation measures are 
inadequate and undercapitalized, leaving taxpayers with unjust 
financial burdens.
    And whereas mineral extraction has a legacy, in Arizona, of 
leaving behind adverse environmental, economic and visual 
impacts, that place undue hardships upon local citizenry, and 
often require Federal assistance for reclamation and 
restoration efforts, such as the removal action currently 
underway in Alum Gulch, Flux Canyon, in eastern Santa Cruz 
County.
    And whereas recent budgetary reductions in the United 
States Department of Agriculture left the United States Forest 
Service understaffed, and therefore unable to adequately 
monitor mineral exploration and extraction activity in Santa 
Cruz County, now therefore be it resolve that the Santa Cruz 
County Board of Supervisors requests that the Arizona 
congressional delegation initiate the permanent withdrawal of 
mineral exploration and extraction from all Federal lands 
within Coronado National Forest in eastern Santa Cruz County. 
Passed and unanimously adopted by the Santa Cruz County Board 
of Supervisors, this 23rd day of February 2007, yesterday 
afternoon.
    Mr. Grijalva. Thank you very much. Mr. Edmondson, and I 
believe I called Mr. Richard Bishop and Mr. Bill Ketzel after 
that. Sir.
    Mr. Edmondson. Hello. My name is Jesse Edmondson. I am a 
resident in Tucson. I have been here for about 11 years. Not 
very happy to be here. I would rather be working. I have come 
to these with the resolutions for Pima County against this 
mine, and it's also taken me away from work. A lot of us who 
have work have not been able to come to these meetings.
    The resolution from Santa Cruz, I found out yesterday, at 
2:30. They had their meeting at 2:00 o'clock. I would not have 
been able to be there if I tried. There is transparency on that 
side.
    This comes down to a moral issue to me, and a value issue. 
People talk about jobs, with no value of what that implies. 
Jobs implies families, children, lifestyle. At least for 20 
years to me is still life--it is still more important than any 
endangered species I have ever met. A human life is way more 
valuable than that.
    A tree is not as valuable to me as somebody's life and 
livelihood. We are not taking that into consideration. We are 
saying save these mountains but get employed 400 families.
    Another issue I have is the 1872 mine law has been, as Mr. 
Sturgess has said, amended, adopted. We have laws, and laws and 
laws that we have forgotten. Let's enforce some of our laws.
    EPA has tons of laws, to where it is almost impossible to 
start mining. If we enforce some of these, the mines will be 
cleaned up. We are also holding Augusta to a unfair level. They 
are humans, we are all humans, and we are expecting perfection 
from them. Leaks will happen from any industry. Accident 
happen.
    As far as pollution, our vehicles are more of a pollutant 
in this area than Augusta mine will be.
    As far as water, stop development. If this mine is out 
there, I believe the developments will stop out there. As we 
have heard Carol say, there is going to be developments, this 
land will be developed, in one way or another. What is the best 
way to develop it is what is at issue. I believe the mine will 
stop public developments which would--and I believe septic 
tanks of the residents out there now to be as detrimental as a 
mine, to me.
    I was trained in the Marine Corps to make right decisions, 
and I was also trained in my family to make right decisions. If 
I didn't believe in Augusta, I would not have been working for 
them. I have turned away other jobs that I don't feel well 
about; other missions, personally. Illinois. We lost our family 
farm from the Nature Conservancy because they condemned us for 
a plant. My family's lives were ruined, and consequently, 
divorce, from an environmental movement. I jokingly call the 
Reversal of Freedom Acts.
    I do not feel free. I feel I am endangered again from 
environmental movements, because they don't value my life or my 
decisions. They would rather look at a tree and a mountain. 
Thank you.
    Mr. Grijalva. Thank you, sir. I called Mr. Bishop and Mr. 
Katzel next, if they are here. Sir.
    Mr. Bishop. Yes. Richard Bishop, Chairman of the Dragoon 
Conservation Alliance in Dragoon, and I would like to also 
thank you for having these hearings.
    Our group has dealt with a number of mining operations that 
are proposed, and we would like to add, that we believe the 
mining law of 1872 needs to be reformed, revised. But one, we 
would also like to make a point that that is not the only law 
that needs revision.
    In particular, our community has had to deal with aspects 
of the Stock Raising Homestead Act of 1916, and that Act 
involves the ability of mining companies to make claims on 
private land, and that has caused quite a bit of problems in 
our community. Just to give you an example, an elderly lady who 
has lived in Arizona for quite a while, and got a letter in the 
mail, that in 30 days, a large Australian copper company was 
planning to start drilling and exploring on her ten acres. To 
us, this seemed unbelievable, but, in fact, it is part of the 
law, the Stock Raising Homestead Act of 1916, and in 
conjunction with the 1872 Mining Law, that private land can be 
claimed.
    We think that needs to be changed. There was a revision in 
1993, that basically just allowed a 30-day advance notice. 
Before that, there was no notice, and we think that when people 
move and buy that land, their piece of land, five acres, ten 
acres, 20 acres, intending to have a small ranchette, they 
should not have to put up with the prospect of a mine operation 
starting drilling in their back yard.
    My second point has to do with the Forest Service, and 
there have been some mine issues where we have tried to 
communication with the Forest Service and we find it difficult, 
and, in fact, in the Forest Service's own planning, meetings 
for their long-range plan, they found that communication is one 
of the biggest complaints.
    We don't believe that the 1872 Mining Law, or any other 
law, says that the Forest Service can only talk to the mining 
companies. We would like that community groups also have the 
ability and the access to the Forest Service. In particular, I 
would give it as an example, that just a few months ago, Phelps 
Dodge did a drilling project in the Dragoon Mountains off 
Middlemarch Road, that was on the schedule of proposed actions 
of the Forest Service. We believe that all actions should be on 
the schedule, and they should be available for public review. 
In this case, by the time we learned of it, there was no time 
for public review, and this was a fairly substantial project 
that involved building a helicopter pad in the National Forest, 
running water lines, and drilling.
    So to conclude, we would like to see better communication 
with the Forest Service through your oversight ability. We 
would like to see that our group could communicate a little 
better with the Forest Service, we get advance notice of what 
is going on, so that we can decide whether we want to oppose or 
not oppose actions in terms of mining. Thank you.
    Mr. Grijalva. Thank you.
    Mr. Katzel. My name is Bill Katzel. I am a two year 
resident of Green Valley. I am a 31-year-resident of Pima 
County, and ``Mo'' Udall was my Congressman when we first acme 
here. In a previous incarnation, I was representing the health 
of every American citizen as the regulations officer for the 
U.S. Public Health Service. They call it delegated legislation. 
Every piece of legislation that Congress passed, at least in 
the health arena, required that the executive agency implement 
that law through regulation. I was responsible for Title 42 and 
Title 21.
    If the analogies apply, Congress has three immediate 
remedies. One is the withdrawal legislation analogous to the 
Cave Creek Act. Second, long term, is the modification of the 
1872 Mining Act. Third, and overlooked in this hearing today, 
is the requirement, through legislation, for executive agency 
regulations to be implemented to the congressional intent, and 
subsequently reviewed by Congress to ensure that that intent is 
met by the implementation. Thank you very much.
    Mr. Grijalva. Thank you very much. Let me call a couple 
more names before the time runs out on us. Christina McVie and 
Mr. Mark Marra, in that order, and we were just talking about 
``Mo'' Udall and I received a note, a quote of ``Mo'' Udall. 
``Everything has been said but not everyone had said it.'' And 
I thought it was kind of interesting. No reflection on you.
    [Laughter.]
    Ms. McVie. Mr. Chairman, I hope not to include anything 
that has previously been said.
    Mr. Grijalva. Thank you.
    Ms. McVie. Mr. Chairman, first of all, congratulations and 
welcome home----
    Mr. Grijalva. Thank you.
    Ms. McVie.--distinguished members of local Government, my 
name is Christina McVie, and I am the Conservation Chair of the 
Tucson Audubon Society. I am going to cut, this isn't going to 
make a lot of sense because I am just going to hit some 
highlights. I will submit fully competent, written comments, 
but in interest of time, let me just cut to the chase.
    I am speaking today on behalf of our more than 4000 member 
households in southern Arizona. As this hearing will assist in 
the determination of possible future uses of public lands in 
Pima County, it is critical that it set a direction that 
focuses on the best scientific and commercial information 
available.
    The Tucson Audubon Society is engaged in wildlife issues in 
southern Arizona and, in particular, has focused on research, 
education, recreation and conservation through habitat 
protection and restoration, specifically of riparian systems.
    We have partnerships with private and governmental entitles 
and work to conserve and protect habitats where wildlife is at 
risk to the many factors that threaten their existence, such as 
development, habitat fragmentation, roads, watershed 
degradation, exotic invasive species, and subsequent fires, and 
the potentially toxic byproducts of our transportation, sewage, 
mining and commercial operations.
    We have helped to gather the scientific data to identify 
and protect significant bird habitats as part of an 
international effort known as the important bird area program, 
which is particular relevant to protecting a diversity of 
wildlife species.
    For the record, the Santa Rita Mountains have been 
designated as an important bird area and reviewed by a 
scientific panel for inclusion in that designation.
    Our members enjoy wildlife viewing, and think it is 
critically important to protect habitat and ensure sustainable 
populations of the full spectrum of native species.
    In the 2006 draft Arizona Game and Fish Department 
strategic plan for the years 2007-2012, Wildlife 2012, it 
states that the goals of its wildlife program are to conserve 
and preserve wildlife populations and habitat, to provide 
compatible public uses while avoiding adverse impacts to 
populations and habitat, and to promote public health and 
safety and to increase public awareness and understanding of 
wildlife resources.
    One of their recreation strategies is to, quote, 
``identify, assess, develop and promote watchable wildlife 
recreational opportunities.'' End quote.
    You might be surprised to learn that birding leads all 
other recreational activities in promoting the economic growth 
of ecotourism in Arizona. A 2001 study on birding impacts by 
the United States Fish and Wildlife Service estimated that 
there are 56 million American birders, who account for $32 
billion in annual retail sales.
    I am going to cut right to Pima County. I will submit the 
rest.
    In Pima County alone, watchable wildlife generated retail 
sales of $326,536,328. We created 3,196 full and part-time 
jobs, earning salaries and wages of $90,726,309.
    We contributed State sales and fuel tax revenues of 
$9,908,109, State income tax revenues of $2,267,822, and 
Federal income tax revenues of $15,820,112.
    So please consider this information as you deliberate, help 
our community ensure a stable economy, help us save all the 
public lands, or any jurisdictionally-protected lands in Pima 
County for future generations, and I thank you.
    Mr. Grijalva. Thank you. Mr. Marra, and after Mr. Marra, 
Don Steuter, and Mike Quigley. And that should probably wrap us 
up. Sir.
    Mr. Marra. Thank you for the opportunity, Chairman 
Grijalva. I didn't come here today with the expectation of 
speaking, but again, thank you for the opportunity. I am an 
engineer, an economist, and I am also an attorney. I represent 
a number of interests in the mining industry, and natural 
resource sector. However, today, my comments are strictly my 
own.
    The first thing I want to say, just for the record, is that 
I very strongly oppose any withdrawal of any minerals within 
Pima County or Santa Cruz County, or, for that matter, anywhere 
in the United States.
    Minerals are not held by the crown, they are held by the 
Federal Government, in trust, for citizens. I am a citizen 
regardless of where I am. I happen to live in Maricopa County. 
However, people in New York have just as much right to these 
minerals as anybody in Pima County.
    These minerals were reserved for society, to benefit 
society, and we should not restrict access to these minerals. 
If we do, we will no longer have them, and be able to provide 
cars and put them into production for all the things that we, 
as people, use and need, electricity being the primary use.
    The second thing that I want to point out and mention, that 
I strongly oppose any change to the mining law. Specifically, I 
oppose any change that would necessarily take hard rock, load 
minerals into a leasable category. To the extent that there are 
changes, I suggest that you work with the resource sector in 
working out those changes.
    To the extent that there is just a wholesale change in the 
laws, it will have drastic consequences, and we, as a society, 
national security, we will not be able to further our interests 
nationally, and that is a serious problem. I implore you not to 
consider withdrawal of minerals in Pima County or elsewhere, or 
further changes to the mining law. It is not broken; let's not 
try and fix it. Thank you for your time.
    Mr. Grijalva. Thank you, sir.
    Mr. Steuter. Chairman Grijalva, my name is Don Steuter. I 
am the Conservation Chair for the Grand Canyon chapter of the 
Sierra Club. We have about 13,000 members in Arizona. About 
3500 of those reside in the Tucson area. The Sierra Club leads 
hikes, has for many years in the Santa Ritas. We love this area 
dearly. We opposed the mine back in the 1970's, when the land 
exchange was proposed by ASARCO, and we are opposing this mine 
now.
    I guess I would have to start by taking issue with some of 
the comments, that somehow mining is going to save us from 
growth and from development. I guess if you degrade an area 
enough, and make it ugly enough, people probably won't want to 
live there. So, to some extent, maybe it is true. But I would 
suggest that probably the opposite really has happened over the 
past century, and that is that this country's policy of 
producing cheap minerals, which is really what the mining law 
of 1872 is all about these days, by encouraging mining in 
virtually all areas on public lands, including areas that are 
near and dear to our hearts, special places, really has 
resulted most of the time in overproduction of various 
minerals.
    Speaking of special places, I had a chance, about a week 
ago, to fly over parts of central Arizona in a small plane, the 
Globe, Superior, Miami area, and get a aerial perspective of 
our mines, and then also a perspective of some of the proposed 
mine sites, and even though I've hiked in these areas for 
probably 15 or 20 years, this was a different vantage point for 
me.
    And it was very interesting, flying south, from Superior 
towards Hayden, looking out of one side of the plane and seeing 
the Ray mine with Mineral Creek obliterated for most of its 
distance on its way to the Gila River, the deep pits and the 
tailings, and waste rock piles, and then looking out the other 
side of the plane, and seeing the White Canyon wilderness, a 
beautiful place called Battle Ax Butte, a place called The 
Spine, just north of the Gila River, a magnificent area, a big 
horn sheep population in there, very rugged, very wild, very 
scenic, very important for recreation purposes, and as you 
might have guessed, a mine, an open pit mine is proposed right 
adjacent to the White Canyon wilderness.
    From there, we flew towards Miami, we flew up Pinal Creek, 
over the Pinal Valley mine, and in that area a mine has been 
proposed for about the last 10 or 15 years, called the Carlotta 
Mine, and that area contains probably some of the finest desert 
riparian vegetation anywhere in the Southwest. We have studied 
this area for a long time, environmental groups have. We have 
been opposed to this mine site. This mine would suck water out 
from underneath Haunted Canyon, probably either kill this 
riparian area from underneath, or another scenario would be if 
one of the tailings dams failed up in a nearby gulch, bury it 
from above with mining waste.
    I am convinced, that if we could get enough people out to 
see these special places, that we could reform the 1872 Mining 
Law in very short order, and I think what we need to do is 
start thinking about some sort of a leasing system like we have 
with oil and gas in this country.
    We need to prioritize areas that are mineralized, figure 
out which ones are special places, which ones are suitable for 
mining and which ones are not.
    Mr. Grijalva. Thank you, sir.
    Mr. Steuter. Thank you for your time.
    Mr. Grijalva. I called another name, if that person is not 
here. Mr. Quigley.
    Mr. Quigley. Chairman Grijalva, thank you for the 
opportunity to speak today on this important issue. My name is 
Mike Quigley and I represent Sky Island Alliance, a regional 
conservation group working to preserve the rich national 
heritage of the Sky Island region. We are based here, in 
Tucson.
    To the issue before you today, Sky Island Alliance opposes 
the Rosemont mine in the Santa Rita Mountains. Further, we 
submit that our public lands are more valuable intact than dug 
up. There are currently eight open pit copper mines in varying 
degrees of operation in Southeastern Arizona.
    Our region has done our fair share of producing raw 
materials for growth at home, and increasingly, for growth in 
countries far from home. We are proud to contribute to the 
success of our great Nation, though economically depressed 
communities, environmental Superfund sites, and big ugly holes 
in the ground are the costs of doing business that we have 
shouldered for that contribution.
    Southeast Arizona and the larger Sky Island region have 
been named a World Biodiversity Hot Spot, and for good reason. 
The natural beauty and ecological integrity of our region are 
truly special, and they are assets that support one of the 
largest service and recreational-based economies in the West.
    The Coronado National Forest, a treasure of southern 
Arizona, and indeed, the Nation, hosts more special and 
endangered species than any other forest in the Southwest. We 
submit that the Coronado National Forest and its Sky Island 
mountain ranges provide more to our Nation's character than one 
more open pit copper mine ever will.
    The copper era in Arizona has been surpassed by a 
diversified and more sustainable economy supported, not by what 
we take from the earth, but by what we leave intact to enjoy 
and relish.
    The value of preserved wild lands and open space, of views 
free from mine tailings, of natural places for recreation and 
spiritual connection, these are driving forces of the economy 
of the New West.
    Please permit me to make our point directly. In Arizona and 
throughout the West, our national forests are worth much more 
to us intact than dug up. It is not 1872; it is 2007. The times 
have changed. The West has changed. We urge you, we encourage 
you, we ask you, our leaders and fellow citizens in Congress, 
to guide us forward towards a more intelligent and sustainable 
future, a future of 21st Century vision, not 19th Century 
exploitation.
    Thank you for the opportunity to speak today.
    Mr. Grijalva. Thank you very much.
    Before we end this hearing, let me thank Pima County, Mr. 
Huckelberry and his staff, for their hospitality, beyond the 
work that they put into making sure that this hearing could 
take place. I want to thank them very much.
    I also thank the committee staff for assisting me through 
this first run at a hearing. I appreciate it very much, and 
thank you. Patience and advice have been very helpful, and I 
appreciate that very much.
    The issue of unfettered access to public lands is part of 
what I heard today, and that is represented very well under the 
1872 Mining Law, and I think part of the hearing also was to 
begin to talk about and acquire the information, beginning the 
process to look at that law of 1872, between the point of 
unfettered access to the point of the needing to modernize and 
bring that law up to date to what the West is really now as 
opposed to what it was in 1872, and going through the very 
difficult process with this law--and I think the Secretary made 
a good point--that this 1872 law is not going to be ``a walk in 
the park'' as we begin to look at modernizing it, creating a 
balance, looking at issues of transparency, what the taxpayer 
gets back as a consequence of the extraction, and the 
reclamation responsibilities and the liabilities to the 
American taxpayers if their reclamation standards are not 
strong.
    So as we go through this process, I appreciate all the 
commentary today in that process. The short term is the Santa 
Ritas, the Rosemont proposal before us, and the effect, not 
only on the general region, but the effect and affect on the 
Coronado National Forest.
    That is as we look at a remedy for that situation and 
consider crafting legislation to specifically deal with that 
issue. We will certainly disseminate that information to all 
parties. We try to be as balanced today, asking both members 
that support the mine in the audience as well as those that are 
opposed. I want to thank all of you, want to thank the staff, 
and my colleague, Congresswoman Giffords, for the time that she 
was here with us.
    Before I adjourn, you know, I told Gabby we were going to 
end with--since we have been invoking ``Mo'' Udall twice today, 
I thought a third time would be okay.
    ``Mo'' Udall's politician's prayer, and before I adjourn, I 
told Gabby that I would do that.
    ``Lord, may the words I speak be soft and gentle, for 
tomorrow I may have to eat them.'' And so I----
    [Applause.]
    Mr. Grijalva. I want to thank everyone in attendance, and 
with that, this hearing is now adjourned. Thank you very much.
    [Whereupon, at 1:20 p.m., the hearing was adjourned, 
subject to the call of the Chair.]

    [Additional material submitted for the record follows:]

    Response to Mr. Grijalva's question from Jeanine Derby, Forest 
                  Supervisor, Coronado National Forest

Qu estion: ``How has the Coronado National Forest been involved in the 
        Sonoran Desert Conservation Plan?''
    Response: The Sonoran Desert Conservation Plan, initiated in 1999, 
is a guide for Pima County to use when determining where to focus land 
acquisition or conservation easements within the County in order to 
protect valuable open space. The County's desire is to protect open 
space corridors in the County that connect lands already protected from 
development (including federally managed lands) thus creating a network 
of ecologically valuable corridors as habitat for wildlife and other 
values. Public support for subsequent bond issues provided funding to 
support the Plan.
    The Forest Service role in the early development of the Plan was to 
provide biological information about habitat for species of concern on 
National Forest lands and adjacent lands. The Coronado Forest Biologist 
attended several meetings to provide biological information to the 
planning group. The County did not address private land parcels 
interior to the National Forest for purchase with the bond proposals.
    The County's Conservation Plan is now being implemented. The 
Coronado National Forest stays informed of the County's activities 
under the Plan through informal information exchange through the Tucson 
Basin Managers' meetings. Upper management for Forest Service, Park 
Service, Bureau of Land Management, Fish and Wildlife Service, Pima 
County and AZ Game and Fish meet over lunch about once a month to 
exchange information. Tucson Basin Planners, staff for these same 
agencies, meet periodically to coordinate planning efforts and to work 
on joint projects, such as noxious weed eradication and riparian 
restoration.
    The Coronado National Forest is currently revising the Forest Land 
Management Plan. The Sonoran Desert Conservation Plan is one of the 
plans that will be incorporated by reference, along with other land use 
plans such as the Santa Cruz County Comprehensive Plan. The Coronado 
National Forest Land Management Plan revision will be completed in 
2009. Chuck Huckleberry stated in his testimony at the hearing that the 
next attempt to pass a bond issue will include consideration of private 
lands interior to the Coronado National Forest.

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
